<html>
<title> - EVALUATING CURRENT U.S. GLOBAL FOOD SECURITY EFFORTS AND DETERMINING FUTURE U.S. LEADERSHIP OPPORTUNITIES</title>
<body><pre>[Senate Hearing 112-736]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-736

 
 EVALUATING CURRENT U.S. GLOBAL FOOD SECURITY EFFORTS AND DETERMINING 
                  FUTURE U.S. LEADERSHIP OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                        DEVELOPMENT AND FOREIGN
                   ASSISTANCE, ECONOMIC AFFAIRS, AND
                 INTERNATIONAL ENVIRONMENTAL PROTECTION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 28, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
?




                  U.S. GOVERNMENT PRINTING OFFICE
79-798                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

           SUBCOMMITTEE ON INTERNATIONAL DEVELOPMENT        
           AND FOREIGN ASSISTANCE, ECONOMIC AFFAIRS,        
           AND INTERNATIONAL ENVIRONMENTAL PROTECTION        

             BENJAMIN L. CARDIN, Maryland Chairman        

ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
RICHARD J. DURBIN, Illinois          JAMES E. RISCH, Idaho
TOM UDALL, New Mexico                JAMES M. INHOFE, Oklahoma

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
McKenna, Tjada, Deputy Coordinator for Development for Feed the 
  Future, Bureau for Food Security, U.S. Agency for International 
  Development, Washington, DC....................................     6
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    61
O'Brien, Paul, vice president for Policy and Campaigns, Oxfam 
  America, Washington, DC........................................    33
    Prepared statement...........................................    36
Shrier, Jonathan, Acting Special Representative for Global Food 
  Security, Deputy Coordinator for Diplomacy for Feed the Future, 
  U.S. Department of State, Washington, DC.......................    13
    Prepared statement...........................................    14
    Response to question submitted for the record by Senator 
      Benjamin L. Cardin.........................................    59
Veillette, Dr. Connie A., independent consultant, senior adviser, 
  Global Agricultural Development Initiative, Chicago Council on 
  Global Affairs, Fairfax Station, VA............................    48
    Prepared statement...........................................    50
Walsh, Conor, Tanzania Country Director, Catholic Relief 
  Services, Baltimore, MD........................................    40
    Prepared statement...........................................    43

              Additional Material Submitted for the Record

Mercy Corps, prepared statement..................................    58

                                 (iii)

  


 EVALUATING CURRENT U.S. GLOBAL FOOD SECURITY EFFORTS AND DETERMINING 
                  FUTURE U.S. LEADERSHIP OPPORTUNITIES

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2012

        U.S. Senate, Subcommittee on International 
            Development and Foreign Assistance, Economic 
            Affairs and International Environmental 
            Protection, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Casey, and Lugar.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Good morning. Let me welcome you all to the 
Senate Foreign Relations Subcommittee on International 
Development and Foreign Assistance, Economic Affairs and 
International Environmental Protection. We have to work at 
shortening the title of that subcommittee. [Laughter.]
    Let me thank, first, Senator Kerry for allowing the 
subcommittee to move forward on this very important hearing 
dealing with global food security.
    And I want to acknowledge the extraordinary work that has 
been done by Senator Lugar, a longtime champion on this issue, 
and we thank him very much for his leadership. He has been a 
tireless champion for the hungry, the poor, and the most 
vulnerable in the global community. His advocacy on this issue 
and so many policies that seek to change the world for the 
better will be sorely missed, and I want to again thank him for 
the work that he has done globally on this issue and the role 
that the United States has played.
    His cochampion in the Senate has been Senator Casey, and I 
think Senator Casey will be joining us a little bit later on 
filing the Lugar-Casey Global Food Security Act. It was 
initially filed in 2008 and again in 2011 to promote U.S. 
leadership on this issue.
    Last Thursday, most Americans sat down at our dinner tables 
with our families and enjoyed a great Thanksgiving meal, but 
that night, 870 million people around the world went to bed 
hungry and undernourished. Now, quite frankly, that is an 
improvement. A year ago, that number was 1 billion. So we have 
made progress. But global hunger remains an enormous problem. 
The Millennium Development goal of halving the prevalence of 
undernourishment in the developing world by 2015 is within 
reach.
    In 2009, Secretary Clinton said we have the resources to 
give every person in the world the tools they need to feed 
themselves and their children. So the question is not whether 
we can end hunger, it is whether we will end it.
    Ending global hunger and poverty is a monumental task. 
Addressing the challenges posed by global food insecurity 
requires a multifaceted approach. It requires strengthening the 
strategic coordination to align the efforts of the private 
sector, civil society, aid recipient governments, and 
multilateral institutions. It requires investments in cutting-
edge agricultural and sustainability technologies. It requires 
policy changes by developing country governments to correct 
land tenure and natural resource management, especially water 
resources. And it requires a commitment to gender integration 
and the development of programs to support women farmers.
    The more I look at this issue, the more I start to 
appreciate that this is solvable, but we have to deal with the 
land reforms. We have to deal with gender issues. We have to 
deal with water management. Those matters are critically 
important in the developing world.
    Through our Feed the Future initiatives and the G8's New 
Alliance for Food Security and Nutrition, I believe we are 
making great strides in global food security.
    Feed the Future focuses on small farmers, particularly 
women. It helps countries to develop their agricultural sectors 
to generate opportunities for broad-based economic growth and 
trade which in turn supports increased incomes and helps reduce 
hunger.
    G8's New Alliance is an effort to leverage private sector 
support for agricultural development and food security and 
includes commitments of $3 billion in private investments from 
45 companies. But we must make sure that these investments are 
not at the expense of small, local businesses addressing hunger 
in their own community.
    What we are trying to do much bigger than simply giving 
food to the poor and hungry. We are trying to change the 
economics by transforming how people farm and what people eat. 
Ensuring that our world's most poor and hungry have access to 
food is important, but as we see right here in America, access 
to food does not guarantee proper nutrition. Studies show that 
a child's entire life is shaped by whether or not they receive 
proper nutrition during the first 1,000 days from pregnancy to 
age 2. This has a profound impact on children's ability to 
grow, to learn, and to contribute to their society. That is why 
addressing undernutrition is key to both Feed the Future and 
the President's Global Health Initiative.
    But proper nutrition is not just important to individual 
health. It is critical to the long-term health and success of a 
nation. Poor nutrition results in a less healthy and less 
productive workforce, hampering economic development and 
growth, and ultimately perpetuates the cycle of hunger and 
poverty for another generation.
    So by investing in agriculture and nutrition, we are 
investing in prosperity and not just other people's prosperity 
but our own. In our globalized economy, if developing countries 
do better, we do better. We also do better when we make smarter 
decisions about how to spend our critical foreign assistance 
dollars. After all, as USAID Administrator Shah has said, it is 
8 to 10 times more expensive to feed people when they are in 
crisis than to help farmers feed themselves and build better 
resources.
    As you are all aware, Mali, one of the Feed the Future 
focus countries is in the midst of an internal political 
conflict which has exacerbated a food crisis brought on by 
severe drought in the region. The situation in Mali highlights 
how the tragic convergence of conflict, climate, and economic 
shocks can have dire consequences on human and food security.
    In regions that are prone to these challenges, such as the 
Horn of Africa, we must build resiliency and sustainability 
into our development programs. One of the ways we can do this 
is through Feed the Future. With world population expected to 
exceed 9 billion by 2050, transforming how people farm and what 
people eat is the only way, I believe, to ensure food security 
for future generations. An end to global hunger and poverty 
will not happen tomorrow, but if we continue to coordinate with 
our global partners, harness the power of the private sector, 
and use our development aid in the most effective and 
transparent way, we have a much better chance of favorable 
outcomes.
    I look forward to hearing from the witnesses today about 
the successes and challenges that we face in global food 
security initiatives and the impact of private sector and NGO's 
coordination in ending the plight on the world's poor and 
hungry.
    I will now yield to Senator Lugar for his opening comments 
and once again congratulate him for his leadership on this 
issue on behalf of the United States.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I join the chairman in welcoming our 
distinguished witnesses and thank him for holding this hearing.
    Our committee has given frequent attention to global food 
security and I have had the pleasure to work with friends who 
are committed to this issue, including Senator Casey, who 
joined me in offering the Global Food Security Act in the last 
Congress.
    In past hearings, I have asserted that overcoming global 
hunger by addressing shortcomings in worldwide agricultural 
productivity and marketing should be one of the ``starting 
points'' for U.S. foreign policy. This sometimes surprises 
people given all the risks and dangers faced by our country in 
many regions throughout the world. But I have not advanced this 
concept casually.
    Nothing is more elemental to human experience and 
development than having access to adequate and reliable sources 
of food. We live in a world where nearly a billion people 
suffer from chronic food insecurity. Tens of thousands of 
people die each day from causes related to malnutrition. 
Experts advise us that chronic hunger leads to decreased child 
survival, impaired cognitive and physical development, and 
weaker immune system function, including resistance to HIV/
AIDS.
    These grave humanitarian consequences are sufficient cause 
for us to strengthen our efforts on global food security. But 
we also know that few humanitarian problems, if any, have a 
greater capacity to generate political instability and 
conflict. Hungry people are desperate people and desperation 
can sow the seeds of radicalism. Our diplomatic efforts to 
maintain peace will be far more difficult wherever food 
shortages contribute to extremism, conflict, or mass migration. 
Our hopes for economic development in poor countries will 
continually be frustrated if populations are unable to feed 
themselves.
    As a farmer and a member of the Agriculture Committee for 
36 years, I have followed closely developments in agriculture 
technology and productivity. My concern has been that despite 
the past advancements of the Green Revolution, agriculture 
productivity is not advancing fast enough to meet the needs of 
a world that is expected to exceed 9 billion people by 2050. 
Demand for food also will be intensified by increasing 
affluence among the enormous populations of China, India, and 
other emerging industrial powers. The problems of volatile 
energy costs, water scarcity, climate change, and more 
resilient pests threaten to severely limit food production in 
many vulnerable regions.
    The global response to this threat has been insufficient. 
Worldwide funding for agricultural assistance declined sharply 
after the 1980s and has not recovered despite some recent 
progress. The trade policies of both developed and developing 
countries too often have focused on protecting domestic farmers 
rather than creating well-functioning international markets.
    My view of the importance of global food security to the 
United States is motivated not solely by problems we can solve, 
but also by the economic and foreign policy opportunities 
available to us. We produce more abundantly than any other 
country and we are on the cutting edge of research and farming 
techniques that could literally save hundreds of millions of 
people in the coming decades. Our farmers, agricultural 
businesses, NGOs, and research universities should be at the 
center of global efforts to meet burgeoning food demand.
    Following the President's pledge at the 2008 G8 summit of 
$3.5 billion over 3 years toward global food security, the 
administration established the Feed the Future Initiative. 
Since its inception, the program has received nearly $1 billion 
annually from the Congress, and we anticipate continued budget 
requests at this level. Today we have an opportunity for an 
update on this Initiative, as well as a chance to think more 
comprehensively about a larger U.S. role in global food 
security.
    I will be interested to learn from our witnesses the degree 
to which Feed the Future is demonstrating tangible results in 
reducing hunger. Is it effectively supporting smallholder 
farmers, especially women, by encouraging access to land, new 
technology, and agriculture extension services? Additionally, 
what market development and access opportunities are now 
available to these farmers, and what support are they receiving 
from their own governments which have partnered with the United 
States through Country Investment Plans? Is the initiative 
successfully engaging our own farmers and our agriculture 
research institutions to achieve greater productivity and 
higher yields in countries struggling with food insecurity?
    I also look forward to the recommendations of our 
distinguished second panel on improving Feed the Future and on 
addressing any shortcomings. More broadly, how should the 
United States structure its future global food security efforts 
to maximize agricultural productivity and support the efforts 
of U.S. institutions?
    I look forward to our discussion.
    Senator Cardin. Thank you, Senator Lugar. There is no 
question that this committee and this Congress places a strong 
priority on international global areas with food security. Feed 
the Future is a relatively new initiative that has strong 
support here in Congress, as you pointed out, by the amount 
that has been appropriated every year.
    One of the most important responsibilities of this 
committee is oversight. We strongly support the initiative, but 
we want to make sure the moneys are being used most 
appropriately, leveraged in the best way, and I hope today's 
hearing will allow us to focus on ways that we can improve the 
U.S. involvement on global food security.
    With that, let me call on our first panel. I am pleased to 
have with us Tjada McKenna, the Deputy Coordinator for 
Development for Feed the Future at USAID's Bureau for Food 
Security. 
Ms. McKenna coordinates implementation of Feed the Future 
across the U.S. Government, oversees its execution, and reports 
on results, and leads engagement with the external community to 
ensure that food security remains high on the development 
agenda.
    Ms. McKenna joined USAID from the Bill and Melinda Gates 
Foundation where she served as the senior program adviser in 
the Agricultural Development Program. In this role, she 
developed grants and strategies to effectively link smallholder 
farmers in Africa and South Asia to markets.
    Ms. McKenna earned a B.A. from Harvard College in 
government and an M.B.A. from Harvard Business School.
    We are also joined by Jonathan Shrier, Acting Special 
Representative for Global Food Security and Deputy Coordinator 
for Diplomacy for Feed the Future at the Department of State. 
Mr. Shrier leads diplomatic efforts to advance the U.S. 
Government's global hunger and food security initiative with 
particular focus on major donor and strategic partner 
countries, as well as multilateral institutions such as G8 and 
G20.
    Mr. Shrier previously served on the Secretary of State's 
policy planning staff of the National Security Council and the 
National Economic Council and at the U.S. States Department of 
Energy where he helped to design and establish the Energy and 
Climate Partnership of the Americas. As a Career Foreign 
Service officer, Mr. Shrier handled international development 
investment issues, in addition to energy, environment, and 
agricultural policy initiatives.
    Mr. Shrier holds a degree from the National Defense 
University, University of London, London School of Economics, 
and Dartmouth.
    We will start with Ms. McKenna.

STATEMENT OF TJADA McKENNA, DEPUTY COORDINATOR FOR DEVELOPMENT 
FOR FEED THE FUTURE, BUREAU FOR FOOD SECURITY, U.S. AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. McKenna. Thank you. Good morning, Chairman Cardin, 
Senator Lugar, and members of the subcommittee. Thank you for 
inviting me to speak with you today. It is an honor to meet 
with you about the U.S. Government's leadership to reduce 
global hunger, poverty, and undernutrition through the Feed the 
Future Initiative.
    As the initiative's Deputy Coordinator for Development, I 
will be focusing on Feed the Future's development efforts, 
while my counterpart at the State Department, Jonathan Shrier, 
will address diplomacy efforts.
    Recently we issued the first-ever Feed the Future progress 
report in which we were able to highlight advances to date in 
our efforts. We are proud to report that in our short life we 
have directly helped more than 6.6 million households to 
improve agricultural productivity, and we have reached nearly 2 
million food producers with improved practices to support 
higher crop yields and increased incomes.
    In addition, Feed the Future supported efforts have reached 
nearly 9 million children with nutrition interventions. But 
there is so much more to do, as you both have stated.
    The U.N. Food and Agriculture Organization recently 
released a report estimating that there are now almost 870 
million hungry people in the world, 98 percent of them living 
in developing countries. While these numbers have adjusted down 
from recent estimates, it is still 870 million too many people. 
With the growing population and ever fewer resources, the time 
to continue to act is now.
    This is exactly what President Obama intended when he asked 
global leaders to join him in confronting global hunger and 
poverty at the 2009 G8 summit in L'Aquila, Italy. There 
President Obama pledged $3.5 billion over 3 years to address 
this challenge, building upon efforts of the previous 
administration to secure funding for an increased focus on 
global agriculture particularly in Africa. This set the 
foundation for what eventually came to be called Feed the 
Future.
    The U.S. Government's pledge in L'Aquila leveraged more 
than $18 billion in additional support from other donors, 
signaling a vastly increased global commitment to significantly 
reduce the number of people living in extreme poverty and 
suffering from hunger and undernutrition. These commitments 
could not have come at a more important time. For more than 2 
decades, funding for agriculture had been on the decline, 
leaving the world ill-prepared for the challenges of growing 
food insecurity. In 2007 and 2008, soaring food prices set the 
world on edge, but they also convinced global leaders that it 
was finally time to do things differently.
    Feed the Future expands the United States impact as a 
political and moral force in the fight against global hunger 
and poverty. With a focus on smallholder farmers, particularly 
women, we support countries in developing their agriculture 
sectors as a catalyst to generate opportunities for broad-based 
economic growth which can support increased incomes and help 
reduce hunger.
    Agricultural growth is the key to reducing poverty in the 
developing world. Seventy-five percent of the world's poor live 
in rural areas in developing countries where most people's 
livelihoods rely on agriculture. Recent studies from the World 
Bank established that growth in agriculture is on average at 
least twice as effective in reducing poverty as growth in other 
sectors.
    Feed the Future complements our joint commitment to 
providing food aid and other humanitarian assistance during 
times of crisis by promoting a lasting solution to hunger 
through a long-term commitment to agricultural growth. Feed the 
Future also integrates nutrition interventions to ensure that 
our investments lead to both improved agriculture and better 
health and support conflict mitigation and good governance 
efforts that are required to achieve the goals of reducing 
poverty and undernutrition.
    When Feed the Future began, the President asked that we do 
things differently to get better results for every taxpayer 
dollar invested in this effort. We have taken that directive to 
heart and are proud of the many ways we are working toward that 
goal.
    First, we are improving collaboration within the U.S. 
Government, with partner countries, with other donor countries, 
and with stakeholders in civil society and the private sector. 
It is worth noting that this is the first time we have 
effectively connected all U.S. Government efforts targeted at 
global hunger and food security. In fiscal year 2011, 5 of our 
10 interagency partners reported into the Feed the Future 
monitoring system, enabling us to create a governmentwide 
picture of the results of our combined efforts that are 
reflected in our progress report.
    Second, we are focusing on women and smallholder farmers as 
part of the solution and continuing to work toward equitable 
land rights in the areas in which we work.
    Third, we are working hand in glove with our global health 
colleagues to better integrate our agriculture and nutrition 
efforts.
    Fourth, we are focusing on research as a key to 
transforming rural agriculture economies centered on an 
approach that encourages sustainable and equitable management 
of land, water, fisheries, and other resources and takes into 
account the anticipated effects of climate change.
    And fifth and most importantly, we are measuring results 
and are holding ourselves accountable through rigorous 
monitoring and evaluation.
    Collectively, these efforts are meant to build upon the 
long-term resilience of communities so that they are able to 
adapt to and recover from the shocks and stresses and move 
forward with enhanced livelihoods. While we cannot prevent 
future shocks such as drought from occurring, we can help make 
them less devastating while ensuring the continuation of long-
term growth.
    Feed the Future faces several challenges: ensuring 
productive interagency and donor collaboration; more effective 
integration of agriculture and nutrition; and the threats posed 
by global climate change, to name some examples. Each of these 
requires considerable effort and time to succeed, and we accept 
that change does not come easily or quickly to any sector. We 
have been asked to do things differently and we are. As time 
moves on, we expect to execute our development interventions 
even more efficiently to the benefit of millions of smallholder 
farmers and families worldwide.
    In closing, I would like to thank the Congress for its 
strong support of this vital initiative and note that we 
greatly appreciate your continued support of our work. Feed the 
Future is more than an initiative. It is part of the lasting 
architecture of our development platform and lays the 
groundwork for us to be more effective, more efficient, and 
more successful in the work that we do. Feed the Future is 
bigger than any one agency or administration. It is part of our 
global legacy.
    Thank you for inviting us to speak with you today. I 
welcome any questions, comments, and suggestions you may have.
    [The prepared statement of Ms. McKenna follows:]

                  Prepared Statement of Tjada McKenna

    Good morning Chairman Cardin, Ranking Member Corker, and members of 
the subcommittee. Thank you for inviting me to speak with you today. I 
am pleased and honored to be able to talk to you about the important 
role that the U.S. Government is playing to help reduce global hunger 
and poverty through the Feed the Future initiative, the challenges we 
face, and our progress thus far.
    The Food and Agriculture Organization of the United Nations (FAO) 
recently released a report estimating that there are now approximately 
870 million hungry people in the world, 98 percent of them living in 
developing countries. While these numbers have adjusted down from 
recent estimates, it is still 870 million too many. Compounding this 
problem, research indicates that by the year 2050, the world's 
population is projected to increase by 38 percent to more than 9 
billion, which, combined with changing diets, will require up to a 60-
percent increase in food production to feed us all. We confront these 
challenges in a world that has less land and fewer resources available 
for production.
    Against this backdrop, at the 2009 G8 summit, President Obama 
pledged to provide at least $3.5 billion over 3 years--between fiscal 
year 2010 and fiscal year 2012--to attack the root causes of global 
hunger and poverty through accelerated agricultural development and 
improved nutrition. The U.S. Government's commitment leveraged more 
than $18 billion in additional support from other donors, creating the 
financial capacity to significantly reduce the number of people living 
in extreme poverty and suffering from hunger and undernutrition. This 
commitment to the importance of agriculture in sustainably reducing 
hunger and poverty could not have come at a more important time. For 
more than two decades, funding for agriculture had been on the decline, 
leaving the world ill-prepared to cope with the growing challenge of 
food insecurity. In 2007 and 2008, soaring prices for basic staples 
coupled with shortsighted policy responses, like export bans and panic 
buying, had set the world on edge. But it also convinced global leaders 
that it was finally time to do things differently.
    In September 2012, the U.S. Government met President Obama's $3.5 
billion pledge. In fact, we have now obligated $3.786 billion and 
disbursed $1.134 billion against the President's pledge. And while we 
are proud of the United States leadership and commitment in this 
effort, there is still so much more to be done.
    Feed the Future expands the United States impact as a political and 
moral force in the fight against global hunger and poverty. With a 
focus on smallholder farmers, particularly women, this initiative 
supports countries in developing their agriculture sectors as a 
catalyst to generate opportunities for broad-based economic growth and 
trade, which can support increased incomes and help reduce hunger. 
While we recognize the importance of providing food aid and other 
humanitarian assistance during crises to save lives and protect 
livelihoods, Feed the Future helps promote a lasting solution to hunger 
through a commitment to agricultural growth and other actions to 
prevent recurrent food crises. Feed the Future also integrates 
nutrition interventions to ensure that our investments lead to both 
improved agriculture and better health, and supports conflict 
mitigation and good governance efforts that are required to achieve the 
goals of reducing poverty and undernutrition.
    When Feed the Future was launched, the President asked that we do 
things differently to get better results for every taxpayer dollar 
invested in this effort. We have taken that directive to heart, and are 
proud of the many ways we are working toward that goal.
    Just last month, the administration released the first Feed the 
Future Progress Report and Scorecard, which present the progress 
achieved by Feed the Future from May 2009 through May 2012. The Report 
and Scorecard detail the strides that the initiative is making in 
research and development, leveraging private sector dollars, building 
capacity, and achieving key results to sustainably reduce hunger and 
poverty. The Progress Report shows that, by marshaling resources for 
food security and by improving the way we do development, Feed the 
Future aims to reduce the prevalence of poverty and the prevalence of 
stunted children under 5 years old by 20 percent in the geographic 
areas where we work.
    We have already seen many successes. In fiscal year 2011 alone, 
Feed the Future helped 435,728 farmers in Bangladesh learn to apply 
deep fertilizer placement and urea briquettes, improving management 
practices on 244,605 hectares and leading to a 15-percent increase in 
rice yields. As a result, the country's Barisal division experienced 
its first-ever rice surplus. Globally, in fiscal year 2011 we directly 
benefited more than 6.6 million households, brought 2.4 million 
hectares of land under improved technologies or management practices, 
and increased investment in agricultural and rural loans by $103 
million.

                             COLLABORATION

    We are improving coordination in many ways. Feed the Future 
resources are aligned with country-led priorities. Donors can achieve 
more effective and lasting results when they champion the development 
visions and efforts of partner countries' own governments and citizens. 
Feed the Future worked with other development partners to assist focus 
countries in creating and implementing their own multiyear Country 
Investment Plans (CIPs) for agricultural development, such as those 
under the Comprehensive Africa Agriculture Development Program (CAADP). 
These plans are based on transparent and inclusive consensus-building 
processes, including engagement of the private sector, civil society 
and other stakeholders, and take into account the interests of women 
and other disadvantaged groups. In addition, these country-owned plans 
lay out priority areas, clear costing and projections of financial 
need, defined targets, and desired results.
    Through Feed the Future, we are working hard to improve 
collaboration within the U.S. Government. Previous GAO reports have 
concluded that earlier U.S. Government efforts on food security lacked 
a cohesive interagency strategy. Much of Feed the Future's durability 
as a new model stems from the creation of an overarching whole-of-
government strategy, embedded in the Feed the Future Implementation 
Guide, to combat food insecurity and undernutrition. Feed the Future 
has been successful in implementing that strategy, joining the 
resources and expertise of the U.S. Agency for International 
Development (USAID), the U.S. Departments of Agriculture, Commerce, 
State and Treasury, the Millennium Challenge Corporation (MCC), the 
U.S. African Development Foundation, the Peace Corps, the Overseas 
Private Investment Corporation, and the Office of the U.S. Trade 
Representative. This is the first time that we have effectively 
connected all U.S. Government efforts targeted at global hunger and 
food security and underpinned our resources with rigorous systems to 
track performance. In fiscal year 2011, five of these agencies reported 
into the Feed the Future Monitoring System, enabling us to create a 
governmentwide picture of the results of our combined efforts.
    Feed the Future is showing that interagency partnerships can work 
and be successful. As the initiative's Deputy Coordinator for 
Development, I work closely with my counterpart at the State 
Department, Deputy Coordinator for Diplomacy Jonathan Shrier, to ensure 
that all of the agencies involved are integrated into the initiative 
via a cohesive, coordinated strategy both here in Washington and on the 
ground in Feed the Future focus countries. For example, with over half 
of its total investment portfolio supporting food security, MCC's 
experience has helped guide Feed the Future's program design, 
particularly on land tenure and property rights, infrastructure, 
monitoring and evaluation, and gender integration. MCC and USAID are 
working closely to complement and build on each other's food security 
investments. In Ghana, for example, USAID will support three MCC-funded 
post-harvest Agribusiness Centers, benefiting about 3,000 farmers. And 
in Senegal, USAID will support MCC's investment in irrigated 
agriculture and roads by promoting value chains, soil management, 
access to credit, post-harvest facilities, capacity-training, quality 
standards, and marketing in the same geographical areas.
    We know that neither the U.S. Government nor partner governments 
can do this work alone. Civil society organizations in donor and 
partner countries bring a wealth of ideas, energy, and resources to the 
fight against global food insecurity and undernutrition and are 
critical to the success of Feed the Future. Their work complements the 
work of governments, multilateral organizations, and the private 
sector--including program implementation, product delivery, advocacy, 
education, and even funding. We value our close relationship with these 
partners. This relationship was highlighted by Secretary of State 
Hillary Clinton, who recently announced at a Feed the Future event that 
InterAction, an alliance of 198 U.S.-based organizations, has pledged 
more than $1 billion of private, nongovernmental funds over the next 3 
years to improve food security and nutrition worldwide. We look forward 
to working with them on key food security issues.
    Likewise, the importance of the private sector's role in food 
security cannot be overemphasized. The private sector brings the 
necessary investment and needed technology for countries, communities, 
and citizens to create opportunities for new businesses, stronger 
farms, and more vibrant markets. Our strategic alliances with the 
private sector align their core business interests with our development 
objectives. These ``win-win'' partnerships advance the impact of 
sustainable development and foster private sector-led growth in 
emerging markets, critical to reducing poverty, fighting hunger, and 
improving nutrition. The U.S. Government will further its partnership 
with the private sector through participation in the G8's New Alliance 
for Food Security and Nutrition, which has already mobilized more than 
$3.5 billion in new private sector commitments from more than 70 
African and international firms looking to expand their agriculture-
related business across Africa. The U.S. Government will also mobilize 
private sector investments through its contribution to the World Bank-
housed Global Agriculture and Food Security Program's Private Sector 
Window, which offers loans, equity capital, and advisory services.

                A FOCUS ON WOMEN AND SMALLHOLDER FARMERS

    In addition to improving coordination within and across sectors, 
Feed the Future is doing development differently by integrating 
important cross-cutting issues in all of our work, for example, by 
focusing on women as part of the solution. Women play a vital role in 
advancing agricultural development and food security. They participate 
in all aspects of rural life--in paid employment, trade and marketing, 
as well as in tending crops and animals, collecting water and wood for 
fuel, and caring for family members. Yet women have less access than 
men to land, financing, production inputs, technical assistance, and 
other resources that could help them become better producers and 
providers for their families. The FAO estimates that if women had the 
same access to productive resources as men, they could increase farm 
yields by 20 to 30 percent, translating to enough food to feed an 
additional 150 million people. To better empower women agricultural 
producers to reach their full potential, Feed the Future promotes 
women's leadership in agriculture, fosters policy changes that increase 
women's land ownership, and strengthens their access to financial 
services. Through the initiative, female farmers are encouraged to 
adopt new agricultural technology aimed at increasing productivity and 
reducing unpaid work. To measure how well our investments are tracking 
against this ambitious goal, Feed the Future, in collaboration with the 
International Food Policy Research Institute (IFPRI) and the Oxford 
Poverty and Human Development Initiative of Oxford University, launched 
the Women's Empowerment in Agriculture Index in early 2012. The index 
is the first tool to measure women's growing role in decisionmaking 
about agricultural production; their growing ownership of land, 
livestock, and other resources; their leadership in the community; and 
their control of time and income.
    We also continue working toward equal, nondiscriminatory and secure 
land rights in the areas in which we work. Across the developing world, 
farmers, particularly smallholders, face challenges securing their 
rights to land and other natural resources. This may limit their 
ability to keep others off their land; limit their incentives to 
improve land or adopt new technologies; limit their ability to leverage 
resources most effectively; and hinder development of shared usage 
arrangements, for example, between herders and farmers. Around the 
world, weak land governance systems contribute to political, social, 
and economic instability. By formalizing the rights of land and 
resource users and by making land governance systems and institutions 
more accountable, accessible, and transparent, positive incentives to 
conserve resources and put them to productive and sustainable use will 
be created. Under Feed the Future, we encourage governments and private 
sector investors to recognize and respect the legitimate rights of 
individuals, communities, and legal entities, whether held formally or 
through custom, to manage, benefit from the use of, and trade rights to 
land and other resources. Formalizing these rights will foster a more 
secure and stable enabling environment to support economic growth and 
improved agricultural productivity. The United States has played a 
leading role on international negotiations for political instruments to 
promote sound resource governance policies; notably, a USAID official 
served as the international chair of the negotiations at the FAO's 
Committee for World Food Security for the Voluntary Guidelines for 
Responsible Tenure of Land, Fisheries and Forests. The United States is 
also a leading voice in the development of the Principles for 
Responsible Agricultural Investment.

                         HIGHLIGHTING NUTRITION

    The Feed the Future initiative also actively integrates nutrition 
and agriculture interventions. Studies show that strong nutrition early 
in life contributes to human and economic capacity through improved 
learning and productivity, and contributes to a robust, capable 
workforce. Strong nutrition--particularly during the 1,000-day window 
from pregnancy to a child's second birthday--contributes to economic 
growth and poverty reduction. Strong nutrition also promotes gender 
equality and opportunities for women and girls, lessens susceptibility 
to other deadly diseases, and is critical to national prosperity, 
stability, and security. Feed the Future supports food value chains 
that have high nutritional benefits and works with families to improve 
not only agricultural productivity and income, but also dietary 
diversity. We are also working hand-in-glove with our global health 
teams to identify and strengthen linkages between agriculture and 
nutrition. On a programmatic level, we are implementing both Feed the 
Future and global health activities in the same geographic zones to 
maximize results. In fiscal year 2011, 8.8 million children under 5 
were reached by Feed the Future-supported nutrition programs.
    We continue to work to improve and increase our impact in this 
area. During a high-level meeting on the Scaling Up Nutrition (SUN) 
Movement at the U.N. General Assembly this year, USAID Administrator 
Rajiv Shah announced that the agency needed to do more to ensure that 
the principles and programmatic priorities of SUN are fully integrated 
across all relevant USAID-supported programs in the 14 countries where 
SUN, Feed the Future, and global health efforts overlap: Bangladesh, 
Ethiopia, Ghana, Guatemala, Haiti, Malawi, Mali, Mozambique, Nepal, 
Rwanda, Senegal, Tanzania, Uganda, and Zambia.

                 UTILIZING NEW TECHNOLOGY AND RESEARCH

    Feed the Future is also focusing on research as a key to 
transforming rural agriculture economies. We cannot expect to increase 
global food production by 2050 without the development of new 
technologies and practices to produce more with fewer inputs. In May 
2011, the U.S. Government released a new Feed the Future research 
strategy informed by a consultative, multistakeholder process led by 
USAID, in close collaboration with USDA and university partners. As 
part of the new strategy, Feed the Future has better aligned all U.S. 
Government agency research programs to improve resource efficiency and 
generated new relationships with the private sector. In one major push, 
USAID and USDA are working together on high-impact research to combat 
wheat rust, a major threat to wheat production worldwide, and 
aflatoxin, a toxic fungus that infects many crops and causes illness.
    We are moving research results from the laboratory to the field. In 
fiscal year 2011 alone, Feed the Future helped 1.8 million food 
producers to adopt improved technologies or management practices that 
can lead to more resilient crops, higher yields, and increased incomes.
    This research strategy takes into account the critical challenge 
that climate change poses to food production around the world. As 
carbon dioxide concentrations rise, global temperatures are increasing, 
precipitation patterns are changing, and ocean acidification is on the 
rise. These changes are already affecting agriculture and food security 
directly. Feed the Future is working in concert with the U.S. Global 
Climate Change Initiative to develop strategies and undertake research 
to help food producers both reduce greenhouse gas emissions and adapt 
to climate change so that food security can be increased despite 
changing climate patterns.
    Feed the Future strategies are designed not only to accelerate 
agriculture-led growth and reduce undernutrition, but also to encourage 
sustainable management of land, water, fisheries, and other resources. 
Poor land use and agricultural practices are common factors that 
increase the vulnerability of developing countries to global threats 
such as water scarcity and pandemic disease. A core focus of the Feed 
the Future research agenda is sustainable intensification, the concept 
of producing more agricultural output from the same area of land while 
reducing negative environmental consequences. Feed the Future 
integrates environmental concerns into our investments and builds the 
capacity of partner countries to take advantage of opportunities in 
effective resource management and proactive adaptation to environmental 
challenges. Climate-smart agriculture practices like conservation 
agriculture and agroforestry enable the capture and storage of water 
and nutrients in soil to support plant growth and conserve soil. For 
example, Feed the Future is leveraging resources to better inventory 
and track land resources for agriculture and is building capacities 
with host governments and other partners to geospatially map land cover 
and land use for integrated management of watersheds.
    We are working to ensure that these great strides achieved in 
research are sustainable. To do that, it is critical that we work to 
develop the next generation of agricultural leaders. Through Feed the 
Future's Borlaug 21st Century Leadership Program, the U.S. is helping 
to train individuals and strengthen developing country public and 
private institutions, enabling them to take advantage of scientific and 
technological breakthroughs to promote innovation across the 
agricultural sector. The program will provide short-term training to 
over 2,500 students, researchers and agricultural leaders; provide 
fellowships and mentoring to nearly 1,000 agricultural researchers; 
provide full fellowships to 75 M.S. or Ph.D. students; and improve more 
than 60 institutions in Africa, which will in turn affect over 250,000 
students.

                 BUILDING RESILIENCE AND SUSTAINABILITY

    Collectively, these efforts are all meant to help build up the 
long-term resilience of communities so that they are able to adapt to 
and recover from shocks and stresses and move forward with enhanced 
livelihoods. A recent DFID study showed for every $1 spent on 
resilience, $2.80 of benefits is gained through avoided aid and animal 
losses. By supporting stronger markets, better infrastructure, and new 
technologies, Feed the Future will help build resilience and equip 
communities with the tools, the knowledge, and the enabling environment 
to thrive in times of prosperity, and to overcome difficulties in times 
of hardship. With clear lessons learned from our response in the Horn 
of Africa drought last year, as an agency USAID is doing business 
differently to build resilience among vulnerable communities in the 
Horn and elsewhere to ensure continued growth by bringing our relief 
and development teams together for joint assessments of local needs. 
USAID's Bureau for Food Security, which leads Feed the Future, is 
working closely with the USAID Food for Peace program and the Bureau 
for Democracy, Conflict, and Humanitarian Assistance to integrate 
resilience programming to help communities better prepare for, respond 
to, and bounce back from crises when they do occur. While we cannot 
prevent future shocks from occurring, we can help make them less 
devastating while ensuring the continuation of long-term growth.

                     HOLDING OURSELVES ACCOUNTABLE

    Finally, Feed the Future is doing things differently by measuring 
results and holding ourselves accountable through rigorous monitoring 
and evaluation. To do this, we have created the Feed the Future Results 
Framework, which establishes the goals and objectives of the 
initiative, linking standard performance indicators to desired results. 
In addition, the Feed the Future Monitoring System collects information 
on the Results Framework's baselines, targets and results.
    Following MCC's model of conducting rigorous analysis during 
project design, USAID has adopted cost-benefit analysis to help improve 
resource allocation, quantify the expected benefits of our 
interventions on households, and identify better monitoring and 
evaluation indicators. We are also committed to implementing impact 
evaluations to capture what a particular project or program has 
achieved, test causal linkages, and determine to what extent outcomes 
link to particular interventions. USAID is planning to conduct over 30 
impact evaluations of Feed the Future investments in agriculture, 
nutrition, and food security. And we have developed a Feed the Future 
Scorecard document to hold ourselves publicly accountable to doing 
business differently. In the scorecard, we have identified eight 
strategic areas of performance critical to meeting our global food 
security targets. Each strategic area has specific goal statements 
describing what we intend to improve as we deliver development aid, and 
each statement has associated measures and milestones to be met by 
2015. We share the responsibility of meeting these targets with our 
partner countries and external stakeholders, and we plan to update the 
scorecard at least annually.
    As an initiative, Feed the Future faces many challenges: ensuring 
productive interagency and donor collaboration; more effective 
integration of agriculture and nutrition; and the threats posed by 
global climate change, to name a few. While we acknowledge that all of 
our work in these areas may not have been seamless or perfect up to 
this point, we also accept that change does not come easily--or 
quickly--to any sector. We have been asked to ``do things 
differently,'' and we are. As time moves on, we expect to execute our 
development interventions even more efficiently, through the learning 
processes we have instituted, to ultimately help the many millions of 
individuals who still go to bed hungry each night. That is our goal, 
and we continue to work toward it with diligence and creativity.
    In closing, we would like to thank the Congress for its strong 
support of this vital initiative. Feed the Future is more than an 
initiative; it is part of the lasting architecture of our development 
platform and lays the groundwork for us to be more effective, more 
efficient, and more successful in the work that we do. Feed the Future 
is bigger than any one agency or administration--it is part of our 
global
legacy.
    Thank you for inviting me to speak with you today, and I welcome 
your guidance, comments and any questions you might have.

    Senator Cardin. Thank you very much for your testimony and 
for your service.
    Mr. Shrier.

STATEMENT OF JONATHAN SHRIER, ACTING SPECIAL REPRESENTATIVE FOR 
GLOBAL FOOD SECURITY, DEPUTY COORDINATOR FOR DIPLOMACY FOR FEED 
      THE FUTURE, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Shrier. Thank you. Good morning, Chairman Cardin, 
Senator Lugar, and members of the subcommittee. Thank you for 
the opportunity to speak with you about U.S. diplomatic efforts 
to combat world hunger and undernutrition.
    As my USAID counterpart has emphasized, global food 
security is high on the international agenda. President Obama 
and Secretary Clinton have prioritized the issue for 
humanitarian, economic, and national security reasons. Our food 
security diplomacy facilitates the work of multiple U.S. 
agencies and ensures that leaders around the world stay focused 
on the fight against hunger and undernutrition.
    In Feed the Future focus countries, we help promote policy 
change and keep food security priorities high on national 
agendas. For example, when the worst drought in 60 years struck 
the Horn of Africa last year, Secretary Clinton contacted the 
leaders of Ethiopia and Kenya to press for specific policy 
shifts that could help ensure lasting food security even as we 
extended emergency assistance. We also worked with Tanzania to 
establish a nutrition-specific line in its national budget to 
ensure more effective coordination of the country's national 
nutrition strategy across agencies.
    We work with strategic partner countries like Brazil, 
India, and South Africa to leverage their food security 
expertise to benefit Feed the Future focus countries. For 
example, in Mozambique we are partnering with Brazil to help 
farmers grow more vegetables, improve post-harvest handling, 
and support research, and we are doing this in cooperation with 
a major United States university. We recently announced new 
agreements with Brazil to extend our collaboration to Haiti and 
Honduras.
    We also understand that to end world hunger, we need the 
collective efforts of governments, donors, international 
organizations, businesses, and in particular, civil society. 
Through our diplomatic efforts, we foster collaboration with 
civil society at home and abroad to help achieve Feed the 
Future's food security and nutrition goals.
    In 2010, during the U.N. General Assembly meetings, 
Secretary Clinton launched the 1,000 Days partnership which 
helps mobilize governments, civil society, and private sector 
actors to promote action to improve nutrition in the 1,000 days 
from pregnancy to a child's second birthday.
    In 2011, Secretary Clinton focused her energy on 
spotlighting the role of women in agriculture.
    And this year in September 2012, as a result of our 
outreach efforts, Secretary Clinton was able to announce a $1 
billion pledge of private, nongovernmental funds for food 
security investments by members of InterAction, an alliance of 
U.S.-based NGOs. Five InterAction members alone pledged more 
than $900 million toward the goal, including Catholic Relief 
Services, World Vision, Heifer International, Save the 
Children, and ChildFund International.
    U.S. leadership on the L'Aquila Food Security Initiative, 
known as AFSI, has also helped advance food security goals. 
Thanks to congressional support, the United States has been 
able to meet the $3.5 billion pledge for AFSI that President 
Obama made in 2009. This bolsters the resolve of other donors 
to meet their own financial pledges and maintain strong support 
for global food security. Under the U.S. chairmanship of AFSI 
in 2012, donors agreed to report more detailed information than 
ever before on their food security investments in individual 
developing countries.
    Our diplomacy also plays a leading role in the U.N. 
Committee on World Food Security negotiations, working through 
the U.S. mission to the U.N. agencies in Rome, the United 
States guided the committee's process to develop and adopt 
voluntary guidelines on land tenure which also helps to address 
natural resources constraints and natural resource management. 
Now we are turning our attention to the follow-on effort to 
develop voluntary principles on responsible agricultural 
investment.
    Food security remains a priority for the Obama 
administration. Feed the Future is one of the premier examples 
of development diplomacy as envisioned in the Quadrennial 
Diplomacy and Development Review. Working together across the 
whole of the U.S. Government with other governments and 
throughout the international community, we are determined to 
make significant progress toward ending hunger and 
undernutrition in our lifetimes.
    Thank you for congressional support for our food security 
efforts.
    I look forward to taking your questions.
    [The prepared statement of Mr. Shrier follows:]

                 Prepared Statement of Jonathan Shrier

    Good morning, Chairman Cardin, Ranking Member Corker, and members 
of the subcommittee. It is an honor to appear before this subcommittee 
to testify about the U.S. Government's efforts to help end world hunger 
and improve food security and nutrition around the globe.
    President Obama and Secretary Clinton have prioritized food 
security on the U.S global agenda for humanitarian, economic, and 
national security reasons.
    As USAID's testimony notes, the Food and Agriculture Organization 
(FAO) estimates that one in eight people worldwide--almost 870 million 
people--suffer from chronic hunger. By 2050, population growth and 
changing food demands will require up to a 60-percent increase in 
agricultural production, according to the FAO.
    Our best traditions of compassion compel us to act to help end 
hunger and undernutrition. Because we can help, we must help--that is 
our moral imperative. But ending hunger and undernutrition is also in 
our national security and economic interests.
    As we witnessed in 2008, spikes in food and energy prices threw 
tens of millions of vulnerable people in the developing world back into 
poverty. High and volatile food prices in 2008 touched off 
demonstrations in dozens of countries, contributing to political 
unrest. We can see how preventing food insecurity becomes a matter of 
national security.
    President Obama and Secretary Clinton have been strong advocates 
for food security, making the case for increased investments in 
agriculture and nutrition because they can have immediate and long-term 
impacts in the lives of children, help move people out of poverty, 
create stronger communities and open new markets. Our economy's future 
growth will depend on growth in the rest of the world. Many of our 
future customers will live in markets outside of our borders, including 
in emerging economies and low-income countries that have been 
particularly vulnerable to economic shocks.
    The 2009 G8 summit in L'Aquila, Italy, was a pivotal moment for 
hunger and poverty reduction. There, President Obama rallied Presidents 
and Prime Ministers as well as leaders of key international and 
regional organizations to join together to reverse a three-decade 
decline in investment in agricultural development and launch the 
L'Aquila Food Security Initiative (AFSI). This initiative was designed 
to attack the root causes of global hunger through accelerated 
agricultural development and improved nutrition.
    In keeping with the global L'Aquila Food Security Initiative, 
President Obama launched the U.S. Government's Feed the Future 
initiative, and he asked that we do things differently to get better 
results for every taxpayer dollar we are investing. This means that 
countries develop their own plans for food security, increase their own 
funding for agriculture, and are accountable for sound plans and 
actions. It means taking a comprehensive approach that focuses on how 
countries can increase their own production, marketing, and nutrition 
programs, so they can help prevent recurrent food crises and do not 
have to rely on food aid in the future; focusing on women as a key part 
of the solution; integrating natural resource constraints into our 
plans; and measuring results.
    To achieve these goals, Feed the Future leverages the capacity and 
expertise of different agencies across the U.S. Government, including 
the U.S. Department of State; the U.S. Agency for International 
Development (USAID); the U.S. Departments of Agriculture, Commerce, and 
the Treasury; the Millennium Challenge Corporation (MCC); the Office of 
the U.S. Trade Representative; the Overseas Private Investment 
Corporation and others. Working in close coordination with my USAID 
colleague, Deputy Coordinator for Development Tjada McKenna, I act as 
the Deputy Coordinator for Diplomacy for Feed the Future.

        ROLE OF DIPLOMACY IN IMPLEMENTATION OF FEED THE FUTURE 
                  AND OTHER FOOD SECURITY INITIATIVES

    U.S. food security diplomacy actively supports the work of multiple 
U.S. Government agencies to advance our global food security agenda and 
further our Feed the Future priorities. We do this through policy 
coordination among major donors, strategic partners, and multilateral 
organizations, ensuring that food security and nutrition remains high 
on bilateral and global policy agendas. Through our engagement with the 
G8, G20, U.N. agencies, and other economic cooperation platforms, such 
as APEC and Summit of the Americas, we help ensure that leaders stay 
focused on the fight against hunger and undernutrition.
    U.S. leadership in the L'Aquila Food Security Initiative, focusing 
on sound food security policy, innovation, and reliable metrics, has 
helped advance the initiative's goals. Our ability to fulfill the U.S. 
financial pledge on schedule by obligating $3.786 billion over 3 years 
promotes confidence among other donors to meet their own financial 
pledges and maintain strong financial support for global food security, 
shouldering responsibility along with us. As of May 2012, 4 of the 13 
AFSI donors had fully disbursed their AFSI pledges, and we expect to 
announce further donor progress at the end of the AFSI pledge period 
later this year. Under the U.S. chairmanship of the AFSI followup group 
in 2012, AFSI donors agreed to provide in-depth information on how they 
are investing their food security assistance at the individual country 
level. These detailed materials were published in May and represent a 
significant advance for transparency and accountability.
    The United States has worked closely with G20 countries, the World 
Bank, and other multilateral organizations and civil society 
organizations to establish the Global Agriculture and Food Security 
Program (GAFSP), a multidonor trust fund to help millions of poor 
farmers grow more and earn more so they can lift themselves out of 
hunger and poverty.
    In 2\1/2\ years of operation, GAFSP has attracted pledges of nearly 
$1.3 billion from nine development partners to help support the food 
security strategies of low-income countries. GAFSP's Steering 
Committee, which includes civil society and developing country 
representatives, has also allocated $658 million to support 18 
countries in Africa, Asia and Latin America. GAFSP financing will help 
boost the incomes of approximately 8 million smallholder farmers and 
their families by increasing farm productivity, linking smallholder 
farmers to markets, and helping farmers to mitigate the risks that they 
face. In Sierra Leone, for example, GAFSP financing has underwritten 
the delivery of improved extension services to farmers to help them 
boost yields in key staple crops. GAFSP has also financed the 
rehabilitation of 250 kilometers of rural roads in Togo to better 
connect farmers to local markets and has provided 18,000 farmers with 
better access to improved seed varieties and fertilizer. The United 
States is currently working with other donors--including the Gates 
Foundation and several other development partners--to replenish this 
successful fund.
    The United States also plays a leading role in the U.N. Committee 
on World Food Security negotiations. Over the past 2 years, working 
through the U.S. Mission to the U.N. Agencies in Rome and in 
collaboration with USAID and MCC, we guided the committee's 
consultative process to develop Voluntary Guidelines on the Responsible 
Governance of Tenure of Land, Fisheries, and Forestry in the Context of 
National Food Security that were approved in May 2012. Now, we are 
turning our attention to the follow-on consultative process aimed at 
developing voluntary, nonbinding principles on responsible agricultural 
investment.
    We work with strategic partner countries--Brazil, India, and South 
Africa--to leverage the expertise and influence of government, the 
private sector, and civil society partners in these countries in order 
to collaborate to improve food security in Feed the Future focus 
countries. For example, we are partnering with Brazil in Mozambique to 
help farmers increase the productivity of their vegetable crops, 
improve post-harvest packing, storage and processing, and support 
research on food technology innovation. We also recently announced new 
agreements with Brazil to work together in Haiti to improve land use 
and promote conventional and biofortified crops and in Honduras to 
increase agriculture productivity, decrease malnutrition, and promote 
renewable energy.
    At the national level with individual Feed the Future focus 
countries, we help promote policy changes and keep food security 
priorities high on national agendas. For example, when the worst 
drought in 60 years struck the Horn of Africa, Secretary Clinton 
contacted the leaders of Ethiopia and Kenya to press for specific 
policy shifts that could help assure lasting food security even as we 
extended emergency assistance. The administration worked with Tanzania 
to establish a nutrition-specific line in its national budget to ensure 
effective coordination and implementation of the country's national 
nutrition strategy. We have helped countries like Guatemala, Uganda, 
and Mozambique to introduce new measures to improve financial 
accountability and strengthen their countries' commitment to nutrition.
    We understand that to end world hunger we need the collective 
efforts of governments, donors, institutions, businesses, and, in 
particular, civil society. As Secretary Clinton highlighted in her 
remarks on the margins of the U.N. General Assembly this year, ``Civil 
society organizations are crucial to our success, both in the public 
and private sector; they have longstanding relationships in communities 
and valuable technical expertise, and they work every single day on 
their commitment to try to make this world a better place for all of 
us.'' Through our diplomatic efforts we engage and facilitate 
collaboration with civil society at home and abroad to help achieve 
Feed the Future's food and nutrition security goals.
    For example, in 2010, Secretary Clinton launched the 1,000 Days 
partnership, which is helping mobilize governments, civil society, and 
the private sector to promote action to improve nutrition in the 1,000 
days from pregnancy to a child's second birthday. The partnership helps 
disseminate research information and the latest innovations in 
nutrition and best practices. With financial support from the Gates 
Foundation and Walmart and in collaboration with the Global Alliance 
for Improved Nutrition and InterAction, we facilitated the 
establishment of an organization to promote the 1,000 Days message and 
support the U.N.'s Scaling Up Nutrition movement. Thanks to these 
efforts, more and more stakeholders are prioritizing nutrition 
interventions during the critical 1,000 days when adequate nutrition 
has the greatest lifelong impact on a child's health, ability to grow, 
learn, and contribute to the prosperity of her family, her community, 
and her country.
    Our diplomatic and development efforts have also focused on 
spotlighting the role of women in agriculture. Women make up the 
majority of the agricultural workforce in many developing countries, 
but they often earn less because they do not have rights to land, 
access to finance, natural resources, and the best inputs needed for 
production. Research shows that when women's incomes increase, their 
families are more financially secure, eat more nutritional food, and 
are less hungry and undernourished. Women are more likely to invest 
their earnings in the health, education, and nutrition of their 
children. Feed the Future is funding innovative approaches for 
promoting gender equality in agriculture and land use and to integrate 
gender into agricultural development and food security programs.
    In September 2012, as a result of our outreach efforts, Secretary 
Clinton announced a $1 billion pledge of private, nongovernment funds 
for food security from InterAction, an alliance of 198 U.S.-based NGOs. 
Five of its member organizations together pledged to contribute more 
than $900 million toward the total, namely Catholic Relief Services, 
World Vision, Heifer International, Save the Children, and ChildFund 
International. We look forward to deepening coordination of our efforts 
with civil society partners to achieve greater impact and scale in our 
food security and nutrition efforts.
    Progress in the Feed the Future effort continues. Diplomacy played 
a key role in negotiating with G8 partners in particular in developing 
and launching the New Alliance for Food Security and Nutrition, 
announced by President Obama in May 2012. The New Alliance is a shared 
commitment to achieve sustained and inclusive agricultural growth and 
raise 50 million people in sub-Saharan Africa out of poverty over the 
next 10 years by aligning the commitments of Africa's leadership to 
drive effective country plans and policies for food security; the 
commitments of private sector partners to increase investments where 
the conditions are right; and the commitments of the G8 to expand 
Africa's potential for rapid and sustainable agricultural growth.
    Food security remains a policy priority for the Obama 
administration. For us at the State Department, Feed the Future is one 
of the premier examples of development diplomacy as envisioned in the 
Quadrennial Diplomacy and Development Review. The State Department 
works closely with USAID to align diplomatic and development goals, 
develop the Feed the Future budget, and continue support for the work 
of our partners in advancing our global food security agenda. Working 
together across the whole of the U.S. Government, with other 
governments, and throughout the international community, we are 
determined to make significant progress toward ending hunger and 
undernutrition in our lifetimes.

    Senator Cardin. Again, thank you for your testimony and for 
your service.
    We have been joined by Senator Casey, and as I mentioned 
earlier, we thanked Senator Casey, working with Senator Lugar, 
for his leadership on the Global Food Security Act. It is nice 
to have you with us.
    There is no question that President Obama and Secretary 
Clinton have made this issue a very high priority, and that is 
clear in policies here in the United States. It is also clear 
to the international community.
    I tell you, though, it is somewhat disappointing that we 
have not been able to name the coordinator for Feed the Future, 
and there has been a frequent turnover in the position of 
deputy coordinator. And it seems to me that for the stability 
of the agency, these positions need to be filled, and it is a 
concern to us that they have not. I know that the two of you 
cannot address that directly, but it has to make it more 
challenging when one position is not filled and the other has 
frequent turnover.
    Ms. McKenna, you mentioned the fact that there was the 
progress report that identified much of the positive progress 
that has been made in Feed the Future, but it did not identify 
the challenges. It seems to me that we could spend a lot of 
time complimenting ourselves on the progress that we have made 
and we have made progress. But what is important is to focus on 
where we can make more progress, the challenges that we have, 
where do we need to put our resources, where do we need to put 
our priorities, where do you need congressional attention. So I 
want to give you an opportunity to share with this committee 
the challenges that you see in Feed the Future and where we can 
be of greatest help in trying to make sure that we can achieve 
as much as we can and leverage the resources as greatly as we 
can.
    Ms. McKenna. Thank you, Senator Cardin.
    In the progress report, we identify our success to date, 
but we also had a section entitled ``How FTF Has Evolved'' 
which talks about what we are learning and what is ahead. And I 
think in that section is where we try to distill some of the 
key challenges that we have been facing.
    A key focus of our energy has been on monitoring and 
evaluation and being able to talk about the results of our 
work. In the course of doing that, we have also needed to set 
targets and how many people we are going to reach and where our 
money is going to go. So some of the evolutions that we have 
made include revising--our initial estimates were just based 
strictly on cost, by unit costs, what we knew about what it 
takes for a unit cost to bring a farmer out of poverty. Since 
then, we have been able to refine that, and now we have refined 
our targets to be that we want to reduce poverty by 20 percent 
in the areas that we work, what we call our ``zones of 
influence,'' and also reduce undernutrition in those areas by 
20 percent. And so what we have learned is we want to be more 
effectively targeting the poorest populations, focused on 
lifting them out of poverty, and working with that subsegment 
and looking at M&E specifically with that population. And so 
that is one of the adjustments we have made.
    We also recognize that we need to go deeper to making sure 
that in the field that we are working closely with civil 
society and that they are more effectively integrated into our 
work. So we talked about that and have renewed our focus on 
working with both U.S.-based NGOs as well as local civil 
society organizations and will deepen that commitment.
    We also look forward to deepening our work in natural 
resource management and coordinating our efforts on climate 
change as well.
    I think without authorization, we have really been able to 
still set a very strong foundation for Feed the Future in terms 
of developing a Feed the Future guide, a strategy, a whole-of-
government coordination strategy that will really stand the 
test of time. But, obviously, there is always more we can do to 
improve our efforts at coordination and to have more agencies 
reporting in to our whole-of-government Feed the Future 
monitoring system.
    Senator Cardin. I think there is great interest here on the 
coordination issues. It is not only among the NGO community 
that you have mentioned, from which you have gotten substantial 
support, but how is that coordinated and leveraged between the 
governmental sector. It is also coordination within our own 
agencies with the humanitarian aid and emergency food aid 
programs that we have, how well are they coordinated with Feed 
the Future as to making sure that we are again using the 
resources in the most effective way to leverage, as much as we 
possibly can. Can you just elaborate a little bit more as to 
what steps you are taking to coordinate these stakeholders?
    Ms. McKenna. Yes. In fact, right after our testimony today 
from 1 to 5 p.m., Jonathan and I are leading an interagency 
offsite to actually spend more time talking about where we can 
go deeper in these efforts.
    One of the areas that we started that we really started to 
make significant progress on starting last year is in one of 
the areas that you mentioned, which is coordinating the food 
aid assistance with our longer term agricultural development 
work. ``Resilience'' is kind of the code name that we have for 
all those efforts, and it has been a major focus of our energy 
this year, focusing on crises in the Sahel and also in the Horn 
of Africa.
    There have been a couple of quick wins that we have been 
able to do in that area that we will continue to build on. One 
is we put crisis modifiers into our longer term growth 
programs. So when our forecast is showing us that a severe 
weather event is likely to occur in an area or something else 
that would put more people in poverty, we are able to take our 
emergency assistance funding, put it into our longer term Feed 
the Future funding to specifically address those populations 
and to add in resilience work there.
    Another example of how we have blended the economic growth 
with the communities that are likely to receive food aid as an 
example of our work in Ethiopia where we are working with 
commercial abattoirs. A lot of the pastoral communities in 
those areas--that pastoralism is a way of life, but by 
promoting commercial abattoirs and making them available in the 
areas where those pastoralists tend to migrate, we have also 
now provided economic opportunities for those farmers. So we 
are starting to address it. We will get deeper in food aid.
    And across agencies, we are also working to identify which 
pieces really fit into Feed the Future, making sure they are 
reporting into the monitoring system, and making sure those 
efforts are coordinated at the ground in the same geographic 
areas.
    Senator Cardin. Tomorrow there will be a hearing in the 
Environment and Public Works Committee on Hurricane Sandy, and 
I will be talking about resilience. I think resiliency is very 
important in Feed the Future as to what steps we are taking to 
deal with the realities of the circumstances. As we pointed 
out, extreme weather conditions are having an incredible impact 
on food security, and we have to build that into our programs 
to make sure that we recognize the realities of what is 
happening globally if we are going to be successful long range 
in our efforts.
    Mr. Shrier, let me just get you involved here on the gender 
issue. To me, the No. 1 issue in dealing with the long-term 
sustainability is to deal with farmers, women, and the 
treatment of the developing world on land reform and the manner 
in which they treat women that are providing most of the labor 
in agriculture today. Can you just share with us--I know 
Secretary Clinton has been active in this regard--but how that 
is being integrated into the food security issues?
    Mr. Shrier. Absolutely. Thank you for that question, 
Senator Cardin.
    So you are right. In many developing countries, women do 
make up the majority of the agricultural workforce. In several 
sub-Saharan African countries, it is as high as 60 or 70 
percent of the agricultural labor. But the challenge is that in 
many of these countries, women do not have equal access to the 
best inputs, the best improved seeds, fertilizers, access to 
resources such as land or financing. And research has 
demonstrated that if that access were equalized, you could see 
increases in productivity of 20 to 30 percent, and if you 
globalized that, that could amount to well over 100 million 
additional mouths being fed.
    So this is something that we have to focus on, and that is 
why it is integrated throughout our Feed the Future work in the 
programs that we have got designed country by country. It is 
also an area where we are looking for better ideas, and so last 
year, Secretary Clinton and Administrator Rajiv Shah from USAID 
launched a new intensified research effort to attract the best 
innovations for improving the role of women in agriculture and 
improving policies and other techniques to improve gender 
treatment and gender equality in areas ranging from 
productivity technologies to land access and land tenure, as 
you mentioned.
    Senator Cardin. I would just urge us to put as much of a 
spotlight on this as possible. I think it is important that the 
international community knows that this is an issue that the 
United States is going to maintain a continued interest in.
    Senator Lugar.
    Senator Lugar. Ms. McKenna, a key component of the Feed the 
Future program is the partnerships that the United States has 
with each of the 19 focus countries through the negotiation of 
Country Investment Plans. I would like to ask you, first of 
all, how did we determination which 19 countries we would deal 
with? I understand plans have now been formulated with all 19 
after considerable negotiation. But describe, if you will, the 
challenges of those negotiations as well as challenges that 
remain really after we believe we have something on paper with 
each of the 19.
    Ms. McKenna. Thank you.
    We spent a lot of time in the early life of the initiative 
focusing on that because we felt like it would lead to better 
results. And so we are really proud of our work working with 19 
focus countries.
    As you know, focus countries are where we really have 
committed to deep levels of investment with those governments. 
And we chose those 19 countries based on a few factors. One was 
the level of need, so looking at absolute levels of hunger and 
poverty in those countries. The other is how agricultural 
growth really would provide economic stimulus in those 
countries as often indicated by percent of those populations 
that rely on agriculture. The third factor that is most 
important was our opportunity for partnership with those 
countries because we did see this as deep partnership, and we 
looked at the country investment plan process as a part of 
developing that process.
    Africa really took the lead in this area through their 
CAADP, their Comprehensive Africa Agriculture Development 
Program, which set continental standards for how investment 
plans should be developed in terms of consulting with local 
society, civil society, private sector, other actors. And we 
worked closely with governments to make sure those happened.
    What we have done with our funding to provide the proper 
incentives to help that happen was we really have focused our 
funding in specific areas of the country where we believe we 
can have the greatest impact, as well as on specific value 
chains and activities. And I have made that clear and made sure 
that almost all of our funding is focused on those few things 
instead of providing out too thin.
    We use evidence-based and results-based ways to evaluate 
how we are doing in those countries every year which includes 
how the country is following up on its commitments to support 
this with their own budgets, policy changes that they are 
making. For example, one of the things that we need to evaluate 
now is Mali. Senator Cardin mentioned some of the instability 
in Mali right now and how it affects it. So we will undergo a 
process to review them as a focus country, determine what to do 
with those resources. So there is a constant look at where we 
are in that country and a constant view of this as a 
partnership where both sides need to keep their sides of the 
agreement.
    Senator Lugar. Are those negotiations or agreements a 
matter of public record? Are there press accounts in the 
countries of our work, as well as the decisions made by their 
leadership?
    Ms. McKenna. Yes. In developing the country investment 
plans, part of the requirement for that is that there are 
public sessions on what those plans are and public 
consultations. And there has been great media fanfare in all of 
those activities.
    In addition, as we go forward executing our work, we make 
sure that the public understands exactly where we are working, 
what we have committed to working in. Our Web site--
feedthefuture.gov--goes into that extensively, but we also take 
every opportunity in-country to reach out to stakeholders and 
to continue to remind them of what our priorities have been and 
how we have been working with the government and other actors 
to fulfill them.
    Senator Lugar. Let me switch for a moment to the research 
component of Feed the Future, which is approximately $120 
million annually. I understand that a large focus of this 
includes research on new seeds that may be more productive 
generally, as well as under varying climatic conditions.
    Now, are genetically modified organisms a part of the 
research agenda for Feed the Future? If so, how are GMO's being 
received in Feed the Future countries?
    Ms. McKenna. Part of our job is to really bring the best of 
what the American people and the American public have to offer 
to our work, and research and our innovations in science and 
technology are a key part of that. Our research agenda is 
really focused on looking forward toward sustainable 
intensification of production, looking at the effects of 
climate change, and anticipating what the needs of populations 
will be and leveraging what we have done in the United States, 
as well as our research abroad.
    We view genetically modified crops and biotechnology as 
part of a tool kit of solutions that can provide better--for 
example, increased resistance to drought or climate change 
activities or better yields or reduced use of certain 
pesticides and chemicals in production. So we encourage the 
governments in the countries that we work with to look at the 
range of things in their tool kits which would include 
biotechnology products and to make their own decisions about 
what is appropriate for their country. But we certainly support 
that research and we certainly believe it is part of a tool kit 
that a country and that farmers, in particular, need to thrive 
going forward.
    Senator Lugar. I raise the question because specifically I 
have had debates over it with German parliamentarians or even 
in Ukraine in which they have stoutly affirmed no GMO. 
Furthermore, they will not accept crops from Africa that have 
any trace of GMO. The influence there has been profound. So we 
are not simply talking about something that is a little bit of 
research here or there. If we are really serious about yields 
and about a large change for the single woman farmer dealing 
with bad seed and bad fertilizer and bad transportation, this 
is why I asked the question.
    And I hope that there has been acceptance in these 19 
countries. Has there been resistance? Are they contaminated by 
the European influence or anybody else?
    Ms. McKenna. So I would like to assure you we support both 
the research but we also support the building of institutions 
that can understand those activities that can develop the 
proper regulatory environments to welcome those products in and 
that can also help to inform the public on the right things. Of 
course, you will always have opponents who make their voices 
heard in those countries, but we believe that our approach of 
providing the countries and the scientific institutions in 
those countries with information and providing that information 
also to smallholder farmers are one of the key antidotes to 
those other outside pressures that those countries face.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Casey.
    Senator Casey. Thank you so much, Senator Cardin. I want to 
thank you for calling this hearing and for highlighting this 
issue, the issue of food security. We do not talk about it 
enough in the Senate, and I am grateful that you are 
demonstrating continued leadership on this issue.
    And, Senator Lugar, it has been great to work with you on 
these issues over at least the time I have been here, 6 years 
now. We are going to miss your voice in the Senate, but I know 
that voice will not be quiet. I think if people in both parties 
can agree on one thing--and there are maybe more than one. A 
few things we all agree on, but I think it is a commitment that 
we need to make on an issue like this that can be bipartisan. 
And you provide us with that inspiration, and your work in this 
area and your public service will continue to inspire us. So we 
hope when you think we are not paying enough attention, that 
you knock on our door and remind us. But we are looking forward 
to working with you in your next chapter and are just so 
grateful for the work you have done.
    I wanted to emphasize--or I should say maybe just to focus 
for a moment on the private sector aspects. I know it was 
covered in the testimony. This is an era of our history where 
often if it is a government-only approach to an issue or a 
challenge or a priority, there is a segment of society, I 
guess, that would denigrate that, that if it is government that 
is doing it, somehow it is not going to meet the objectives we 
all hope for. I think that is unfair. And I have worked in two 
levels of government, State government and the Federal 
Government. So I take umbrage with that. But I do not think we 
should ever miss an opportunity to have partnerships where the 
private sector can work with any level of government or 
nonprofit organization.
    So this is one area where I think, as good as the work is 
by the Federal Government, the State Department, USAID, any 
other part of our Government, I think it is good to have 
private sector involvement. And I know from the testimony that 
that was highlighted with regard to the New Alliance, the $3 
billion in private investment from 45 companies. So that is 
good news and we should encourage that and support that.
    I guess some questions have been raised about what that 
means in the real world of getting the job done on the food 
security objectives we have here. One concern that has been 
raised is that civil society groups in various countries would 
be excluded, and I want to have you comment on that.
    But also one question that we have is what assurances are 
there that donors and governments in Feed the Future countries 
will sustain that investment in smallholder agriculture. So if 
you can focus on that.
    And then finally with regard to the U.S. and G8 donors, how 
do we ensure that the New Alliance will ensure civil society 
organizations, farmers' groups, women's groups, small 
cooperatives, small and medium-sized enterprises that they will 
all be included or integrated within the overall strategy?
    So I think the two or three questions I set forth apply to 
both of our witnesses, but maybe, Ms. McKenna, if you want to 
start to address it.
    Ms. McKenna. Certainly. I have been privileged to be able 
to put a lot of my energy into some of the private sector 
outreach components, so I am really happy to talk about that.
    The private sector that is interested in working in these 
areas, both international private sector, but also local 
private sector--for them, these are long-term commitments. When 
you talk to them, there is a universal recognition. We need to 
be good corporate citizens. We need the smallholders to develop 
to be future customers of ours, but to also be great suppliers. 
So I think our intrinsic interests are all aligned. They may 
speak different languages. The private sector may not speak in 
the same language as the civil society or government, but part 
of our job has been to translate and to bring those communities 
together and we have happily done that particularly through the 
New Alliance.
    The first step in that is really providing transparency in 
what is going on. I think in the examples that we have seen as 
being harmful or not in people's best interest are things that 
are not done in a transparent manner. So by having the New 
Alliance really focus on companies and letters of intent, we 
have brought those interests and intents to light, made that 
transparent, but also have fostered a public dialogue between 
those companies, the governments, and also helping them to 
connect to the farmers in the communities in which they want to 
serve.
    Each of the private companies that work with us agreed to 
work around the spirit and the principles of responsible 
agricultural investment. They have all come to us with 
questions on how to do that and how to work with that. And I 
think part of our work as donors is helping them to understand 
what that means and providing our development expertise with 
their innovation and investment that they want to bring to 
those areas.
    We also have encouraged countries to set up structures 
where they can interact effectively with the private sector, as 
well as civil society and smallholders and others in those 
conversations. Examples of that are Ethiopia has created an 
agricultural transformation agency that is working across its 
government sectors but also is responsible for bringing other 
stakeholders into the conversation. And Tanzania has a southern 
agricultural growth corridor, and they have an ownership group 
that is actually kind of coowned with government, local farmer 
organizations, and others to bring that together. So that is 
the kind of work that we are encouraging.
    In terms of civil society, we absolutely want to include 
them. And I think what we are doing and the work we are focused 
on is making sure that they are included at the local level on 
the ground. We do a lot of consultation in Washington. We have 
required it of our missions to do more of that local 
consultation, and we are looking at ways to create handbooks or 
best practices for them to do even better jobs of that going 
forward. But the goal is to make sure all voices are heard and 
that these things are done in a transparent, open manner, and 
then that is what we continue to work toward.
    The New Alliance itself--a lot of what we have done with 
the New Alliance--we have really tried to drive it down to the 
local level because that is really the best way to get to small 
farmer organizations, to local society and that. So we have 
country cooperation frameworks where governments have laid out 
on paper what their policy changes would be. Private sector 
companies, through the form of their LOI's, talk about what 
commitments they want to make, and then donors actually have 
articulated what commitments they want to make. And by making 
that all public in these cooperation framework documents, we 
are asking everyone to hold us accountable for what we say in 
those documents for each of those sectors. So I think the focus 
really is on transparency, accountability, and developing 
mechanisms on the ground for those conversations to continue to 
happen.
    Senator Casey. I know I am out of time for this round, but 
maybe we can get back to it in the next round.
    Senator Cardin. Well, thank you.
    I want to observe that I think one of the most significant 
hearings this full committee has ever had is when we had Bill 
Gates and Bill Clinton before us. Their testimony was 
incredible about the ability of the NGO community to deal with 
humanitarian issues. I remember the questioning dealing with 
how they handle corruption in a country and when it becomes 
difficult to get the aid to the people, what is their policy. 
And their policy was pretty clear. They will not be there. If 
the aid cannot get to the people, they are not going to feed 
the corruption of local officials.
    Senator Lugar and I have joined together on a transparency 
initiative to make sure that the wealth of a country goes to 
its people and does not to feed corruption.
    What steps are you all taking to make sure that we are not 
advancing corrupt regimes by giving them the resources, to make 
sure that the funds, in fact, are getting to the people? And 
are we prepared to leave a country if we cannot effectively 
help the people?
    Mr. Shrier. Thank you, Senator Cardin. Perhaps I will say a 
few words and then invite my USAID colleague to add.
    So corruption is a great challenge in economic growth and 
development.
    Senator Cardin. I am looking at the list of countries, and 
some of them have real challenges as far as governance is 
concerned.
    Mr. Shrier. Right, and so one of the considerations when we 
were selecting countries for the focus country list in Feed the 
Future was the ability of the government in that country to 
work with us as a partner to deliver results. Not every 
government on the list is perfect. There is room for growth, to 
be sure. But we certainly considered these issues and designed 
our programs based on that consideration so that in many places 
we do work through implementing partners instead of, or in 
addition to, government agencies. Implementing partners can be 
local organizations or local firms that provide these sorts of 
services. And so we can thereby be better assured that the 
money we deliver is producing real results. And over time, we 
also work with these governments through other programs beyond 
the Feed the Future effort itself to improve the control of 
corruption.
    There is a significant U.S. effort governmentwide on 
anticorruption, which we could provide you further information 
on.
    Senator Cardin. I would welcome that.
    I understand we want to be engaged in these countries. We 
want to take steps to make sure that the aid gets to the 
people, but if you reach a point where that is not possible, 
are you prepared to leave?
    Mr. Shrier. So you cited, Senator Cardin, the example of 
Mali where we have essentially put our operation on hold while 
the situation is so unsettled. So that is an example of us 
looking at reality and making an adjustment as a result.
    Ms. McKenna. May I add that we are particularly focused on 
their governance and their policy work in agriculture. And so 
part of our funding--a lot of it is directly with smallholders, 
but there is always part of it that was working with local 
systems or local institutions that would be in charge of 
executing some of those programs and building their capacity to 
make sure that things happen correctly. Before we work through 
any local systems, we also have a whole audit and measurement 
process to make sure that those local systems can effectively 
use that money, have systems for monitoring and control of 
those funds. And so we are very cognizant of that and make sure 
that our efforts in agriculture and food security either are 
working through other implementing partners or that we are 
building and strengthening and monitoring the government 
systems or the local systems that would handle those funds.
    Senator Cardin. We fully understand the more that we can 
get prosperity in a country, the better chance we have of good 
governance. If you do not have good governance, it is hard to 
get the prosperity to the people. It is a circular problem. We 
understand that and we have got to enter someplace.
    But I just urge you to follow the leadership of Congress 
here on transparency. We have got to be very open as to the 
circumstances in the countries we are operating in, and if we 
cannot effectively get aid, we have to be prepared to leave 
rather than to help finance a corrupt regime. Obviously, we 
have humanitarian concerns. We want to make sure we move 
forward with humanitarian concerns, but we want to make sure 
that these systematic changes that are made are going to lead 
to good governance and we cannot be party to helping to finance 
corrupt regimes.
    Senator Lugar.
    Senator Lugar. I noted in the Feed the Future publications 
a map of the 19 countries, which is very helpful in identifying 
precisely what we are talking about today. And these countries, 
just for the benefit of everyone in the room, are not only in 
Africa but in Latin America and in Asia so that there is quite 
a cross-section of different kinds of governments and 
backgrounds.
    Even more interesting was the progress scorecard in which 
you cited accountability. You have really tried to put 
something down on paper. And it will be very interesting to 
watch the development of those figures and the projections, the 
hopes really for the 2012 fiscal year as compared to the 2011 
which you have.
    I am curious as to what kind of extension programs are 
being developed. Clearly that component of education, research, 
the reaching out in a practical way might offer some continuity 
to these trends and attract young people, middle-aged people, 
whoever, to really take on something beyond the planting 
function and the maintaining of existence. What can you report 
about those sorts of programs?
    Ms. McKenna. Well, we know from our experience here in the 
United States that extension networks are very important, and 
part of our work in Feed the Future with getting technologies 
to smallholders, obviously extension remains important in that 
work.
    We have a multifaceted, multipronged approach to extension 
in-country. One, we work very hard to leverage U.S. 
universities and our own U.S. knowledge and that. So there are 
a lot of programs that we do both at USAID but also with USDA 
and others where we are connecting those universities and 
institutions to extension services in countries.
    Senator Lugar. Have you been able to identify specific 
universities in some of your literature and which countries or 
with whom?
    Ms. McKenna. Yes. We can make that available and send you a 
report on that. But we have extensive partnerships with U.S. 
universities, and extension is one of those areas where the 
common thread that you will see across many of those 
partnerships.
    [The submitted written report from USAID follows:]

                     UNIVERSITIES THAT WE WORK WITH

Aquaculture & Fisheries CRSP
Oregon State University (Lead University): Global
Purdue University: Ghana; Kenya; Tanzania
Virginia Tech: Ghana; Kenya; Tanzania
Auburn University: Uganda, South Africa
Alabama A&M University: Uganda
University of Georgia: Uganda, South Africa
University of Arkansas at Pine Bluff: Tanzania
University of Rhode Island: Vietnam, Cambodia
University of Connecticut-Avery Point: Vietnam, Cambodia
University of Hawaii-Hilo: Nicaragua, Mexico
Louisiana State University: Nicaragua, Mexico
University of Michigan: Nepal, Bangladesh, Vietnam, China
University of Arizona: Mexico, Guyana, Indonesia
Texas Tech University: Mexico
North Carolina State University: Philippines, Indonesia
Dry Grain Pulses CRSP
Cornell University: Kenya
Iowa State University: Uganda, Rwanda, Tanzania
Kansas State University: Zambia
Michigan State University (Lead University): Angola, Mozambique, 
        Honduras, Ecuador, Rwanda, Tanzania
Penn State University: Malawi; Mozambique; Honduras; Tanzania
Texas A&M University: Kenya; Zambia; South Africa
University of California-Riverside: Senegal; Burkina Faso; Angola
University of Illinois at Urbana-Champaign: Burkina Faso; Niger; 
        Nigeria
University of Puerto Rico: Honduras; Angola; Haiti
Horticulture CRSP
Cornell University: Bangladesh; India
Michigan State University: Benin; Kenya, India, Nepal, Sri Lanka
Ohio State University: Bolivia; Chile; Ecuador; Guatemala; Honduras; 
        Peru, Nicaragua, Kenya, Tanzania, Uganda
Purdue University: Kenya; Tanzania; Zambia
Tennessee State University: Cambodia; Thailand; Vietnam
University of California-Davis (Lead University): Bangladesh; Cambodia, 
        Vietnam, Kenya; Nepal; Rwanda; Tanzania; Uganda, Benin, Gabon, 
        Ghana, Democratic Republic of the Congo
University of Hawaii-Manoa: Cambodia; Vietnam
University of Wisconsin-Madison: El Salvador; Guatemala; Honduras; 
        Nicaragua
Integrated Pest Management CRSP
Clemson University: Indonesia; Philippines; Cambodia
Michigan State University: Tajikistan
Ohio State University: Global; Kenya; Uganda; Tanzania
Penn State University: Bangladesh; India; Nepal
Virginia State University: Kenya; Tanzania; Uganda; Ethiopia
Virginia Tech (Lead University)
Adapting Livestock Systems to Climate Change CRSP
Arizona State University: Nepal
Colorado State University (Lead University): Kenya
Emory University: Kenya; Ethiopia
Princeton University: Kenya
South Dakota State University: Mali, Senegal
Syracuse University: Senegal
Texas A&M University: Mali
University of California-Davis: Tanzania
University of Florida: Niger; Tanzania
University of Georgia: Mali
University of Louisiana-Lafayette: Nepal
Utah State University: Nepal
Peanut CRSP
Auburn University: Ghana
Cornell University: Haiti
New Mexico State University: Uganda; Kenya
North Carolina State University: Ghana, Burkina Faso
Purdue University: Brazil
Texas A&M University: Ghana; Mali; Burkina Faso
University of Alabama: Ghana
University of Connecticut: Uganda; Kenya
University of Florida: Bolivia, Ghana, Mali, Burkina Faso, Guyana, 
        Haiti
University of Georgia (Lead University): Uganda; Ghana; Mali; Burkina 
        Faso, Kenya
Virginia Tech: Uganda; Kenya
Sorghum, Millet and Other Grains (INTSORMIL)
Kansas State University: Botswana; El Salvador; Mali; Nicaragua; 
        Nigeria; Senegal, Ghana, Burkina Faso, Niger, Kenya, South 
        Africa, Tanzania
Ohio State University: Tanzania; Zambia
Purdue University: Botswana; Burkina Faso; Mali; Niger, Nigeria, 
        Senegal, South Africa, Ethiopia, Kenya, Tanzania
Texas A&M University: Costa Rica; El Salvador; Guatemala; Haiti; 
        Honduras; Nicaragua; Panama, South Africa
University of Nebraska-Lincoln (Lead University): Ethiopia; Mozambique; 
        Tanzania; Uganda, Zambia
West Texas A&M University: Botswana; Mali; Mozambique; Niger; South 
        Africa
Sustainable Agriculture & Natural Resource Management CRSP
Kansas State University: Ghana; Mali
North Carolina A&T State University: Cambodia; Philippines
Penn State University: Bolivia, Ecuador
University of Hawaii-Manoa: India; Nepal
University of Denver: Bolivia, Ecuador
University of Tennessee: Lesotho; Mozambique
University of Wyoming: Uganda; Kenya
Virginia Tech (Lead University): Ecuador, Bolivia, Haiti
Nutrition CRSP
Tufts University (Lead University): Nepal, Uganda, Malawi
Harvard University: Nepal, Uganda
Johns Hopkins University

    We have also been looking at the use of information 
technology and looking at kind of mobile-based extension or 
other Internet-enabled extension where you can provide other 
types of services to smallholders like market-based information 
or climate or weather. And we recently launched another 
Information and Communications Technology, ICT, and extension 
challenge.
    We also have a farmer-to-farmer program which we have had 
for quite a while. It connects U.S. farmers directly on the 
ground to farmers.
    Also, Peace Corps is one of our partner agencies in Feed 
the Future, and those provide great front-line resources for 
both nutrition education as well as agricultural education. And 
we have supported them to increase the number of agriculture 
volunteers directly supporting Feed the Future.
    Senator Lugar. In testimony we have had before this 
committee from the Gates Foundation, they emphasize, in 
addition to all we have talked about thus far, the whole 
problem of transportation; transportation both of crops once 
the farm gets beyond merely sustaining a single family and 
markets, at least some way in which there might be some change 
in the economic circumstances of the farmer if the produce can 
get to a market and money can get back to the producer in the 
process of all of this.
    Are these areas that you are also looking at? Are they a 
part of the Feed the Future program?
    Ms. McKenna. Yes. Very similar to the Gates Foundation, we 
really try to look across the whole value chain, and looking at 
things around post-harvest storage and value addition are 
critical parts of that. There are two examples we can give of 
that, and one of them brings in the private sector.
    We have a partnership between PepsiCo, the World Food 
Programme, and USAID and the Government of Ethiopia where they 
are taking chickpea, which is a local crop which is highly used 
in that diet, and they have created a higher value-added 
opportunity for that in creating a chickpea smush for chickpeas 
as a food aid product. And so they are working with local 
processors that are in the rural communities to provide markets 
for those chickpeas so that the farmers--to kind of alleviate 
some of the transport issues. But it also provides better 
research and technology to those farmers because they have to 
use better varieties of chickpeas, and with the value addition, 
they can get better prices and more local markets for those. So 
that is one example.
    Another piece of work that we have is with General Mills 
and a program they have started called Partners in Food 
Solutions where they have brought together expertise from other 
companies and created a volunteer technical advisory force that 
really works with processors in rural communities to help them 
improve the efficiency so that they can buy more crops. But 
they also work to help them improve storage practices, storage 
warehouses, and other pieces like that.
    We also have university partnerships, for example, with 
Purdue where they have a chickpea storage, these triple bag 
storage products that then can be used in rural communities.
    So we really are very focused on that side of the value 
chain. It is easier to talk about the smallholders, but the 
smallholders need the transport exactly like you said and post-
harvest storage and other things and we look to address that.
    Senator Lugar. I appreciate your mentioning Purdue because 
we have had strong ties there in that outreach. So you are most 
thoughtful. [Laughter.]
    Mr. Shrier, before you try to respond to this, let me just 
add one further question while I have some time here and that 
is the nonemergency programs are a part of Feed the Future. 
Describe what these are and what sort of progress is being made 
in the so-called nonemergency area.
    Ms. McKenna. So a lot of our work on Feed the Future builds 
on prior work. Prior to Feed the Future, we always had the 
nonemergency food aid program through our Food for Peace 
Division. We took lessons learned from those programs. For 
instance, in Mozambique, some of those programs are working 
with cashew farmers to provide higher value crops for more 
vulnerable areas. There also has been work with risk insurance 
for more vulnerable areas that are prone to disasters.
    Senator Lugar. Like Indiana this year in the drought.
    Ms. McKenna. Yes, exactly.
    So Feed the Future has really built upon and expanded that 
work and those lessons. So we look at that nonemergency 
portfolio as very complementary and a key partner of ours in 
our work.
    Senator Lugar. Mr. Shrier, did you have a comment?
    Mr. Shrier. Yes. I just wanted to say, Senator Lugar, that 
in addition to the issues of transportation and market linkages 
that Ms. McKenna mentioned, we also do work on trade and 
promoting trade liberalization and trade facilitation in Feed 
the Future regions. And so our regional strategies, in 
particular, work at helping countries to remove border checks 
and other barriers to trade, to improve the standardization of 
standards and regulations across countries in a given region so 
that interregional trade can expand, as well as international 
trade more broadly. So that is another key to the challenge of 
food security.
    Senator Lugar. It is just critically important. The 
balancing of trade in food by the international trading system 
is a major factor in hunger, and I am delighted you are working 
on it.
    Thank you.
    Senator Cardin. Senator Casey.
    Senator Casey. Thanks very much.
    I wanted to return to an issue that Senator Cardin raised 
initially with regard to women and in these countries where it 
is particularly difficult to put in place strategies to allow 
them to be more a part of the effort to get the results that we 
want. In particular--and you may have addressed this in your 
testimony. I just wanted to press on this a little bit. The 
Women's Empowerment in Agriculture Index. If you could just, A, 
describe what that index is and, B, highlight for us the use of 
that to date so far as kind of a measuring tool.
    Ms. McKenna. We are very proud of that index. We developed 
it in cooperation with Oxford University, their human poverty 
lab, and the International Food Policy Research Institute, 
IFPRI.
    So the Women's Empowerment in Agriculture Index is the 
first of its kind and it is to really measure changes in 
women's empowerment in the agriculture sector. And so it really 
looks at, I believe, five factors that are critical to that. 
One is women's role in household decisionmaking around 
agricultural production, women's access to productive capital 
like loans and lands. One of the things we have seen in the 
past is as soon as a crop becomes more profitable or a cash 
crop, it becomes the man's crop, no longer a woman's crop. So 
making sure that women still have control of that and are able 
to be the ones who are the signatories on loans and land 
decisions is quite important.
    Adequacy of women's income to feed their families. So that 
is women controlling the income once it comes in the household 
which has been an issue in the past.
    Women's access to leadership roles in the community. When I 
managed grants at the Gates Foundation, I would notice--in the 
early days before we got better at this, we would notice that 
when you looked at all the farmer members that are signed up 
for your project, it was all the men, but yet it was all the 
women out in the field doing the work. So basic things like 
making sure--but if those women's names were not on the rolls 
as the member, they were not getting the checks and the income 
from that activity.
    So the index looks at those and women's labor and time 
allocations. I think one of the errors of the past is that we 
did not--we introduced new technologies, but it was the women 
in the field that had to do that work. So you have to really be 
sensitive that you are introducing technologies and 
applications that are actually decreasing the amount of time 
that they have to spend in the field more than increasing it.
    So the Women's Empowerment in Agriculture Index really 
takes all those dimensions into consideration and disaggregates 
the data. So going forward, we are launching it in all of our 
Feed the Future focus countries and our zones of influence, and 
going forward, we will be able to look at that and say, OK, our 
work is doing well on this aspect of the indicator, but there 
are still issues with women's access to land or loan. How do we 
improve that? So I think it will allow for much more productive 
targeting and much more effective work going forward.
    We have had a lot of inquiries from other organizations as 
to how they can actually be a part of the index and how they 
can adapt it. So IFAD, the U.N. Rome organization, 
International Fund for Agricultural Development, has looked 
into how they use it and a few other organizations are working 
with us to see how they can also incorporate the index into 
their activities.
    Senator Casey. I mean, do you have examples that you have 
employed to describe the impact of this kind of an index or the 
utilization of it?
    Ms. McKenna. When we launched the index, some of the early 
pilots showed some interesting learnings. I think, for example, 
in Bangladesh, they noticed there was one part of the index 
where in the areas where we were working, that number was not 
right. I believe it was around the women's access to productive 
capital, but I would have to get back to you to validate that. 
That then, by even just the pilot studies that we have launched 
in some of our locations, has allowed us to do some better 
targeting and program development in those areas. And I think 
we will have more examples like that going forward that we will 
be able to speak to and refer to in our work.
    [The written information supplied by USAID follows:]

    One of the most advantageous benefits of the Index is that it can 
serve as a diagnostic tool to help us better understand the most 
binding constraints that are impeding women's engagement in the 
agriculture sector and, perhaps the growth of the agriculture sector 
itself. Due to the fact that 10 different indicators are collected to 
calculate the Index, it offers the ability to look across a number of 
areas and identify which are most hindering equality and empowerment.
    USAID/Bangladesh was able to employ the WEAI after they conducted 
their full baseline, which included the Index. Overall, they found the 
greatest constraints for gender equality and women's empowerment were: 
(1) lack of control over use of income; (2) little control over 
productive resources; and (3) weak leadership in the community. 
Although much of the programming had already been designed by the time 
the mission got the results of the WEAI, they were able to look back at 
some of the components of programs they had planned and see how they 
would affect those three constraints. While they have not made drastic 
revisions to programs based on the WEAI, they have been able to expand 
or make use of project components that will address those constraints. 
They also used the information to inform the design of one project set 
to start in FY 2013 that works with women raising poultry and links 
them with inputs and resources to better engage in the poultry value 
chain.

    Senator Casey. Mr. Shrier, this is a broader question. 
Maybe you could particularize it for this issue or for any 
issue. But the broad question is this. Sometimes it is in the 
testimony. Sometimes we ask about it; sometimes we do not. But 
one of the purposes of having hearings like this is for you to 
tell us what you hope Congress would do to make--not to make 
your life easier necessarily--that is probably impossible--but 
to put in place legislative strategies that would further the 
goals of Feed the Future.
    Now, I realize that sometimes the best thing for the 
Congress to do is to provide resources as best we can and to 
get out of the way and let these programs develop on their own. 
But is there anything legislatively that you would hope that we 
would be able to do in the next year or so in addition to the 
obvious questions of dollars and appropriations, but just any 
kind of legislative piece that would be helpful? I know that is 
kind of broad and you can certainly amplify it through a 
written response.
    Mr. Shrier. Thank you, Senator Casey, for that question and 
that offer.
    I guess what I would say as an initial response--and I 
think we may want to get back to you with a more complete 
written response. But the world committed at the L'Aquila 
summit to respond with the scale and urgency needed to achieve 
sustainable global food security. That is not going to be 
something that is accomplished in 3 years or 5 years or 10 
years. It is accomplishable in our lifetimes, but it will take 
a sustained effort and that requires sustained resources 
certainly but also sustained attention. And so the work of this 
committee and of Congress more generally in keeping the issue 
of food security high on the U.S. agenda has been important to 
our diplomatic efforts to keep the world focused on this 
challenge. So we have moved from the days when food security 
and agricultural development was something that was discussed 
in technical meetings or by specialized ministries to a world 
where this is the stuff of Presidents and Prime Ministers' 
meetings, of summits in the G8, the G20, and through the major 
institutions of the international system. So having the backing 
that we have already had from Congress over the years will 
continue to be crucial to that effort.
    Senator Casey. So keep it as a front burner issue.
    Mr. Shrier. Absolutely.
    Senator Casey. Thank you.
    Mr. Shrier. Thank you.
    Senator Cardin. I think that was a very important point. 
Thank you, Senator Casey, for raising that.
    Let me thank our panelists. Thank you again for your 
service. We will now move to the second panel.
    Without objection, I am going to include in the record a 
statement made by Mercy Corp.
    Senator Cardin. Our second panel includes our private 
sector stakeholders. We are pleased to have Paul O'Brien who is 
vice president for policy and campaigns of Oxfam America where 
he oversees the policy and advocacy work, including teams 
focused on agriculture and climate change, aid effectiveness, 
extractive industries, humanitarian response, and U.S. regional 
programs.
    Prior to joining Oxfam, Mr. O'Brien lived in Afghanistan 
for 5 years where he worked in the Office of the President and 
the Ministry of Finance as an advisor on aid coordination, 
development planning, and policy reform. Prior to that, he 
worked for CARE International as the Afghanistan advocacy 
coordinator and African policy advisor.
    He is the cofounder of the Legal Resources Foundation in 
Kenya and founder of the Human Rights Research and Advocacy 
Consortium in Afghanistan.
    Mr. O'Brien has his law degree from Harvard Law School and 
has published on humanitarian policy, human rights, and 
emerging trends in development. Welcome.
    Conor Walsh is the Tanzania Country Director for Catholic 
Relief Services. I always like to have Catholic Relief Services 
present since they are a strong presence in my own State of 
Maryland in Baltimore.
    In Tanzania, Mr. Walsh leads a team of more than 90 staff 
and oversees a wide array of relief and development programs 
which ultimately benefit close to 400,000 Tanzanians. Since 
joining CRS, Mr. Walsh has served in a number of posts, 
including Angola, Haiti, Honduras, and Nicaragua. He has 
extensive experience overseeing programs in food security, 
agroenterprise, health, emergency assistance, and human rights.
    Mr. Walsh holds a master's degree in international 
development from Columbia University.
    Connie Veillette is the independent consultant and senior 
adviser to the Chicago Council on Global Affairs' Global 
Agricultural Development Initiative. Working in the area of 
international development for more than 20 years, Dr. Veillette 
served as a specialist in foreign assistance at the 
Congressional Research Service for 5 years. As a staff member 
of this committee working for Senator Lugar, she led the 
committee's report, ``Global Food Insecurity: Perspectives from 
the Field,'' which served as the basis for the Lugar-Casey 
Global Food Security Act introduced in the 111th Congress.
    As an independent consultant currently working with the 
Chicago Council on Global Affairs, she continues to follow and 
evaluate the work of the U.S. Government in the field of global 
food security and would be available to address the 
effectiveness of Feed the Future initiatives, including its 
research component.
    It is a pleasure to have all three of you present. As you 
have heard from the first panel, this has been a high priority 
of the administration and a high priority of Congress. It is 
critically important that we work together with the private 
sector. We welcome your observations as to how well the program 
is working to carry out its goals and whether it could be more 
effective.
    With that, let me first call on Mr. O'Brien.

   STATEMENT OF PAUL O'BRIEN, VICE PRESIDENT FOR POLICY AND 
            CAMPAIGNS, OXFAM AMERICA, WASHINGTON, DC

    Mr. O'Brien. Thank you, Senator Cardin and Senator Lugar, 
both for this hearing and for your ongoing leadership on the 
issue.
    We are, as Oxfam working in 90 countries, big supporters of 
Feed the Future for many of the reasons discussed today. 
Particularly the focus on agriculture and as a flagship for how 
the United States ought to be doing development in the world, 
we think it is defining the rules across the board.
    You, Senator, asked us to have a robust discussion around 
challenges, and I would like to offer three challenges that I 
think Feed the Future is going to be facing in the years to 
come and on which your leadership will be critical and on which 
we hope to see the administration lead also. Those challenges 
speak generally to the tensions between Congress' 
responsibility to track tax dollars while also embracing the 
idea that local leaders must lead. I would like to speak to 
that. The challenge of recognizing the role of the private 
sector without leaving them to an unregulated free-for-all, and 
the challenge of tackling climate change not just as a 
technical problem but as a political issue.
    So on the first threat or challenge, the development 
community woke up some time ago--I would loosely say 10 years 
ago--to the reality that we--collectively as donors, as NGOs--
are not collectively going to be capable of lifting 870 million 
people out of hunger or any significant number. In the end of 
the day, that challenge will ultimately fall to the 
institutions on the ground, the governments, the private sector 
actors, and the communities that must engage this issue 
themselves. That is old news, but it presents a set of 
challenges for us as a development community and in the Rome 
Principles, we see those challenges articulated.
    We know that if we want those countries to lead, those 
communities, those private sectors, we must invest with and 
through them. We must challenge them on the outcomes, not on 
inputs. We must give them long-term challenges to succeed. And 
that is something on which Feed the Future has been both 
courageous, articulate, and insightful.
    But across the U.S. Government that raises a particular 
tension because we are asking you as Congress to authorize and 
the administration to spend tax dollars through other 
institutions. Many in my community think that we are going too 
far in supporting local leadership and that ultimately we are 
going to see some of those moneys wasted because, as you 
pointed out, we face corruption and sometimes a lack of 
capacity in the countries where we have decided to invest.
    We went out and surveyed how the United States is doing in 
its effort to invest more through local institutions, and here 
is what we found. There has been a real change in the 
conversation between local stakeholders, local governments but 
sometimes civil society and the United States. They feel that 
we are listening better, talking more, engaging more. However, 
when we asked them, Are you seeing an increased ability to 
influence U.S. Government funding and how it is spent? two-
thirds said not that much over the 5 years that we asked, 
meaning we are listening better, they are feeling better 
informed about what the United States is doing, but still a 
significant proportion of them feel they do not exercise enough 
influence in directing our assistance.
    So while many in our community and I think some Members of 
Congress will say we may be going too far in putting local 
institutions, local governments, local communities in charge of 
their own development, our sense is we have not yet gone far 
enough, but Feed the Future is on exactly the right track by 
trying to do that. USAID is on exactly the right track with 
USAID Forward.
    And just on your question of corruption, Senator, I would 
like to say as you well know, the challenge we all have to 
crack that circle you talked about is that in each of the 19 
countries, there are corrupt individuals who have no real 
interest in reducing hunger in their own countries, but there 
are also reformers and leaders in government and civil society 
who want to get political legitimacy, who want to prove both to 
the international community and their own people that they are 
willing to take this fight on. And if we can parse out the 
societies and find out where the corruption is and is not and 
strengthen the reformers and the moderates and those more 
committed to the governance you talked about, we can actually 
crack that circle. So that is all I will say on that.
    On the second question which is the role of the private 
sector, I think we all for the same reasons, resource 
constraints and the breadth of the challenge, recognize that 
the private sector is profoundly important in moving forward 
our efforts to address food insecurity. And we think Feed the 
Future has been very strong on that and we embrace the New 
Alliance. But, of course, we all recognize that the way this is 
going to work effectively for people in poverty is the way we 
regulate the private sector. And one concern that I wanted to 
bring to your attention there that we think Feed the Future 
could be a leader on: land.
    Over the last 10 years, there has basically been a land 
free-for-all globally, 227 million hectares sold off to 
investors, often leading to women, children, and men being 
thrown off their land without adequate compensation or 
consultation. What can we do, what can Feed the Future do, what 
can USAID do to incentivize the right regulatory regime to get 
this under control before too many smallholder farmers get 
removed from their land?
    The FAO has put out a set of guidelines, voluntary 
guidelines, on land tenure. We think if Feed the Future 
explicitly embraced and funded efforts to adopt those 
guidelines by governments, by others, they could move the 
discussion on land tenure significantly forward and get some 
better regulation around what we see as a land free-for-all. 
The New Alliance--we think it is going in the right direction, 
but let us remember these are large corporations who have 
different interests at heart. So while they think about what 
they want more broadly, which is higher profits and better 
production of food to meet the needs of their shareholders, 
which is their legitimate interest, can we get them to align 
what they are doing transparently--and we embrace that idea--
with the needs of smallholder farmers on the ground? And that 
is the tension there. What can we get the New Alliance 
companies to say about embracing the importance of smallholder 
farmers and the role of the Rome Principles, which is not 
clearly aligned with the way the companies have been talking 
about it. So those would be our proposals for cracking that 
challenge on Feed the Future.
    Finally, climate change. It is great to hear that we are 
now having a robust discussion not about whether it is a 
problem but how we resolve it. And none too soon. We think that 
since 1980, corn production has reduced by 5 percent globally 
as a consequence of climate change, meaning the impact of 
climate change has been about 5 percent of production. In 
southern Africa because of climate change, we expect corn may 
be--there may be 30 percent less corn as a consequence of 
climate change in southern Africa. Big numbers.
    It is good to see Feed the Future focus and invest in the 
technologies that we are going to need, better and more 
improved seeds, better water management. But we all know that 
technologies are probably going to be insufficient to tackle 
what is happening with our weather. We are going to need 
political commitments to and institutions that are explicitly 
capacitated and committed to addressing climate change. So we 
would be looking to see Feed the Future be more explicit not 
just about the technological dimensions and challenges of 
climate change but also the political and institutional 
challenges of getting countries to accept that they are going 
to be having to adapt their agricultural economies to climate 
change over the next few decades.
    So thank you very much for your time on those issues.
    [The prepared statement of Mr. O'Brien follows:]

                   Prepared Statement of Paul O'Brien

    Mr. Chairman, I want to thank you and Ranking Member Corker for 
holding this hearing on the Feed the Future Initiative. I greatly 
appreciate the opportunity to testify before this subcommittee. This is 
an important moment to provide oversight to the Feed the Future 
Initiative and the administration's approach to addressing global 
hunger.
    Oxfam America is an international relief and development agency 
committed to developing lasting solutions to poverty, hunger, and 
social injustice. We are part of a confederation of 17 Oxfam affiliates 
working in more than 90 countries around the globe. We are also a 
campaigning organization meaning that through policy engagement and 
advocacy, we tackle the root causes of hunger and poverty in order to 
help people create an environment in which they can claim and exercise 
their rights.
    On the issue of agriculture and food security, Oxfam's GROW 
campaign is active in the United States and more than 40 other 
countries to build a more fair global food system where everyone has 
enough to eat always.
    In the United States, Oxfam America's work to promote a more 
equitable and just food system spans a broad number of issues from 
addressing policies that drive food price volatility such as biofuels 
mandates and commodity speculation to promoting positive public and 
private investments in the agriculture sector to meet the needs of 
small-scale food producers. We are also undertaking research and policy 
analysis on the Feed the Future Initiative aimed at strengthening U.S. 
foreign assistance programs focused on agriculture, food security, and 
adaptation to climate change.
    Our view is that the Feed the Future Initiative marks an important 
shift for the U.S. Government--and USAID in particular--in terms of how 
it works and the emphasis it accords to the critical issue of 
agriculture. Food insecurity is a major global challenge and the Feed 
the Future Initiative, if sustained, can contribute to lasting 
reductions in poverty and hunger. I will highlight three areas--civil 
society engagement; integration of climate change adaptation and 
natural resource management into Feed the Future country investments; 
and promotion of strong and secure land tenure and property rights 
systems--that we feel are crucial areas where the Feed the Future 
Initiative shows promise, but where work remains to be done.

             I. SUPPORT FOR THE FEED THE FUTURE INITIATIVE

    We strongly support the efforts made by the current administration 
to bring renewed focus and attention to agriculture and food security. 
After achieving significant increases in agricultural productivity 
during the 1960s and 1970s, official development assistance to 
agriculture exhibited a steady decline for more than two decades from 
the mid-1980s to the first half of this decade. In 1986, agriculture 
made up almost 10 percent of total official development assistance 
globally. By 2006, that share had shrunk to less than 2 percent. The 
sudden and dramatic price spike in 2008 has led to a significant 
reinvigoration in aid to this sector. Importantly, it is not only 
donors that have returned to focus on agriculture. In 2003 African 
countries agreed, in what is known as the Comprehensive African 
Agriculture Development Program (CAADP), to a target of allocating 10 
percent of government budgets to agriculture.
    For the vast majority of the more than 870 million people around 
the world who suffer from hunger, food and agriculture production is a 
key livelihoods strategy. Most of these food producers are women who 
struggle with unequal access to resources to grow enough food to feed 
their families and earn enough money to pay for basic necessities. 
Investing in agriculture is thus an important strategy to reach people 
living in poverty. In doing so, public and private investments in 
agriculture, when appropriately designed and targeted can be a driver 
of pro-poor economic growth and development. GDP growth generated by 
agriculture is at least twice as effective in reducing poverty as 
growth generated by other sectors.
    In reflecting on early outcomes achieved since the Feed the Future 
Initiative was announced, it is important to recognize first and 
foremost that the true impact of the investments being made now in 
agriculture and food security will take years to be fully realized. The 
process of energizing rural economies, spurring agriculture development 
and sustainably reducing hunger cannot be achieved over night or over 
the course of only one growing season. They will take years to be fully 
realized.
    One of the most important lessons to take from the Feed the Future 
Progress Report is that the quick wins are possible, but translating 
positive outputs into long-term positive outcomes in terms of higher 
incomes and improved food security and nutrition is a much longer 
process. We urge Congress to find creative solutions to ensure that the 
framework for poverty reduction developed in the Feed the Future 
Initiative, specifically the emphasis on supporting small-scale food 
producers, is sustained in this and future administrations.

                      II. CHANGING HOW USAID WORKS

    Consistent with Principles agreed upon at the G8 summit in 2009, 
the Feed the Future Initiative seeks to change the way U.S. foreign 
assistance operates and the way the U.S. Government delivers aid. The 
Rome Principles as they are known commit G8 donors to better alignment 
with country strategies, deeper engagement with civil society actors, 
improved coordination and collaboration with other development actors 
and stakeholders and a sustained and holistic approach that addresses 
both short- and long-term challenges to hunger.
    A practical and important outcome of the U.S. commitment to the 
Rome Principles is an emphasis on aligning resources and programs 
provided by the U.S. Government with the priorities and strategies 
developed by national governments. In African countries, this means 
ensuring investments align with country agriculture investment 
strategies (CAADP plans in Africa). Placing greater control of 
development objectives, strategies and resources with developing 
country governments, when responsibly done, is an important step toward 
bolstering country ownership of the development process.
    To further bolster this process and to ensure Feed the Future 
programs are responsive to the needs of small-scale producers, the U.S. 
has committed to greater consultation and engagement with in-country 
stakeholders including, and from our perspective importantly, civil 
society--especially farmer-based organizations and associations 
representing the needs and interests of women food producers.
    Oxfam research suggests that the emphasis on consultation is being 
taken seriously and that as a result missions in focus countries are 
changing the way they do business. To examine this issue, Oxfam has 
undertaken research in seven countries, where researchers interviewed 
nearly 250 development stakeholders to ask two questions:

  <bullet> How is the U.S. Government implementing new foreign aid 
        reform initiatives to improve aid delivery?
  <bullet> What effects have these changes created in their early 
        stages of implementation among the different development 
        stakeholders in countries?

    What we found is a significant improvement in the way the United 
States engages with civil society and other stakeholders. Whereas 4 
years ago meetings with the representatives of the U.S. Government may 
have been hard to come by, 77 percent of our surveyed stakeholders say 
that now they are meeting with officials more frequently. And 74 
percent of respondents told us that the quality of the interactions is 
better.
    When done right, these interactions can lead to better outcomes and 
more mutually beneficial results. But it is clear from our research 
that although there is an improvement in the quantity and quality of 
interactions between U.S. officials and in-country stakeholders, it is 
not yet translating into changing the types or focus of U.S. 
investments. In our survey, 65 percent of local stakeholders felt their 
influence over what the U.S. funds has either decreased or not changed 
at all over the past 4 to 5 years. Consultation and engagement thus 
remains a work in progress.
    The potential for improvement is strong, not just because USAID is 
taking the Rome Principles seriously, but also because other reforms 
within the agency have embraced many of these same principles and ideas 
and are turning them into improved practice at the mission level. In 
this regard, it is important to highlight one effort--implementation 
and procurement reform (IPR)--which is encouraging the agency to link 
more with local actors, learn from their experience, offer support that 
can build their capacity and create partnerships for lasting solutions 
to hunger and poverty.
    Implementation and procurement reform aims to place a greater share 
of USAID's investments directly with country governments, local 
businesses, and local organizations. In so doing, this increased 
engagement can strengthen the capacity of governments as well as local 
civil society and businesses while also increasing the breadth and 
depth of U.S. partnerships. Greater competition created through IPR can 
drive innovation and results and ensure the most efficient and 
effective use of government resources. In this way, IPR is helping to 
take the concept of consultation and build on it to create true 
partnerships.
    Oxfam applauds the commitment to country ownership and partnership 
embraced by the Feed the Future Initiative and IPR. Specific benchmarks 
and indicators should be developed and monitoring and reporting on 
local partnerships should be incorporated into the Feed the Future 
Progress Scorecard. Doing so will promote greater accountability and 
sustainability of this initiative.

    III. RENEWING FOCUS ON CLIMATE ADAPTATION AND NATURAL RESOURCE 
                               MANAGEMENT

    As the experience of extreme droughts in both East and West Africa 
have demonstrated, climate change compounded by natural resource 
degradation, poses a key challenge and is the basis of a substantial 
portion of the risk farmers around the world face. Information 
contained in the Feed the Future Guide indicates a clear recognition of 
the importance of addressing these challenges. The Guide observes that 
the sustainability and resilience of agriculture production depends on 
a ``large-scale systems approach to environmental and natural resource 
management'' including addressing climate change.
    Assisting small-scale food producers adapt to climate change and 
better manage natural resources is essential to the long-term success 
of the Feed the Future Initiative and efforts to promote sustainable 
development. As the lead implementing agency for both Feed the Future 
and the Climate Change Initiative, USAID can do more to ensure climate 
change and natural resource management (NRM) considerations are fully 
mainstreamed into agriculture development programs.
    Without efforts to help farmers adapt to climate change, current 
levels of agriculture productivity will decline as extreme weather 
events such as droughts and floods increase, dry seasons become longer 
and hotter and rainfall patterns become increasingly erratic, affecting 
rain-fed agriculture production. Projected impacts of climate change on 
crop yields, which in the tropics and subtropics could fall 10-20 
percent by 2050, could leave an additional 25 million children 
undernourished by 2050 in developing countries. The long-term decline 
in productivity will be punctuated by catastrophic crop losses caused 
by extreme weather events. This summer's historic drought affecting the 
Midwest, for example, is expected to reduce the U.S. corn harvest by 20 
percent on a yield-per-acre basis.
    For food producers, climate adaptation requires developing the 
tools and knowledge and building the capacity to address current 
hazards and manage risk and uncertainty associated with weather. Much 
of the focus of current efforts within FTF to address natural resource 
management and climate change, especially as highlighted in the 
Progress Report, is on identifying appropriate technical solutions such 
as improved seed varieties and better water management techniques. But 
there is also a need to implement programs that address power dynamics 
that shape access to natural resources essential for smallholder 
agriculture. People living in poverty, women especially, lack equal 
access to natural resources or decisionmaking power regarding their 
use. Women produce over half the world's food yet own less than 10 
percent of the land. It is estimated that if women had equal access to 
resources (natural and otherwise), they could increase on-farm yields 
by 20 to 30 percent.
    USAID can improve upon current Feed the Future activities by 
providing more regular training and technical support to mission staff 
to enable them to more systematically integrate consideration of the 
socioeconomic dynamics that shape climate change vulnerability and 
resilience into project planning and monitoring. Such an approach would 
reemphasize the focus on the particular challenges women face not just 
as food producers but also as consumers and potential stewards of 
natural resources.
    The expected impact of climate change is compounded by the fragile 
and deteriorating natural resource base, which in many countries is 
resulting in diminished water resources, depleted soils and reduced 
forests among other environmental pressures. In Africa alone, 650 
million people are dependent on rain-fed agriculture in fragile 
environments that are vulnerable to water scarcity and environmental 
degradation. Without sustained attention to address this challenge, the 
goals of Feed the Future are not achievable.
    Better guidance and training for missions can help to address this 
challenge and can also help USAID to better manage the synergies and 
tradeoffs between improved yields and productivity, on the one hand, 
and the integrity of the ecosystems on which successful farming 
depends, on the other. Complementary information to guide 
decisionmaking can be developed through the use of continuous 
monitoring and learning. Better monitoring and evaluation systems need 
to be put in place that can be used to attribute outcomes to specific 
interventions and investments in order to capture a more comprehensive 
understanding of how investments to address natural resource management 
and climate change adaptation are impacting environmental 
sustainability,

      IV. MAKING PRIVATE SECTOR INVESTMENTS WORK FOR SMALLHOLDERS

    Agriculture represents one of the best opportunities for the 
estimated 1.5 to 2 billion people currently living in rural food 
producing households to sustainably escape hunger and poverty. Small-
scale food producers themselves are the most significant source of 
investment in agriculture in most developing countries. Supporting the 
development of policies and investments to benefit small-scale 
producers as entrepreneurs is critical. Too often, however, small-scale 
producers are not considered to be investors at all, and policies 
promulgated in developing countries marginalize them or create 
incentives geared to supporting commercial level investments that can 
compete with or displace small-scale producers. This is a critical set 
of issues that Feed the Future must address.
    As Oxfam has documented, not all investments in agriculture have 
positive outcomes for people living in poverty. With regard to large-
scale land acquisitions, for example, Oxfam and many other 
organizations have raised concerns that the recent wave of investments 
in land in developing countries has included many instances of 
dispossession, deception, violations of human rights and destruction of 
livelihoods. In a recent Oxfam report, ``Land and Power: The Growing 
Scandal Surrounding the New Wave of Investments in Land,'' we 
documented five cases of land grabs that have hindered not helped 
development and poverty reduction. And this is just the tip of the 
iceberg. The Land Matrix Partnership has documented deals completed or 
under development amounting to nearly 49 million hectares of land since 
2000, mainly by international investors, with most occurring in recent 
years. Our report and subsequent work on the problem of ``land grabs'' 
has sought to highlight the need for measures--norms, standards, and 
protections--to defend the rights of people living in poverty.
    I highlight this issue for two reasons. First, Feed the Future will 
be less successful if attention is not paid to the importance of land 
rights--security of tenure, access to and control over land--in 
development outcomes. This is especially important for women, who often 
face legal and social barriers to controlling the land they farm. In an 
analysis of Feed the Future in Guatemala conducted by Oxfam, one of 
findings was that the impact of the initiative is partially limited by 
the fact that investments are not addressing structural issues 
including highly unequal access to land. This finding is underscored by 
World Bank analysis from 73 countries which found that countries which 
start with a more equitable distribution of land have economic growth 
rates two to three times higher than those with initially higher 
inequality.
    Second, in a number of ways the U.S. has taken an active role both 
in addressing land issues and in the promotion of private investment in 
agriculture. Much of this work is positive, but in other areas, Oxfam 
has raised concerns with the administration.
    Let me be clear: private investments--especially those made by 
national companies based in developing countries, small- and medium-
sized enterprises, and small-scale producers themselves--can, and 
should be, promoted in the development process as the primary engine of 
sustainable job creation and broad-based economic growth. There is a 
need to increase investment that not only promotes agriculture in a way 
that ``does no harm,'' but in a way that ``does more good.'' What must 
be achieved through positive agricultural investment is inclusive 
economic growth, environmental sustainability and long-term poverty 
reduction. And such investments need not include taking direct control 
over land.
    It is worth highlighting that the U.S. has provided significant 
recent leadership to improve the environment for the effective 
governance of land tenure, and in so doing lay the foundation for 
responsible agriculture investment. Over the past few years, the U.S. 
support has been instrumental in the development of a landmark set of 
guidelines and best practices to assist countries in protecting and 
promoting land rights. ``The Voluntary Guidelines on the Responsible 
Tenure of Land, Forests, Fisheries in the Context of National Food 
Security'' can serve as an important set of benchmarks and standards to 
guide national law, policy, and practice by governments and investors. 
U.S. Government staff chaired the negotiations, which have been lauded 
as highly inclusive and participatory. The result of this process is 
broad support for the Voluntary Guidelines which were adopted at the 
Committee on World Food Security earlier this year.
    Now that the Voluntary Guidelines have been finalized, the next 
step is for countries to review existing laws and policies and take any 
necessary steps to ensure coherence. To do this, U.S. agencies' 
development portfolios--whether they are part of Feed the Future or 
not--should review their own policies to ensure they meet the standards 
set out by the Voluntary Guidelines.
    This is especially important for agencies and offices with 
investment or lending portfolios, such as the Overseas Private 
Investment Corporation and the Export/Import Bank. This process should 
also ensure application of the Voluntary Guidelines to companies and 
investors that do business with these agencies.
    The other step the United States can take is to support 
implementation of the Voluntary Guidelines, through bilateral foreign 
assistance as well as by providing funding to the Food and Agriculture 
Organization of the United Nations, which is leading support for the 
implementation effort. Early piloting experience, which will include 
building technical resources and capacity-building at the country 
level, is a crucial step toward building a body of knowledge about how 
to effectively utilize the Voluntary Guidelines as a tool for improving 
the enabling environment in which tenure rights' holders have better, 
more secure access to land and natural resources.
    The Voluntary Guidelines figure prominently in another initiative 
tied to Feed the Future and launched earlier this year at the G8. The 
New Alliance is an effort to link donors, developing countries, and 
private sector actors in new partnerships to contribute to a goal of 
lifting 50 million people out of poverty. At this point six countries--
Ethiopia, Ghana, Tanzania, Mozambique, Cote D'Ivoire, and Burkina 
Faso--and more than 80 companies have joined the New Alliance. In 
forming each partnership Cooperative Framework Agreements have been 
developed, which include specific policy commitments by developing 
country governments, target funding levels for public sector 
investments by G8 countries and investment targets by companies seeking 
new market opportunities in African agriculture. Each Cooperative 
Framework Agreement includes a specific endorsement of the Voluntary 
Guidelines.
    Oxfam welcomes the endorsement of the Voluntary Guidelines in the 
New Alliance, but has raised a number of other concerns regarding this 
initiative. For example, G8 leaders have indicated that commitments 
made as part of the New Alliance will be consistent with existing 
agriculture investment plans and have reiterated that the Rome 
Principles such as consultation and civil society engagement apply as 
well. In practice, the application of these principles has been weak. 
Not only does this threaten the credibility of this initiative, it 
threatens to undermine the trust built up over the last several years 
between USAID, governments and stakeholders.
    Compounding this concern, available information regarding the 
nature of investments proposed by companies demonstrates a mixed 
commitment to targeting small-scale producers. It is crucial that in 
promoting private sector investments, the New Alliance and Feed the 
Future more generally, prioritize integration of and support and 
protections for small-scale producers.
    We urge Congress to use its oversight authority to ensure the New 
Alliance is developed in a manner that is coherent with the public 
sector investments supported through the Feed the Future Initiative. 
The U.S. Government must ensure a balanced approach to hunger and 
poverty reduction, encouraging and supporting both public and private 
investments in the agriculture sector. Small-scale producers must 
remain at the center of this effort.
    I thank the committee for the opportunity to share Oxfam's views 
and I am happy to answer questions you may have.

    Senator Cardin. Thank you for your testimony.
    Mr. Walsh.

 STATEMENT OF CONOR WALSH, TANZANIA COUNTRY DIRECTOR, CATHOLIC 
                 RELIEF SERVICES, BALTIMORE, MD

    Mr. Walsh. Thank you very much, Chairman Cardin and Senator 
Lugar. Thank you for this opportunity to address the 
subcommittee and to participate in this important hearing on 
U.S. global food security efforts.
    As you noted, I am here today to represent Catholic Relief 
Services. We were established by the U.S. Conference of 
Catholic Bishops and we are the international relief and 
development agency of the U.S. Catholic Church. On behalf of 
CRS, we appreciate the opportunity to provide our assessment of 
Feed the Future.
    CRS supports Feed the Future and we recognize the historic 
nature of this initiative. We support the country ownership 
model Feed the Future seeks to achieve and the whole-of-
government approach it is using to marshal U.S. resources.
    We also commend the administration for rallying G8 donors 
to support the country development plans of the Feed the Future 
focus countries.
    I would also like to add that the Feed the Future team in 
Tanzania has done a fine job in executing this comprehensive 
and integrated approach to development. The Feed the Future 
staff there are highly experienced development professionals 
who are genuinely committed to building the country's 
agricultural sector and bolstering its food security.
    Having said that, we do believe that Feed the Future as a 
whole can be strengthened in three ways. No 1, it can sharpen 
its focus on poor farmers. No. 2, it should balance the funding 
instruments that are used to deliver its assistance. And No. 3, 
it can improve the degree and the quality of participation by 
civil society in its design and its implementation.
    Turning to the first point, in Tanzania CRS is actually a 
partner in Feed the Future. We are implementing a subcontract 
that focuses on poor and vulnerable groups. These groups tend 
to be smallholder farmers who operate on a subsistence level, 
and our work helps to prepare them for the market by building 
their assets and their skills.
    Taken overall, however, Feed the Future in Tanzania has not 
really focused very much on the vulnerable groups. Instead, the 
bulk of Feed the Future resources have gone to regions of the 
country that are relatively better off, and within these 
regions substantial resources have gone to farmers who are 
already involved in commercial production. While such 
investments are called for by the Tanzanian Government's 
national agricultural investment plan, which Feed the Future 
supports, we are concerned that focusing only on areas 
prioritized by the plan risks marginalization of the more 
vulnerable.
    Some of the work being carried out under Feed the Future 
has great potential to improve smallholder farmers' ability to 
farm profitably and to improve the livelihoods of the poor. 
This work includes trade policy reform, rural infrastructure, 
food processing, nutrition work, and research on seed and plant 
varieties. Care has to be taken to ensure that improvements in 
these areas reach the poor.
    More importantly, though, we feel strongly that there 
should be more Feed the Future projects in Tanzania and in 
other Feed the Future countries that work directly with 
smallholder farmers and other vulnerable groups and in 
particular with women. These projects should focus on building 
their skills and their capacity to be self-sufficient. From our 
perspective, the measure of success in tackling hunger is tied 
directly to whether smallholder farmers 
are producing more food, are earning more income, are able to 
provide a healthy diet for themselves and their children, can 
maintain and build up productive assets like farm tools and 
livestock, and whether they can afford to keep their children 
in school. These are the indicators that matter in the fight 
against hunger and they should be at the top of Feed the 
Future's objectives.
    My second point relates to the funding mechanisms that are 
used to implement Feed the Future programs. Feed the Future 
programs are implemented either through contracts or through 
cooperative agreements. Private volunteer organizations like 
CRS mostly undertake cooperative agreements as opposed to 
contracts for a variety of reasons that are discussed in more 
detail in my written testimony. I would like to take this 
opportunity to highlight just one of those points.
    Cooperative agreements give organizations more flexibility 
in the way programs are designed and implemented. It allows 
organizations like CRS to leverage private donor funding, and 
it helps us incorporate our experience into program design. 
More importantly, though, the flexibility that is inherent in 
cooperative agreements better allows us to respond to realities 
on the ground and to adjust strategies as conditions change. 
There is perhaps a general assumption that contract mechanisms 
allow the donor to achieve desired results within a shorter 
timeframe and at lower cost, and this may be true if you are 
building a bridge or constructing a highway. But our experience 
has shown that the path to development cannot be neatly 
designed like a blueprint for a construction project. 
Development consists of changing behaviors, attitudes, 
practices, and relationships within groups of society. This is 
a fluid process and implementation, therefore, must be 
adaptable and cooperative agreements are far better suited for 
this purpose.
    The reason I bring this up is because our observations 
suggest that in many Feed the Future countries, USAID has 
relied heavily on contracts to achieve development goals. While 
this is not as true for Tanzania, the country that I am coming 
from, it is a common occurrence across a number of Feed the 
Future countries. The practice has discouraged PVOs like CRS 
from contributing as implementers of the Feed the Future 
program. In doing so, Feed the Future has not had the full 
benefit of the substantial experience the PVO community brings 
to implementing highly successful food security programs. If 
Feed the Future is serious about having a lasting impact and 
reducing hunger, there should be a better mix, a better balance 
of contracts and cooperative agreements across all Feed the 
Future countries.
    My third and final point relates to the input in Feed the 
Future program design and country development plans in the 
field. We believe that in general Feed the Future feedback 
mechanisms need to be strengthened to ensure that the program 
can take advantage of knowledge and capacities that were built 
in other food security programs.
    My experience in Tanzania regarding input mechanisms is 
mixed. On the positive side, CRS participated, along with 
several other dozen NGOs and other stakeholders, in a feedback 
session to validate and review the Feed the Future strategy, 
and the mission also engaged at times with a number of civil 
society groups to obtain input and advice, including the 
Agricultural and Non-State Actors Forum which represents a 
number of smallholder farmers. All of this is positive.
    However, we feel a more regular mechanism for obtaining 
feedback should be put in place. This could take the shape of 
an advisory council or just holding regular meetings with civil 
society groups, including local and international NGOs, faith-
based groups, and other stakeholders, to discuss the country 
implementation plan, the investment plan, and to identify best 
practices and scale up successful efforts. USAID could also 
undertake a mapping exercise of previous projects in Feed the 
Future countries to build on those experiences. What is 
important is that PVOs, local NGOs, and others have a means to 
communicate their experience and knowledge to Feed the Future 
and that planners make every effort to incorporate and/or learn 
from the information provided.
    In conclusion, Chairman Cardin, thank you again for this 
opportunity to present testimony before the committee, and I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Walsh follows:]

                   Prepared Statement of Conor Walsh

    I would like to thank Chairman Cardin and Ranking Member Corker for 
calling this important hearing on U.S. Global Food Security Efforts, 
with a focus on the Feed the Future Initiative. I am Conor Walsh and am 
here today to represent Catholic Relief Services (CRS). I have been 
with CRS for 17 years, and currently serve as the Country 
Representative for Tanzania. On behalf of the organization, we 
appreciate the opportunity to provide our assessment of U.S. Global 
antihunger efforts, and in particular Feed the Future.

                     ABOUT CATHOLIC RELIEF SERVICES

    Catholic Relief Services is the relief and development agency of 
the U.S. Catholic Church. CRS was originally formed by U.S. Catholic 
Bishops during World War II to aid in the resettlement of war refugees 
in Europe. Today, our work focuses on aiding the poor overseas, using 
the gospel of Jesus Christ as our mandate. The Church's social teaching 
informs the work of CRS and guides us to aid the poorest people in the 
poorest places, without regard to race, creed, or nationality.
    The Catholic Church has broad and deep experience combating poverty 
and hunger around the world and CRS has direct experience as an 
implementer of U.S. foreign assistance programs. The U.S. Bishops and 
CRS have close ties to the Church in developing countries, and CRS 
often partners with institutions of the local Catholic Church to 
implement programs. By partnering with Church institutions, CRS is 
often afforded the opportunity to work with communities inaccessible to 
the local government or other actors.
    CRS presently operates in almost 100 countries and serves about 100 
million people annually. Our programs address food security, 
agriculture, HIV and AIDS treatment, health, education, civil society 
capacity-building, emergency relief, and peace-building. In addition to 
partnering with Church institutions, CRS works with a variety of other 
partners to implement our programming, including other Private 
Voluntary Organizations (PVOs), U.S. and foreign-based non-governmental 
organizations (NGOs), local and national governments, international 
organizations like the World Food Programme, and national and local 
nonprofit organizations in the countries and regions where we work.

      CATHOLIC RELIEF SERVICE'S RESPONSE TO GLOBAL FOOD INSECURITY

    Improving food security for the poor and most vulnerable overseas 
has long been a major priority of CRS. We use a variety of funding 
sources for this work, both public and private.
    Historically, most U.S. Government funding for food security has 
been in the form of food aid. As a result, food aid is the largest 
portion of CRS' public funding for development and emergency food 
security programs. We receive funding from sources like the Food for 
Peace nonemergency account administered by the U.S. Agency for 
International Development (USAID),\1\ as well as U.S. Department of 
Agriculture's (USDA) McGovern-Dole Food for Education and Food for 
Progress programs, which allows CRS to conduct a wide range of 
agriculture and food security initiatives. These include helping 
smallholder farmers boost agricultural yields, introduce new crop 
varieties, establish value chains, and train farmers in necessary skill 
sets to become profitable and engaged in formal markets. CRS food 
security programming also includes village run savings and loan 
associations, which link to our agroenterprise activities. 
Additionally, CRS has long engaged in mother and child nutrition 
programs that provide nutritious foods and educate mothers in better 
health and nutrition practices for their children.
---------------------------------------------------------------------------
    \1\ Food for Peace is also referred to as Title II, or Title II of 
P.L. 480. Food for Peace Funding is split between emergency food 
relief, and nonemergency programs that fund development food assistance 
activities.
---------------------------------------------------------------------------
    In addition to public donor funding, CRS raises substantial private 
funds which we dedicate to food security programs. We regularly 
leverage these private resources with public donor funding. Every year 
during Lent, CRS conducts a program called ``Rice Bowl'' in Catholic 
parishes and with other partners across the U.S. to educate Catholics 
about global hunger and generate funds for food security projects. In a 
new program called ``Helping Hands,'' CRS collaborates with Stop Hunger 
Now, a private food aid organization, to conduct food packing events 
that provide food for the most vulnerable abroad. And recently, through 
leadership from InterAction,\2\ U.S. PVOs have pledged a combined $1 
billion in private funding over the next 3 years to food security 
programming, with CRS making up $150 million of this pledge.
---------------------------------------------------------------------------
    \2\ InterAction is an alliance of U.S.-based international 
nongovernmental organizations (NGOs) focusing on overseas disaster 
relief and development.
---------------------------------------------------------------------------
    CRS presently operates in 17 of the 20 Feed the Future countries, 
and in 8 of these countries--Ethiopia, Guatemala, Haiti, Honduras, 
Malawi, Mali, Tanzania, and Zambia--we implement major food security 
programs.

            GENERAL OBSERVATIONS CONCERNING FEED THE FUTURE

    CRS supports the Feed the Future Initiative. Prior to the Obama 
administration, the vast majority of U.S. foreign assistance efforts 
directed to food security were funded through U.S. food aid programs. 
While these programs were and continue to be a critical part of U.S. 
foreign assistance, they were never funded commensurate to the level of 
need. Now, through the President's comprehensive approach to 
eradicating global hunger, Feed the Future, coupled with existing U.S. 
food aid programs, we have begun to see more attention to, and more 
appropriate levels of funding for, food security programming.
    The administration has promoted Feed the Future as a ``whole of 
government'' initiative to provide a country-led, comprehensive 
approach to improving food security. We understand the enormity of this 
challenge. A truly comprehensive approach requires a wide range of 
stakeholders including the global donor community through the G8 and 
G20 processes, as well as multilateral organizations, regional 
governing and economic communities, recipient countries, beneficiaries, 
and aid implementers. The whole of government vision requires pulling 
together new and existing programs and funding mechanisms to achieve 
common food security objectives. Appreciating these challenges, we 
offer the following thoughts on specific aspects of Feed the Future 
from the perspective of our field offices and provide suggestions for 
how to strengthen its impact on the world's most vulnerable 
communities. These suggestions deal with (1) the focus of Feed the 
Future programming, (2) the funding instruments used by Feed the 
Future, and (3) the ability of organizations like CRS to provide input 
and advice on the implementation of the Feed the Future Initiative.

                      THE FOCUS OF FEED THE FUTURE

    As indicated in its October 2012 Progress Report, the Feed the 
Future Initiative intends to reduce global hunger largely through 
increased agriculture-driven economic growth for smallholder farmers 
and resilience programs for populations at risk of food crises. These 
are laudable goals that CRS fully supports because we also believe the 
key to tackling global hunger is to increase food security for the 
poorest people in the poorest countries. In Feed the Future countries, 
some smallholder farmers need direct assistance to boost agriculture 
production and additional skills to connect them to market-driven, 
value chain development efforts. However, we are concerned that some 
Feed the Future efforts risk placing too little emphasis on smallholder 
farmers and other vulnerable groups.
    Possibly driven by pressures to show results quickly and 
demonstrate the impact of scarce development funds, some Feed the 
Future investments appear focused on improving the capacity of existing 
commercial agriculture producers, sometimes at the expense of 
addressing the needs of smallholder farmers and other vulnerable 
populations. Commercial producers often already have access to assets 
and credit, and sit at the higher end of value chains to produce 
significant quantities for local consumption and export. They already 
consistently sell products of reliable quality in attractive packaging, 
meeting domestic, regional, and international certification standards. 
While CRS supports efforts to build a strong commercial agriculture 
sector in the developing world, building the capacity of existing and 
relatively successful commercial agricultural producers will not 
necessarily improve the lives of the poorest, who are the most food 
insecure. Support must be delivered equitably across all segments of 
the agricultural sector--big, medium, and small--and opportunities must 
be made for smaller producers to work on an equitable basis with the 
other parts of the agricultural value chain. Otherwise, the food 
produced will have little impact on food security, especially if it is 
for export, is not distributed well within a country, or remains too 
expensive for the poor to buy. As examples, we have observed Feed the 
Future programming that is biased toward medium- and large-scale 
producers, instead of smallholder farmers, in Tanzania and Guatemala.
    In Tanzania, CRS is a subcontractor to ACDI/VOCA under the 
``NAFAKA'' contract. Our work within this project is directly linked to 
vulnerable groups, but overall is a very small part of the Feed the 
Future programming in Tanzania. The bulk of Feed the Future resources 
have gone to agricultural producers targeted by Tanzania's national 
agricultural investment plan, the Southern Agricultural Growth Corridor 
of Tanzania (SAGCOT). SAGCOT seeks to concentrate public, donor, and 
private sector investments in a corridor spanning the country's center, 
starting from its western border with Zambia and stretching across to 
Dar es Salaam. These regions targeted by SAGCOT already are relatively 
better off economically compared to other parts of the country, and 
beneficiaries within this corridor are relatively wealthier farmers, 
some of whom are already involved in large-scale commercial production. 
We have raised concerns with the USAID mission that not enough 
attention is being placed on smallholder farmers, the bulk of whom are 
in northern areas of the country. The mission has been sympathetic to 
these concerns and is beginning to place more emphasis on addressing 
the needs of vulnerable groups. However, we feel there continues to be 
a bias in favor of wealthier areas and farmers because of a development 
approach that assumes that benefits reaped by larger producers will 
eventually cascade down to smallholder farmers and vulnerable groups--
which is a problematic assumption. We fear that if the benefits of Feed 
the Future continue to be spread unevenly in Tanzania, the results will 
ultimately exacerbate rather than alleviate income disparities, thus 
contributing to political instability.
    In Guatemala, Feed the Future is focused on three main goals: (1) 
market-led, value-chain agricultural development, (2) strengthening the 
health care sector, and (3) prevention and treatment of undernutrition. 
All three Feed the Future components are aligned toward complementary 
goals and target the same regions of the country. CRS currently 
operates in Guatemala implementing a 6-year Food for Peace development 
food assistance program that contributes to these goals by supporting 
nutrition interventions for mothers and children under 2, and by 
linking farmers at the bottom tier of producers into the Feed the 
Future supported value chain programming. But we see that the value 
chain, market-led agricultural development efforts have focused mainly 
on improving the capacity of the better-off, commercial agricultural 
producers in these areas to produce for and connect to national and 
international markets. While we ultimately expect to graduate 700 farm 
families into the Feed the Future value chain program, there are still 
over 20,000 smallholder farmers in these regions that we are not 
working with, and who could also benefit if Feed the Future provided 
them the necessary support.
    Feed the Future must do more to directly address food insecurity of 
the poor at the same time it works to strengthen existing commercial 
agricultural producers. In particular, Feed the Future can and should 
do more to target smallholder farmers who make up lower level 
producers. These farmers have little access to credit, own small 
parcels of land or work land in a communal fashion, produce primarily 
for themselves and for local consumption, and use less mechanization, 
less certified seed, and less fertilizer in their agricultural 
production. From our perspective, the measure of success in tackling 
hunger is whether smallholder farmers are producing more food, are 
earning more income, have better access to credit, are able to provide 
a healthy diet for themselves and their children, can maintain and 
build up productive assets like farm tools and livestock, and whether 
they can afford to keep their children in school.

                    BALANCING OF FUNDING INSTRUMENTS

    As a whole of government initiative, Feed the Future brings 
together funding from traditional food aid programs, as well as the 
Millennium Challenge Corporation (MCC), the Global Agriculture and Food 
Security Program (GAFSP), nutrition funding within the Global Health 
Initiative, and other specialized programs, to achieve a common set of 
goals. However, Feed the Future's core funding comes out of the 
Development Assistance account within USAID and is administered by the 
Bureau of Food Security (BFS). As reported in the 2012 Feed the Future 
Progress report, this core funding will be a little over $950 million 
in FY 2012.
    We believe Feed the Future programs have largely been awarded as 
contracts, 
as opposed to cooperative agreements. We began tracking funding 
mechanisms used 
by BFS in 2011 using information available on www.usaspending.gov and 
www.foreignassistance.gov. Our findings showed that there was about a 
2-to-1 ratio, in terms of dollars, going into contracts over 
cooperative agreements. We attempted to repeat this analysis for 2012, 
however we learned from USAID that not all data concerning Feed the 
Future funding is publicly available, thus skewing our results for 
2012. Nevertheless, our offices in Feed the Future countries have 
reported to us their experiences. From this, we understand that Feed 
the Future funding in Zambia and Tanzania has balanced contracts and 
cooperative agreements. In contrast, funding in other Feed the Future 
countries, like Ghana and Uganda, has been mostly in the form of 
contracts.
    The distinction between contracts and cooperative agreements is an 
important one. When faith-based groups like CRS undertake U.S. funded 
foreign assistance projects, the awards are generally in the form of 
cooperative agreements. There are a few main reasons behind this:

  <bullet> First, we seek funding based not by the potential profit to 
        be made via government contracts, but instead by the number of 
        people we can help to live better, more dignified lives. This 
        conscious choice is reflected in our accounting systems as well 
        as our project management structures, which are aligned with 
        the regulations and requirements of cooperative agreements.
  <bullet> Second, cooperative agreements generally entail a 
        contribution to the program funding by the implementing 
        organization--in our case, we are able to leverage substantial 
        private donor funding to compliment the resources provided by 
        USAID.
  <bullet> Third, cooperative agreements give both USAID and 
        implementing organizations more flexibility in the way programs 
        are designed and implemented. This flexibility allows funding 
        recipients to contribute their considerable expertise to 
        program design, to better respond to realities on the ground, 
        to adjust strategies as conditions change, and to operate in 
        ways that do not impede on our core principles or violate 
        tenets of our founding faiths.
  <bullet> Fourth, the award terms and governing regulations of 
        cooperative agreements allow for meaningful engagement and 
        mutual ownership of program goals and results by local partner 
        organizations and host communities, who are primary 
        stakeholders of capacity-building organizations such as CRS, 
        and whose empowerment is a prominent goal of USAID FORWARD.
  <bullet> Last, there is a general assumption that contract mechanisms 
        allow the donor to achieve desired results within a short 
        period of time and according to precise specifications, 
        designs, and cost estimates. However, our experience has shown 
        that the most lasting impacts are achieved through development 
        interventions that are long-term and painstakingly implemented 
        through multiyear investments in physical resources as well as 
        human capital that build the skills and capacity of 
        beneficiaries and local partners. Fighting poverty is not like 
        building a bridge or a school, but rather consists of a process 
        aimed at changing behaviors, power relationships and 
        distribution of resources, building the capacities of local 
        organizations and communities for lasting change.

    As noted earlier, CRS currently has a Feed the Future subcontract 
in Tanzania, and we also are implementing a Feed the Future cooperative 
agreement in Zambia and work as a subrecipient to CARE for a 
cooperative agreement in Ethiopia. Nevertheless, the heavy reliance on 
contracts by Feed the Future has greatly discouraged PVOs from 
contributing as implementers of Feed the Future programming. This is 
regrettable because these organizations have much to offer Feed the 
Future countries. U.S. PVOs have deep experience in implementing highly 
successful antihunger programs, and in many cases within the Feed the 
Future target countries. PVOs have been working directly in poor 
communities on food security programming for years, giving them on the 
ground relationships and networks that can be leveraged to further 
program goals. PVOs tend to collaborate with each other, both in 
program implementation and in after program learning, allowing our 
community to identify and perfect models that move very poor people up 
the economic ladder. In fact, there is a rich body of demonstrated 
success within the PVO community that can easily be scaled up and 
incorporated into the larger Feed the Future country-led approach. As 
just one example, CRS has recently completed the Global Development 
Alliance program ``ACORDAR'' in Nicaragua, where we worked with 
smallholder farmers to build their entrepreneurial skills, increase 
food production, and help them engage in formal markets, thereby 
bringing them to the next level of market-readiness and commercial 
farming. Through a balance in funding instruments, Feed the Future 
could do more to harness this expertise that PVOs offer.

         INPUT IN PROGRAM DESIGN AND COUNTRY DEVELOPMENT PLANS

    In addition to contributing to Feed the Future as an implementer, 
CRS and other nonprofit organizations have also attempted to share our 
experiences and expertise by providing input into Feed the Future 
planning and program design.
    CRS began engaging with the current administration on food security 
when the Obama transition team started conducting outreach sessions. We 
have often participated in Feed the Future meetings here in Washington, 
DC, with the administration. USAID-Washington, USDA, and the State 
Department should be complimented for their outreach efforts and open 
door policy. We would also like to voice our appreciation for their 
efforts to develop Feed the Future progress indicators across 
implementing agencies. This is difficult, but very important work, as 
it creates a truly results-based framework and standardizes it across 
assistance programs. In the field, CRS has had more varied success 
engaging those charged with Feed the Future implementation.
    In Zambia, our office has indicated that the USAID mission has been 
very good at engaging U.S. PVOs and local NGOs in both Feed the Future 
strategy development, and bringing their input into the Comprehensive 
Africa Agriculture Development Programme (CAADP) discussions regarding 
Zambia.\3\
---------------------------------------------------------------------------
    \3\ Comprehensive Africa Agriculture Development Programme (CAADP) 
is an entity of the African Union, and consists of African countries 
that have pledged at least 10 percent of their annual budgets to 
agricultural investments. CAADP has played a significant role in 
facilitating the writing of country development plans used to guide 
Feed the Future funding.
---------------------------------------------------------------------------
    In Tanzania, CRS, and several dozen NGOs and other stakeholders 
participated in a feedback session with consultants hired to design and 
validate the Feed the Future strategy. It was unclear how the input 
provided was used. Participants called attention to the need to include 
smallholder and vulnerable farmers in actions specifically designed to 
address their needs, and to the complexities of promoting nutritional 
and agricultural productivity objectives under one strategy. CRS 
subsequently organized a meeting for local NGOs and international PVOs 
with the USAID Feed the Future team which was a very helpful 
opportunity to learn more about the Feed the Future plan, but by then 
the program had been fully designed and most of the grants and 
contracts awarded. While the Feed the Future team seemed genuinely 
interested in engaging with civil society actors, including vulnerable 
groups, it also appeared they were uncertain how to achieve this. No 
continuous consultations or mechanisms for obtaining such feedback are 
in place, except for biannual partners meetings which do not lend 
themselves to open dialogue and discussion since they are generally 
formal presentations from the various contractors and grantees as 
opposed to discussion opportunities.
    In Kenya, we took the initiative to assemble a group of U.S.-based 
PVOs and Kenyan NGO partners to engage USAID and the Government of 
Kenya on food security. We were united in seeking greater input into 
Feed the Future planning and the wider country-led approach. This 
effort, however, has not reaped any significant changes that we can 
see.
    In Ghana, the U.S. Alliance to End Hunger used funding from a 
private grant to assemble U.S. PVOs (including CRS) and Ghanaian NGOs 
to engage the Government of Ghana and USAID and give input on Feed the 
Future implementation. CRS also organized a stakeholder meeting with 
several food security focused groups, farmers organizations, and other 
local NGOs to review actions on Ghana's country plan. These efforts 
have resulted in constructive dialogue, but more dialogue and learning 
needs to occur. For instance, while Food for Peace activities are no 
longer funded in Ghana, there is a wealth of information from past Food 
for Peace programming, that should be gathered and institutionalized 
for lessons learned. Such experience can certainly inform and improve 
Feed the Future programming in other countries.
    In general, our experiences in the field tell us that most Feed the 
Future countries do not regularly seek input from either U.S.-based 
PVOs who have implemented food security programming for many years, or 
from local NGOs that have both a stake in the development of their 
country, and something to offer to further this goal. In the instances 
where we have organized our communities to provide such information, we 
have seen, at best, mixed acceptance of our advice.
    We feel that Feed the Future's lack of engagement with PVOs and 
local organizations to seek their input represents another missed 
opportunity for Feed the Future to meet its goals by building on the 
successes of past programs PVOs have implemented. Several Feed the 
Future countries either currently receive, or have in the recent past 
received, food aid funding directed at assisting smallholder farmers 
and other vulnerable populations. As noted above, PVOs have a 
tremendous amount of experience implementing these programs, and have 
both lessons learned and best practices that can be scaled up to great 
effect. We believe, however, the sharing of this information must be 
done in a more systematic and regular way.
    We recommend that Feed the Future establish a permanent and 
effective mechanism for U.S.-based PVOs and local NGOs to communicate 
their experience and knowledge to Feed the Future, and that Feed the 
Future planners make every effort to adopt, incorporate, and learn from 
the information we provide. While we have in mind a mechanism for 
ongoing dialogue to achieve this, we also recommend USAID undertake a 
mapping exercise of recent food security interventions in Feed the 
Future countries. This will help Feed the Future identify what has been 
done to date, and could very well lead to the adoption of lessons 
learned and best practices that were achieved by past programs.

                               CONCLUSION

    Chairman Cardin, Ranking Member Corker, thank you again for this 
opportunity to present testimony before the subcommittee. I hope the 
observations and assessments we have provided concerning Feed the 
Future prove useful to you as you provide oversight of the initiative. 
To summarize the main points we covered:

  <bullet> We support Feed the Future's efforts to develop commercial 
        agriculture sectors, but believe that additional emphasis must 
        be placed more on directly helping smallholder farmers and 
        other vulnerable populations;
  <bullet> Feed the Future should work to better balance the mix of 
        contracts and cooperative agreements, so that organizations 
        like CRS, which have experience implementing food security 
        programs, can better bring their experiences and resources to 
        Feed the Future efforts; and
  <bullet> Feed the Future must more systematically and regularly 
        capture input from U.S.-based PVOs and local NGOs, to 
        effectively utilize these experiences to inform Feed the Future 
        planning.

    As you continue your oversight of U.S. Food Security efforts and of 
the Feed the Future Initiative, we hope you will continue to look to 
CRS to offer ongoing assessments of USAID programs. Feed the Future is 
a welcomed departure from the past as it seeks to address the 
complexities of global hunger through a comprehensive approach that 
brings all stakeholders into the process. It is our conviction that 
U.S.-based PVOs and other civil society stakeholders should and will 
play a key role in that process.

    Senator Cardin. Thank you very much for your testimony.
    Dr. Veillette.

 STATEMENT OF DR. CONNIE A. VEILLETTE, INDEPENDENT CONSULTANT, 
  SENIOR ADVISER, GLOBAL AGRICULTURAL DEVELOPMENT INITIATIVE, 
     CHICAGO COUNCIL ON GLOBAL AFFAIRS, FAIRFAX STATION, VA

    Dr. Veillette. Thank you. Thank you for the opportunity to 
testify today and thank you for the attention that the 
subcommittee is bringing to this important issue.
    I join my colleagues in this panel in arguing for a more 
concerted effort in achieving global food security. The Obama 
administration deserves much credit for prioritizing this issue 
in its Feed the Future initiative and its leadership at G8 and 
G20 meetings.
    The challenge of achieving food security for the 
approximately 870 million people who live with chronic hunger 
has thankfully enjoyed bipartisan support, beginning with the 
Bush administration's initiative to end hunger in Africa and 
increases in development assistance for agriculture that began 
in 2008. The Lugar-Casey global food security bill also had 
bipartisan support in the Senate.
    As we have heard today, the Feed the Future initiative 
seeks to increase productivity and incomes among some of the 
poorest and least productive populations in Africa, Central 
America, and South Asia. While this is necessary, it may not be 
sufficient given anticipated global trends. I would like to 
identify three trends that will put incredible pressure on 
farmers around the world going forward and then comment on how 
Feed the Future can help address these trends.
    I would also like to alert you that there will be a 
forthcoming report from the Chicago Council on Global Affairs 
that will discuss these trends in more detail and that will be 
made available to the committee in early December.
    First, the global population is projected to increase by 28 
percent, reaching 9 billion people by 2050. The Food and 
Agriculture Organization estimates that cereal production will 
need to increase by 60 percent to keep pace with that demand. 
Increasing the productivity of the least productive, largely 
smallholders in sub-Saharan Africa and South Asia, is an 
important component, but they alone will not be able to feed 
the world. All farmers in every part of the world will need to 
grow more to meet that demand.
    Second, wealthier populations demand a more protein-rich 
diet. We anticipate that populations will become more 
prosperous in the decades ahead. Because the livestock industry 
is a cereal-intense one, this suggests that demand for feed 
grains will increase commensurately.
    Third, climate change and weather variability will result 
in productivity losses in many of the current bread baskets of 
the world. Whether one believes climate change is manmade or a 
naturally occurring cycle, it still requires adaptation, new 
seeds that are drought and heat resistant, more efficient use 
of farm inputs and water resources, and techniques that protect 
the environment while not contributing further to greenhouse 
gas emissions.
    These three trends, population growth, changing diets, and 
climate change, suggest that the current call for a 60-percent 
increase in production may be a best-case scenario. Farmers 
will need to produce more on existing cultivated land and do it 
more efficiently, something that has been called resilient 
intensification.
    These challenges are not for the United States to solve 
alone, but American farmers and businesses benefit from a more 
prosperous global system. To address these challenges, we must 
prioritize science and be more supportive of a greater role for 
the private sector and increase trade flows. The scope of U.S. 
food security programs needs to be widened accordingly.
    The United States is no longer the global leader in 
agriculture-related science, research, and development, but is 
being outpaced by countries such as Brazil, China, and India. 
Earlier investments made American farmers some of the most 
productive in the world. The benefits of the Green Revolution 
allowed productivity to triple even as the world's population 
doubled. Research investments made in the United States with 
the land grant universities in the lead benefit American 
farmers and consumers and also have spillover effects globally.
    U.S. assistance to build the capacity of foreign 
universities and research facilities has also dropped off, 
meaning that U.S. scientists lack partners in developing 
countries to tackle such issues as plant disease and pests that 
cross national borders with increasing frequency.
    The private sector is increasingly investing in developing 
countries as they seek new markets and suppliers, but 
businesses avoid areas that lack a governance framework that 
protects property rights, as we have discussed earlier, and 
that allows for rampant corruption.
    Local businesses are also less likely to expand or create 
new ventures in areas where financing and infrastructure are 
lacking. Agriculture can help create vibrant rural economies, 
but businesses that support or benefit from agriculture need 
some degree of confidence that their investments will produce a 
return.
    Likewise, trade barriers both globally and regionally need 
to be lowered. Cross-border trade is burdened with corrupt or 
untrained officials, outdated regulations, or poor 
infrastructures in many developing countries.
    Additionally, differing standards and approval processes 
for the importation of improved seed, for example, mean that 
African farmers often are unable to access the inputs that 
would make them more productive.
    The challenge of feeding 9 billion people has not been a 
focal point of Feed the Future. However, its scope will need to 
be broadened if we want to prevent more people from falling 
into poverty from recurring bouts of price volatility if food 
supply is not able to keep pace with growing demand. And while 
the administration has recently recognized the role of the 
private sector and trade, there is a lot more work that needs 
to be done to fully develop and integrate these aspects into a 
U.S. food security program.
    I appreciate this opportunity to testify. Thank you.
    [The prepared statement of Dr. Veillette follows:]

             Prepared Statement of Dr. Connie A. Veillette

    Thank you for the opportunity to testify today on global food 
security. I would also like to thank the subcommittee for their ongoing 
attention to this issue.
    I join my colleagues on this panel in arguing for a more concerted 
effort in achieving global food security. The Obama administration 
deserves much credit for prioritizing this issue in its Feed the Future 
initiative and its leadership at G8 and G20 meetings. The challenge of 
achieving food security for the approximately 870 million people who 
live with chronic hunger has thankfully enjoyed bipartisan support 
beginning with the Bush administration's initiative to End Hunger in 
Africa and increases in development assistance for agriculture that 
began in 2008. The Lugar-Casey Global Food Security bill also had 
bipartisan support in the Senate.
    As we have heard here today, the Feed the Future initiative seeks 
to increase productivity and incomes among some of the poorest and 
least productive populations in Africa, Central America, and South 
Asia. While this focus is necessary, it may not be sufficient given 
anticipated global trends.
    I would like to identify three trends that will put incredible 
pressure on farmers around the world. Then, I will comment on how Feed 
the Future can help to address these trends. A forthcoming report from 
the Chicago Council on Global Affairs will elaborate on these trends 
and possible solutions, and will be shared with the subcommittee in 
early December.
    First, the global population is projected to increase by 28 
percent, reaching 9 billion people by 2050. While this projection may 
seem like a time too distant in the future to have much urgency, the 
long lag time in bringing new technologies on line demands that 
attention be given now to increasing productivity. For example the Food 
and Agriculture Organization (FAO) estimates that cereal production 
will need to increase by 60 percent by 2050 to keep pace with demand. 
Especially disconcerting, global annual productivity has stagnated 
since the 1980s with some exceptions in China, India and Brazil.
    Increasing the productivity of the least productive--largely 
smallholders in sub-Saharan Africa and South Asia--is an important 
first step to reducing poverty and hunger, but these farmers will not 
be able to feed the world. All farmers in every part of the world will 
need to grow more to meet that demand.
    Second, wealthier populations demand a more protein-rich diet, as 
has been demonstrated in emerging economies. We anticipate that 
populations will become more prosperous in the decades ahead. Because 
the livestock industry is a cereal-intense one, demand for feed grain 
is likewise expected to increase.
    Third, climate change and weather variability will result in 
productivity losses in many of the current breadbaskets of the world. 
Whether one believes climate change is man-made or a naturally 
occurring cycle, it still requires adaptation--new seeds that are 
drought and heat resistant, more efficient use of farm inputs and water 
resources, and techniques that protect the environment while not 
contributing to greenhouse gas emissions. The effects of global warming 
are projected to significantly reduce agricultural productivity by as 
much as 16 percent by 2080, and by as much as 28 percent in Africa.
    These three trends--population growth, changing diets, and climate 
change--suggest that current calls for a 60-percent increase in 
production may be a best-case scenario.
    If we are unable or unwilling to overcome these three challenges, 
the world may become politically, economically, and ecologically more 
unstable. There is a link between rising food prices, the global 
economy, and political unrest. If supply does not keep pace with 
demand, high food prices will push millions more into poverty. As food 
takes up a larger portion of consumers' budgets, there are less 
discretionary funds left for other necessities. Sharp increases in food 
prices have added fuel to the fire among populations that may already 
be suffering from unrepresentative or unresponsive governments.
    From an environmental perspective, agriculture both suffers from, 
and contributes to, climate change, producing between 15 and 25 percent 
of greenhouse gas emissions. Farmers of all sizes will need to adopt 
new approaches and techniques. With limits on the availability of 
arable land and continuing pressures on water resources, farmers will 
need to produce more on existing cultivated land and do it more 
efficiently, something that has been called resilient intensification.
    These challenges require that the global agriculture system, one in 
which evidence shows is becoming increasingly fragile, must be seen as 
one system with interrelated parts rather than as a zero-sum scenario. 
These are not problems that the United States can, or should, solve on 
its own, but American farmers and businesses would benefit from a more 
prosperous global system.
    Investing in agriculture has been shown to reduce poverty by 
increasing family incomes and revitalizing rural economies in 
developing countries. It results in more affordable food for both rural 
and urban consumers. Focusing on women farmers has been shown to 
improve the health and productivity of their children.
    For these investments to be effective, the United States must 
prioritize science, research, and development, and be supportive of a 
greater role for the private sector and increased trade flows. These 
areas are all ones in which the United States has comparative 
advantages, but the scope of U.S. food security programs needs to be 
widened accordingly.
    The United States was once the global leader in science and 
agriculture-related research and development, but it is no longer. 
Those earlier investments made American farmers some of the most 
productive in the world. The benefits of the Green Revolution since the 
1960s allowed productivity to triple even as the world's population 
doubled. But since the 1980s, investments in the agricultural sciences 
have fallen with the United States being overtaken by China, Brazil, 
and India. Research investments made in the United States, with the 
land grant universities in the lead, benefit American farmers and 
consumers, and also have spillover effects globally. There are roles 
for both advanced breeding techniques--GM technologies--as well as 
traditional breeding for improved seed varieties. Much progress needs 
to be made in standardizing evidenced-based approval processes for all 
types of scientific advances.
    U.S. assistance to build the capacity of foreign universities and 
research facilities has also dropped off, meaning that U.S. scientists 
lack partners in developing countries to tackle such issues as plant 
disease and pests that cross national borders with increasing 
frequency. The spread of disease and pests, and issues of food safety 
take on greater importance given their rapid transmission around the 
world. Increased opportunities for exchanges of students and faculty 
between U.S. and foreign educational institutions would greatly aid the 
caliber and effectiveness of research efforts.
    The private sector is increasingly investing in global agriculture 
as businesses seek new markets and suppliers. But, businesses avoid 
investments in areas that lack a governance framework that protects 
property rights or that allows rampant corruption. The World Bank's 
Doing Business index lists just seven African countries above the 
median suggesting the necessity of focusing on the factors that will 
contribute to business expansion and job creation.
    Local businesses are also less likely to expand or create new 
ventures in areas where financing and infrastructure are lacking. 
Agriculture can help create vibrant rural economies, but businesses 
that support or benefit from agricultural investments need some degree 
of confidence that their investments will produce a return.
    U.S. food security and development strategies should more fully 
integrate market analysis to identify barriers to investment. Current 
strategies by the Millennium Challenge Corporation and the Partnership 
for Growth model, while requiring analysis to identify obstacles to 
economic growth, are often lacking the perspective of local and 
international business that could be helpful in facilitating greater 
private investment.
    Likewise, trade barriers--both globally and regionally--need to be 
lowered. It is often easier to export to Europe than to a neighboring 
African country because cross-border trade is burdened with corrupt or 
untrained officials, outdated regulations, or poor infrastructure that 
impedes the flow of commodities. The World Bank estimates that just 5 
percent of grain or cereal imports to African countries originates from 
the continent.
    Additionally, differing standards and approval processes for the 
importation of improved seed, for example, mean that African farmers 
often do not have access to inputs that would make them more 
productive. Further, in a world that is more susceptible to weather 
variability, commodities need to more easily move from surplus-
producing regions to those suffering shortages. The goal should be to 
eliminate the need for food aid except in cases of disaster, but this 
requires a strong global trading system.
    The challenge of feeding 9 billion people has not been a focal 
point of Feed the Future. However, its scope will need to be broadened 
if we want to prevent more people from falling into poverty if food 
supply does not keep pace with growing demand. And while the 
administration has recently recognized the role of the private sector 
and trade, there is a lot more work that needs to be done to fully 
develop and integrate these aspects into a U.S. food security program.
    Feeding a growing world and eliminating hunger are daunting 
challenges. During this period of budget austerity, targeted 
investments in science, research, and development can be catalytic 
drivers that also have domestic benefits. Additionally, supporting 
business and facilitating trade can be accomplished through policy 
reforms and do not require large budgetary resources.

    Senator Cardin. Well, let me thank all three of you.
    There seems to be a common theme here that you are all very 
supportive of the programs that we have and the resources we 
are making available, but each of you believes we could do 
things a lot better. And that was, I think, the point of our 
questioning in the first round, that there is strong support in 
Congress on both sides of the aisle to deal with global food 
security. These initiatives, we believe, are extremely 
important, but we do believe we can do things better.
    Mr. O'Brien, I was particularly impressed by your original 
observation that we are listening better but we are not acting. 
We hear the different concerns. I am curious as to whether you 
believe that also applies to Government listening to the 
nongovernmental sector.
    Mr. Walsh, you mentioned a very important point in Tanzania 
about focusing on perhaps the easier issues and not the more 
vulnerable people, which is consistent with the local plan but 
may not be in the best interest of the goals of our programs.
    So are we running against a traditional bureaucratic 
problem of turf or is it more of a political problem of how we 
want to make sure that accountability is maintained? Can you 
sort of give us your best judgment as to where you think the 
major obstacles are to advance the causes that each one of you 
have laid out which is more empowerment locally, dealing with 
priorities on research, dealing with the more vulnerable 
people? Where do you think is the easiest way for us? What are 
the areas that we need to work on to be able to achieve those 
objectives?
    Mr. O'Brien, you may start.
    Mr. O'Brien. Thank you, Senator.
    Let me come at it this way. Is the Government listening to 
the nongovernmental sector? Yes, but the nongovernmental 
sector's blessing and curse is that we have a wide diversity of 
opinions on what ought to be the right direction of things.
    And I think at some level the key challenge for us on Feed 
the Future is where is the future of development going to have 
to be to tackle the challenges of tomorrow. We believe at Oxfam 
that Feed the Future and leaders such as yourself are making 
exactly the right call by saying it is not about us anymore. It 
is about taking some risks to invest in the local institutions 
that are going to drive solutions in the long term.
    Of course, we would love to do nothing other than measure 
inputs and outputs on a 1-year-to-year basis and make sure we 
controlled every single dollar because then we could report 
back to the American people on exactly what has happened to 
their money. But what we have found from decades of development 
is that being that risk averse is not delivering the long-term 
food security and array of other solutions we need across the 
development spectrum. So we have to take some risks.
    The important thing to do is to be very smart about those 
risks when you are dealing with corrupt environments where some 
actors are going to work well with the dollars you give them 
and others are not, and we are going to need very thoughtful 
leadership in Congress to say in the end of the day we need to 
have exit strategies from these environments. For that to 
happen, we need leaders to lead, and they cannot lead if we do 
not trust them to lead. So we are going to have to make some 
calls in that regard. We cannot protect every dollar the way we 
would like to if all we cared about was finding out where it 
went.
    Senator Cardin. Mr. Walsh.
    Mr. Walsh. If I may, I guess I would say there are two 
issues at play that explain why the focus on the poor might be 
lost in Tanzania and in other countries. I think, on the one 
hand, there might an assumption that by boosting food 
production, ultimately it is going to benefit the entire 
country sort of as a side effect, and that is a problematic 
assumption. I think that it is necessary to look beyond the raw 
figures of how many tons of maize are harvested. You have to 
see who is doing the planting, who is doing the harvesting, and 
who is selling it, where is it going. I think that there is a 
strong possibility that the food will be exported and that the 
vulnerable will be kept out of that altogether. So it is 
important to keep the focus on the role that the smallholders 
play in the entire production and value chain.
    On the other hand, there is a lot of pressure that the 
missions are under to show the results in the short term. We 
think that the congressional oversight is correct, but they 
also, I think, are under pressure to show that the Feed the 
Future initiative is paying dividends in the short term. And 
that is also something that I think we need to manage and keep 
in mind that the benefits do take time to cascade down to all 
of the levels of the pyramid, if you will, and by exerting too 
much pressure and demanding too many quick results, we again 
risk losing focus on the longer term benefits that food 
security will ultimately pay but that take time to develop.
    Senator Cardin. Dr. Veillette.
    Dr. Veillette. Let me say that I think a major impediment 
is one that we do not still know the full effects and that is 
climate change. We are pretty sure it is happening. I do not 
care really the need to identify why, but we need to be able to 
adapt to it. What we do not know is what is the full effect 
going to be. We anticipate that hot areas are going to get 
hotter, that wet areas are going to get wetter, that it is 
going to hurt those countries that are most vulnerable right 
now to chronic hunger, that crops are going to move north. We 
are going to see a change in the pattern of where we grow crops 
and when we grow them. Corn farmers in the Midwest are planting 
corn a full month earlier than they did even 4 years ago to 
avoid the onset of very hot weather.
    So because of that, we need to take into account not just 
the science of dealing with climate change but also trade. 
Going forward, having an open trading system is going to be 
more important than ever because we are going to have to move 
areas that are producing a surplus in food to those that have 
the deficit. And as that system gets more and more gummed up, 
we are going to continue to see price volatility and we have 
got to be able to smooth that out.
    Senator Cardin. Let me just make an observation. I think 
the points you raise are very important points. It makes it 
easier for us if we have ways of judging the activities and 
governance of a country. That is why EITI was an important 
initiative dealing with extractive industries. It was not as 
strong as a lot of us would like, but it was a unified way that 
we could judge progress being made in a country in dealing with 
a specific issue that was a large source of funding for corrupt 
governments. We in the United States have strengthened that 
with Senator Lugar's help with the transparency initiatives 
that we have been able to do on the extractive industries 
through their stock listings. All of that, I think, helps us 
give confidence.
    We need the same thing in agriculture. The index we were 
talking about earlier as it relates to women is an important 
factor so that we can judge progress being made. And when we 
have those factors, it takes pressure off the specific program 
accountability issues which can interfere with other goals that 
you all have mentioned.
    Dr. Veillette, I could not agree with you more on 
resiliency and adaptation. We absolutely need to deal with 
that. We also need to deal with climate change. I think we need 
policies that can really help us in dealing with the food 
security issues that you have mentioned. I think your comments 
are extremely helpful and I thank you very much for your 
testimony.
    Mr. Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman. I think the 
panel has been terrific in trying to illustrate that we all 
start with the humanitarian idea of feeding the world and we 
describe the population now and cite 2050 and 9 billion people 
and a deficiency of 870 million and so forth presently. But 
then it becomes more difficult after our idealism is expressed. 
Now, Feed the Future tries to deal with 19 countries, not all 
of the countries of the world.
    We have some of the problems that have been expressed today 
in the United States. We are a very productive nation, but 
fortunately through our food stamp program and school lunches 
and various other activities, we try to meet the needs of 20 
million to 30 million Americans. It is not the lack of food in 
the country but the problems of poverty and distribution and 
income. These are difficult problems even for ourselves with 
whatever transparency we have.
    Now, we try to translate this in the Feed the Future 
Initiative to 19 countries, set up agreements, some degree of 
transparency. But having said that, the facts are that there 
are other players. I think, Mr. Walsh, in your testimony you 
mention--as well as did you, Mr. O'Brien--the purchase of land, 
227 million hectares and so forth, but then even within 
specific countries perhaps landowners or corporations or 
investors, consolidate and leave the single farmer or the poor 
farmer out of the process. If this occurs even in national 
scope, which we did not get into with the first panel, but it 
is very clear that China, for example, has taken hold of land 
either by purchase or rental in African countries, maybe 
elsewhere, millions of acres or hectares and is shipping the 
food back to China. It is a situation in which that government 
has said we have got a big problem, and we do not have enough 
land, or we are not producing enough here.
    I was surprised that the Chinese were farming in Russia in 
border areas with the permission of the Russians, an unusual 
predicament strategically in the history of the world. But, 
nevertheless, first things first. I guess the payment has been 
sufficient to come in there and take it out. That is the same, 
as far as the Chinese are concerned, with coal and with other 
mineral resources.
    So even as we are trying to think about equities, we also 
have world politics and countries that have their own 
situations.
    Now, beyond that and this situation of trying to think 
about how the single farmer or the small farmer deals with 
this, the facts are that in our country consolidation of land 
proceeds, and this enhances productivity. For example, to take 
a local situation in Indiana, many young farmers coming out of 
Purdue University do not have enough money to buy a great deal 
of farmland, but they do need maybe 2,000 acres to farm to make 
use of the best machinery that we now have available to 
amortize those situations. So they rent from people who are by 
and large elderly folks or some not living in the State 
anymore. Eventually they make money, and they buy land and so 
forth. But it is a situation in which--these are tradeoffs. On 
the one hand, the use of the machinery, the planting, 
fertilizer, all this type of thing goes much better with the 
bigger machinery, but it takes a lot of acreage and bigger 
farms and consolidation. Where this leaves the small farmer is 
hard to tell.
    As we draw criteria for the 19 countries in Feed the 
Future, we look at our own situation, and it is one in which I 
think Mr. Walsh has stressed the equities of how the poor are 
managed right along with the efficiencies of this thing. But 
these are extremely difficult tradeoffs getting back to the 
overall idea of the population rising, and we need 50 or 60 
percent more of this or that.
    Then Dr. Veillette, as well as some of us, emphasized the 
climate change problem. Now, here my experience as a farmer 
this year was that my corn crop was almost wiped out. I was not 
unique in Indiana. That was true of several other States 
adjoining us and out into the Midwest. We had crop insurance, a 
governmental situation in which we bought the maximum amount to 
begin with, thank goodness, so that at least there is some 
return from that land.
    But we are talking about the small farmer facing not only 
the formidable problems I have already expressed but climate 
change and wipeout and no crop insurance. You really are up 
against it because this is not a governmental problem anymore. 
It is a global problem, and it is one in which we have really 
got to do something about climate change. The international 
efforts to do this in any systemic way certainly are lacking.
    Now, I pose all of this to you to ask what can we 
reasonably anticipate from Feed the Future given this global 
set of problems? Is it good government? Well, that is a part of 
it. The extension programs, some education. But at the same 
time, I am amazed that they are hoping maybe for 20 percent 
increases in some of their goals, not 100 percent, and this is 
from a pretty low base. That is why I am hoping there is some 
realism as to what Feed the Future can do as we have criteria 
here in the Congress trying to evaluate them.
    Does anyone want to hazard an opinion about any of the 
above? We covered a lot of territory.
    Mr. O'Brien. Sure. I am sure we all would like to say a 
brief word because they were great questions, Senator. Two 
brief points from me.
    Oxfam has invested in microinsurance programs in the horn 
in Africa which are weather indexed. We think they are working. 
And we are working with Ethiopian insurance companies because 
it has got to make business sense over the long term. But you 
have got to have the right regulatory regime for that national 
level insured to feel confident that this is a future business 
proposition for them that is going to be viable once the aid 
money diminishes. And so again, it is about creating that 
institutional infrastructure.
    On the land question, I would suggest that Feed the Future 
would do well to learn lessons from the work that you have led 
on the EITI. In the end of the day, if we can get better 
regulation of land transactions with more transparency, more 
consultation, better governance, and ideas around what kind of 
regulatory regime is going to manage it--none of us want to end 
investments in land. Farmers want to be able to sell their 
land, but we want responsible investments. And some of the work 
that you have done, I think, has broken new ground on how this 
can work not just for extractive industries but for resources 
like land where the end result is--and what we most care 
about--these smallholder farmers that are getting removed from 
their land get adequately compensated and consulted in the 
transactions.
    Mr. Walsh. Maybe I can take this opportunity to mention 
something that I did not have a chance to cover in my 
testimony, and it has to do with climate change. I think that 
is absolutely a vital and critical issue that Feed the Future 
needs to place far more at the center of its overall strategy 
than it currently has because it is such a cross-cutting issue 
and because it requires such a comprehensive approach. The good 
thing about Feed the Future is that it is integrated and that 
it does allow for so many different aspects of food security to 
be addressed, whether it is nutrition, whether it is policy, 
whether it has to do with the production of new and more 
resilient crops.
    Climate change, however, is getting sidelined, I believe, 
in Tanzania and I think in other Feed the Future countries as 
well. Yes, it is cross-cutting. So it is in there. The 
assumption seems to be it is in there somewhere, but it is not 
really being funded and it is not really being addressed in as 
central a way as it needs to be. I am talking about activities 
that need to be funded such as soil conservation and 
conservation farming which contribute to the resilience of 
farmers, as well as possibly mitigation of climate change.
    These are activities that are not new. They are not 
something that we need to completely invent from scratch. I 
think some of the technologies exist now that simply need to be 
rolled out more and that small farmers have a very good 
opportunity to participate in. But it is not currently an 
activity that is stand-alone or a significantly funded activity 
in Feed the Future, and I think that needs to be bolstered with 
funding as well as in the strategy itself.
    Dr. Veillette. I think it would be reasonable for Feed the 
Future to put a greater focus on the type of governance issues 
that would provide a better environment for businesses to be 
able to grow and invest. And I am not just talking about 
international or U.S. businesses but those local businesses 
that can revitalize rural economies. Part of that is policy 
reforms, regulatory modernization, anticorruption issues.
    Related to that is the issue about land grabs. Land titling 
and land tenure is not very strong in many of these countries. 
However, there has been a study done that in countries where 
there is strong land titling and land tenure, there have been 
the least amount of these large land deals. So obviously that 
is a key component to tamping that down.
    And then I also would reemphasize that there is a global 
governance issue. It is not just the governance of the 
countries that we are dealing with, but it is our trade 
regimes. It is how we can bring about some better harmonization 
and standardization in how we treat food safety issues, how we 
treat the approval process for advances in science and 
technology.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Well, again, let me thank our witnesses. 
This will not be the last of our interest in overseeing how 
this program is working. It is a major part of our 
international development assistance, and it is a major concern 
of the U.S. Senate. So this will be a continuing interest and 
we will be continuing to follow up and asking your help in 
trying to evaluate how we can do a better job on global food 
security for many reasons.
    Thank you all very much.
    Senator Cardin. And with that, the subcommittee will stand 
adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                   Prepared Statement of Mercy Corps

    Mercy Corps greatly appreciates Chairman Cardin's and Ranking 
Member Corker's decision to hold this important hearing focusing on 
global food security. Mercy Corps currently works in 44 countries 
providing development and humanitarian assistance, and the obstacles 
that vulnerable populations face in accessing adequate food are 
consistent challenge across most of the places that we work. In places 
as diverse as Mali, Yemen, Haiti, Kyrgyzstan, and many others, we work 
with communities to improve their productivity, access to nutritious 
food, and resilience to shocks. We appreciate the U.S. Government's 
renewed commitment to improving agriculture development, which is often 
the backbone of economies in the poorest countries in the world. We 
would like to take this opportunity to highlight successful agriculture 
development programs and encourage Congress and the administration to 
take specific steps to solidify important development reforms and 
gains.

      FEED THE FUTURE SUCCESS: TITLE II NON-EMERGENCY PROGRAMMING

    One of the cornerstones of Feed the Future (FtF), and one of the 
great success stories of U.S. Government food assistance programs, is 
Title II ``non-emergency'' programs, which work to prevent and 
alleviate the kinds of food emergencies that require the majority of 
Title II food aid. These multiyear programs authorized by the farm bill 
and appropriated through agriculture appropriations bills help the poor 
become more resistant to shocks, ultimately reducing the need for 
emergency food assistance, particularly in areas that see cyclical or 
recurring food emergencies such as the Horn of Africa and the Sahel.
    Title II non-emergency programs fill the gap between emergency 
relief programming and development assistance, and so are a vital step 
in helping communities transition from being food insecure to improving 
long-term agriculture development and becoming self-sufficient. For 
example, Mercy Corps implemented a non-emergency Title II program in 
Northern Uganda that supported families displaced by the Lord's 
Resistance Army conflict to rebuild their farms and livelihoods upon 
their return from displacement camps. This multiyear program provided 
the flexibility to support families and help them recover from crisis, 
while at the same time helped them to build a strong foundation for 
their long-term economic development, reducing the need for families to 
be dependent on emergency assistance.
    The funding mechanism for Title II non-emergency has been a source 
of controversy at times because it shares a funding stream with Title 
II emergency funds, and because non-emergency programs rely in part on 
``monetizing''--or re-selling--U.S. food commodities to finance program 
activities. Mercy Corps believes that increased use of the ``Community 
Development Fund'' mechanism within Feed the Future provides an 
important way to address both concerns. The administration has already 
begun using CDF cash resources, in a limited way, in place of 
monetization within some Title II programs. This both give USAID 
greater flexibility to scale up emergency response without undercutting 
non-emergency resource levels, and reduces reliance on monetization to 
fund program activities. This approach should be expanded in coming 
years.

                     LOCAL AND REGIONAL PROCUREMENT

    Among the best tools available to the U.S. Government to provide 
urgently needed food assistance to respond to crisis is Local and 
Regional Procurement (LRP). We strongly support this important type of 
programming under Title II and believe it should be robustly funded. 
With support from USAID and USDA, Mercy Corps has used LRP approaches 
to deliver life-saving food assistance to over 1 million people and 
strengthened markets in 11 countries in Africa, Asia, South America, 
the Caribbean, and the Middle East through local and regional 
procurement programs. The 2008 farm bill increased support for LRP, 
authorizing a pilot program to implement and study LRP activities in 
both emergency and non-emergency settings.
    Rigorous research by GAO and Cornell University show that LRP 
delivers food assistance quickly, effectively, and efficiently while 
also helping to protect and rebuild resilient market systems. 
Researched of the LRP pilot showed savings in both money (50 percent 
savings for unprocessed grain and some pulses) and time (an increase of 
62 percent in timeliness), adding an important and versatile tool which 
can be used to reach people in need. Section 3207 of the Senate farm 
bill makes permanent the authority for LRP projects at USDA at an 
annual authorized level of $40 million. We encourage Congress to 
permanently authorize LRP at the Senate level in the farm bill and for 
this subcommittee to examine ways in which this authority can be 
expanded.

              FEED THE FUTURE-REACHING THE MOST VULNERABLE

    We appreciate the U.S. Government's ``Whole of Government 
Approach'' to Agriculture and would like to encourage Congress and the 
administration to look closely at funding under this initiative to 
ensure that it adequately focuses on the needs of those most vulnerable 
smallholder farmers, especially women farmers. Recently USAID published 
a FtF Progress Report showing the collective progress of the 
administration's food security initiatives. We commend this important 
first step and recommend Congress and the administration continue to 
partner on FtF to improve transparency and accountability through 
expanding the FtF Progress Report to show account specific (i.e., DA, 
MCC Title II) results that highlight how FtF programs are reaching 
intended beneficiaries and in particular, vulnerable populations.

        HOW CAN CONGRESS FURTHER ADDRESS GLOBAL FOOD INSECURITY?

    Congress can do its part to support the Feed the Future Initiative 
by:

  <bullet> Passing a farm bill that reauthorizes Title II non-emergency 
        assistance, supporting reforms to international food aid that 
        allows for greater use of cash, especially the use of Local and 
        Regional Procurement;
  <bullet> Supporting the Senate SFOPS levels for FtF in FY 2013;
  <bullet> Support the Community Development Fund provision in the FY 
        2013 Senate SFOPS bill that allows for Development Assistance 
        funds to be used toward the Safebox authorization level; and,
  <bullet> Require a supplemental report to the recent FtF progress 
        report, which shows results disaggregated by FtF account, and 
        require account and country specific disaggregated reporting in 
        any future progress report.
  <bullet> Require appropriate environmental indicators of USAID 
        agricultural investments to be monitored and reported in any 
        future FtF progress report.

    Chairman Cardin and Ranking Member Corker, thank you again for 
holding this important hearing and your continued work and partnering 
with the administration, we know that FtF can help address food 
insecurity, one of the greatest needs of this century.
                                 ______
                                 

 Response of Acting Special Representative Jonathan Shrier to Question 
                Submitted by Senator Benjamin L. Cardin

    Question. Which agencies and programs of the United Nations, 
particularly the Food and Agriculture Organization (FAO) and World Food 
Programme (WFP), are critical partners in U.S. efforts to improve food 
security? How are Feed the Future and other U.S.-led initiatives 
partnering with the U.N. and other international humanitarian 
organizations to reduce hunger and poverty?

    Answer. The U.S. Government works closely with U.N. agencies as a 
member and partner to help advance global food security goals and align 
food security activities under the donor principles adopted at the 
U.N.'s World Summit on Food Security in Rome in 2009. This alignment is 
reflected in the Feed the Future Presidential initiative, which 
emphasizes country ownership; fosters strategic coordination among 
donors, governments, multilateral organizations and the private sector; 
addresses the root causes of hunger and poverty; and through our 
diplomatic engagement supports efforts to increase the effectiveness of 
U.N. institutions and encourage donor accountability.
    As a leading member on the Executive Boards of the World Food 
Programme (WFP), the Food and Agriculture Organization (FAO), and the 
international Fund for Agricultural Development (IFAD), the United 
States is helping to shape the priorities, policies, and approaches of 
these organizations so they are aligned with donor principles and Feed 
the Future's approach.
    The U.S. Government also plays a leading role in high-level 
negotiations related to food security, including the post-2015 
Millennium Development Goals process and the U.N. Committee on World 
Food Security. In October 2011, for instance, a U.S. official was 
elected as vice chair of the committee, and another U.S. official 
served as the international chair of the committee's consultative 
process to develop Voluntary Guidelines on the Responsible Governance 
of Tenure of Land, Fisheries, and Forestry in the Context of National 
Food Security that were approved in May 2012. The U.S. Government is 
also preparing to participate in the follow-on consultative process 
aimed at developing voluntary, nonbinding principles on responsible 
agricultural investment and will provide technical assistance to the 
country chairing that 2-year process.
    The United States has been a strong supporter of the work of the 
U.N. High Level Task Force on Global Food Security established by 
Secretary General Ban Ki-moon to strengthen coherence among U.N. 
agencies in confronting the challenges of global hunger, food 
insecurity, and undernutrition. For example, Secretary of State Clinton 
launched the 1,000 Days partnership in 2010 to mobilize action by 
governments, private sector firms, and civil society organization in 
support of the Scaling Up Nutrition movement established by Secretary 
General Ban.
    The FAO, the World Food Programme (WFP) and the International Fund 
for Agricultural Development (IFAD) have vast experience and expertise 
to tap. The leaders of these agencies have all expressed support for 
the G8 New Alliance for Food Security and Nutrition, for example, and 
the President of IFAD serves on the leadership group established to 
oversee the New Alliance. These agencies have committed to coordinating 
and aligning their investments in support of compacts and investment 
plans for the Comprehensive Africa Agriculture Development Program 
(CAADP). These compacts and plans define evidence-based agricultural 
and food security roadmaps for achieving the Millennium Development 
Goal of halving poverty and hunger, and provide country-specific 
frameworks for all new and ongoing investment in agriculture and food 
security. Similar national strategies are also in design or in place in 
Asia and Latin America to ensure efficiency and greatest impact at the 
country and regional level.
    FAO, WFP, and IFAD have also been strong partners in supporting the 
work of the Global Agriculture and Food Security Program (GASFP), the 
multidonor trust fund housed at the World Bank. These U.N. agencies are 
part of the steering committee of the Public Sector Window of GAFSP, 
which mobilizes and consolidates grant funding that is additional to 
current programs in order to help support strategic country-led and 
regional programs that are the result of country and regional 
consultations.
    More broadly, the FAO has well-developed technical and normative 
capabilities, which can assist food insecure countries develop policy 
and technical responses to their food security and nutrition gaps. The 
United States works with the FAO to harness its scientific and 
technical expertise to combat plant and animal pests and pathogens that 
impact agricultural productivity and small farmer income. We also work 
with FAO to promote ways to link poor farmers to markets through the 
provision of improved seeds and inputs, technical expertise, assistance 
in meeting international standards, and market information. We are 
working with FAO through the G8 and G20 to build in mechanisms to 
monitor and respond to volatility in food prices. The G20 has launched 
the Agricultural Market Information System (AMIS) and the Rapid 
Response Forum, which allow policymakers to track food production data 
from around the world and create a forum to share information and 
formulate policy responses in the event of global food crises. The 
United States, represented by a USDA official, is currently chairing 
the G20 AMIS effort, which is housed at the FAO.
    The United States is the largest donor to the WFP in the form of 
in-kind food aid and cash-based assistance to respond to crises around 
the world. The WFP also has experience in market development through 
local and regional purchases that can be leveraged by implementers of 
similar programs. Work with WFP is not only focused on saving lives but 
increasingly also on building household and community resilience to 
better withstand future shocks. For example, a unique, trilateral 
partnership between PepsiCo, USAID, and the WFP provides a 
nutritionally fortified feeding product while helping to build long-
term economic stability for smallholder chickpea farmers in Ethiopia by 
involving them directly in PepsiCo's supply chain.
    In addition to the U.N. system, the United States has also worked 
to advance food security and nutrition objectives through the 
international organizations involved in agricultural research, notably 
the Consultative Group on International Agricultural Research (CGIAR); 
the multilateral development institutions, and global and regional 
policy platforms such as the G8, the G20, and APEC. All of these 
multilateral institutions extend U.S. influence and impact far beyond 
what could be accomplished through U.S. efforts alone, making them 
critical partners in the fight against hunger and undernutrition.
                                 ______
                                 

           Responses of Tjada McKenna to Questions Submitted
                     by Senator Benjamin L. Cardin

           NUTRITION--INTEGRATION OF FEED THE FUTURE AND GHI

    Question. Feed the Future and GHI report that their joint efforts 
have led to reductions in the share of underweight and stunted children 
in 18 countries.

  <bullet> Please describe the distinct nutrition-related activities by 
        GHI and Feed the Future and how these efforts are coordinated 
        at each stage (planning, implementation, monitoring, and 
        evaluation)?

    Answer. Nutrition is the key point of intersection between food 
security and health and improving nutrition is a high-level objective 
of both the Global Health and the Feed the Future Initiatives. USAID 
provides global technical leadership assistance to priority countries 
in both initiatives to facilitate the planning, introduction, and 
scale-up of high-impact nutrition activities. USAID's nutrition 
portfolio is integrated across multiple initiatives and funding 
streams. Integrated programing is essential to address the immediate 
causes of child undernutrition--food and nutrient intake and health, 
and the underlying causes--such as access to food, maternal and child 
care practices, water/sanitation, and health services. The high level 
of integration makes sense programmatically, but makes reporting more 
complex. Feed the Future works with the Global Health Initiative to 
ensure that USG nutrition investments have maximum impact on our target 
populations. Through both initiatives, we implement nutrition 
strategies that are based on country-specific needs and opportunities. 
We build the capacity of health systems to screen and treat 
undernutrition and use local food products to do so. We leverage 
existing community workers--both health workers and agriculture 
extension workers--to deliver nutrition education at a local level. We 
also empower women in both initiatives by increasing access to new 
farming skills, agricultural inputs, health knowledge, and quality 
health services as a way of reducing poverty and improving their and 
their children's health and well-being.
    Investments include expanding the evidence base for nutrition to 
guide policy product development, and strengthen nutrition programs; 
building capacity to design, implement, and report on food and 
nutrition programs and strengthen coordination and integration; and 
introducing or expanding comprehensive evidence-based packages of 
interventions to prevent and treat undernutrition. These packages of 
interventions include social and behavior change communication to 
improve nutrition practices, diet diversification, and delivery of 
nutrition services including nutrient supplementation and management of 
acute malnutrition.
    Given the close linkages between agriculture and nutrition, we are 
implementing Feed the Future and Global Health activities in a highly 
coordinated manner in order to maximize results. A great example is 
Nepal, where we are working with Save the Children and several local 
partners to improve the nutritional status of women and children under 
2 years of age in 25 districts by focusing on health behaviors, dietary 
quality, dietary diversity, health services, and coordination. Another 
great example is Ghana, where USAID is supporting the integration of 
community management of acute malnutrition (CMAM) into the Ghana Health 
Service. CMAM is proven to reduce mortality from severe acute 
malnutrition to under 5 percent. In addition, it allows 80 percent of 
children to be treated in their homes. USAID is also supporting 
innovative approaches in local production of ready-to-use foods.
    For Feed the Future, we have developed and rolled out a 
comprehensive results framework that focuses our efforts across the 
global initiative on two top-line results: reducing poverty and 
undernutrition. We have a range of activities that feed into this, but 
the results framework is a critical innovation to align our programs 
and demonstrate how they contribute to our top-line goals. USAID 
nutrition reporting for Feed the Future and the Global Health 
Initiative use many of the same indicators, such as the prevalence of 
underweight children under 5 years of age and the prevalence of wasted 
children under 5 years of age, and prevalence of underweight women. 
These are collected in the Feed the Future Monitoring System (FTFMS) 
for review by both the Global Health Initiative and Feed the Future.

             TITLE II NON-EMERGENCY ASSISTANCE PROGRAMMING
 
   Question. Title II nonemergency programs are a unique type of 
development program that have had wide ranging successes in the 
developing world, including improving livelihoods for smallholders, 
mitigating stunting of children and supporting local markets function 
more efficiently. What lessons learned is USAID taking from successful 
Title II nonemergency programs and incorporating into USAID development 
programming?

    Answer. Feed the Future coordinates closely with USAID's Office of 
Food for Peace (FFP), which manages the programming of Title II 
nonemergency resources. In general, Title II nonemergency food aid 
programs are community-based programs targeted to very poor or 
extremely poor households--``the poorest of the poor.'' Many of these 
households depend on agriculture for livelihoods--either from farming 
their own land or working on someone else's land. However, despite this 
focus on agriculture, these households are often unable to meet their 
family's basic food and nonfood needs for 12 months of the year. 
Constraints, such as limited land size and labor availability, reliance 
on less productive technologies and practices, and poor access to 
markets and inputs, make it very difficult for these communities and 
households to break out of poverty. Title II nonemergency programs work 
at a local level providing a safety net for these extremely vulnerable 
households and have a proven success record in many underserved 
communities around the world.
    Many Feed the Future programs focus on value chains and aim to 
address constraints to agricultural productivity both within targeted 
geographic areas and, in terms of policy, at a national level. For 
example, if a lack of access to fertilizer and improved seed is a 
significant constraint to productivity, Feed the Future engages the 
host government and other interested partners to identify key 
challenges and develop solutions. These could include creating a 
regulatory framework to allow for greater private sector participation 
in seeds markets or developing a network of agrodealers that can 
provide improved seed and fertilizer to farmer groups. Post-harvest 
loss is another good example. While Title II nonemergency programs 
often work at the household level to reduce post-harvest loss and 
improve food safety through better drying and storage technologies, 
Feed the Future programming targets the next level up--working with the 
private sector and farmer groups to develop regional initiatives, such 
as creating a warehouse receipts program capable of serving thousands 
of communities so that we can have impact in reducing poverty at a 
significant scale.
    There is inherent complementarity in these programs--with Title II 
nonemergency programs providing assistance to acutely vulnerable 
populations and Feed the Future assisting communities at scale to 
participate in commercial agriculture in order to escape poverty over 
the long term. The USAID Bureau for Food Security, which supports the 
implementation of Feed the Future, and the USAID Food for Peace Office 
are working to ensure the complementarity of their respective programs.
    Feed the Future has learned much from FFP's decades of experience 
and has adopted a number of strategies from FFP, including an expanded 
focus on the resilience of vulnerable communities to the shocks that 
exacerbate food insecurity. For example, in order to combat the recent 
crises in the Horn of Africa and the Sahel, Feed the Future programs 
include both longer term investments like increasing the commercial 
availability of climate-resilient crops and reducing trade and 
transport barriers, as well as direct funding for Community Development 
Funds (CDFs). CDFs play a catalytic role in bridging humanitarian and 
development assistance. CDF investments fund community-based 
interventions aimed at increasing the economic and nutritional 
resilience of the rural poor and accelerating their participation in 
economic growth, while simultaneously freeing up more Title II 
resources for emergency needs. The FY 2012 and FY 2013 Feed the Future 
requests expand this effort. These programs bridge humanitarian and 
development objectives through expanded support for productive rural 
safety nets, livelihood diversification, microfinance and savings, and 
other programs that reduce vulnerability to short-term production, 
income, and market disruptions. As part of the Horn of Africa and Sahel 
Joint Planning Cells, Feed the Future will reduce vulnerability to food 
insecurity in the Horn of Africa and the Sahel by fully integrating 
long-term economic development assistance with short-term emergency 
relief and harnessing science and technology to help populations adapt 
to increasingly erratic production seasons.
    Feed the Future has also learned from FFP that it must focus on the 
importance of women and women's nutrition in combating food insecurity. 
Feed the Future works to ensure that women have access to increased 
incomes to improve family diets; that agriculture delivers more 
nutritious food, not just productivity gains; and that we build 
preventative approaches to break the cycle of undernutrition that 
contributes to poverty.
    In addition, some of the indicators of success we monitor include 
the prevalence of underweight women and the recently launched Women's 
Empowerment in Agriculture Index (WEAI) to measure changes in women's 
empowerment in the agriculture sector. The index is being used in Feed 
the Future focus countries and is being incorporated in all Feed the 
Future population-based baseline surveys. Another pilot program 
launched in FY 2012 was the Evidence and Data for Gender Equality (U.N. 
EDGE) Initiative, a new partnership between the U.S. Government and the 
U.N. that seeks to accelerate existing efforts to generate comparable 
gender indicators on health, education, employment, entrepreneurship, 
and asset ownership.
    Finally, Feed the Future has learned from FFP that micronutrients, 
not just an overall availability of food, must be a part of food 
assistance. A number of Feed 
the Future programs fund the research of vitamin-rich crop varieties 
that provide needed vitamin A, zinc, and iron. For example, Feed the 
Future's Harvest Plus program field-tested vitamin A-rich orange-flesh 
sweet potato (OFSP) and iron- and zinc-rich beans in Uganda. In Rwanda, 
five new iron-rich bean varieties were released. Children and women are 
the main beneficiaries of these new bean varieties, which will provide 
up to 30 percent of their daily iron needs.

             LEVERAGING U.S. NGOS' COMMITMENT AND EXPERTISE

    Question. At the U.N. General Assembly, U.S.-based nongovernmental 
organizations (NGOs), led by Interaction, pledged more than $1 billion 
of private, nongovernmental funds over the next 3 years to improve food 
security and nutrition worldwide.

  <bullet> What are USAID and the State Department doing to partner 
        with U.S. NGOs to ensure coordination of effort and leveraging 
        their expertise in international agricultural development?

    Answer. We know that sustainable development goals cannot be 
achieved by our efforts alone. As President Obama, Secretary Clinton, 
USAID Administrator Shah, and other leaders have stated, for our 
development efforts to be successful, we must work across sectors and 
across borders. The more these efforts are coordinated, the greater 
impact they will have.
    The $1 billion pledge of private, nongovernmental funds over 3 
years reflects the importance that U.S.-based civil society 
organizations attach to food security and the crucial role they play in 
the effort to end world hunger. U.S. and partner government efforts can 
be multiplied by NGOs' contributions and expertise. We will continue to 
work with InterAction and their member organizations as they work to 
meet this commitment and we will all work to align our efforts behind 
shared, country-led objectives.
    Our NGO partners have been helpful advocates and conveners, 
bringing together governments, the private sector, and other civil 
society organizations in unique partnerships to further our collective 
progress against global food insecurity and undernutrition. For 
example, in 2010, Secretary Clinton and leaders from Ireland, the 
United Nations, and many other NGOs launched the 1,000 Days partnership 
in 2010 to mobilize governments, civil society, and the private sector 
to improve nutrition in the critical 1,000 day window of opportunity 
from pregnancy through a child's second birthday.
    NGOs serve as implementing partners in many Feed the Future 
programs. NGOs also help to advance food security objectives as a 
result of their local ties. They are able to reach communities that can 
be challenging to access and understand local needs on the ground; this 
expertise helps to ensure programs are tailored to specific communities 
and can achieve maximum impact. In Senegal, for example, in 
collaboration with local partners, Feed the Future is engaging over 350 
community nutrition volunteers who teach families to prepare nutritious 
meals and practice good hygiene. This program helps farmers improve 
agricultural practices in over 80 community demonstration gardens. By 
identifying locally grown, nutritious foods, these workers are helping 
reduce micronutrient deficiencies in children in over 350 villages.
    Valuable feedback from our NGO partners has been a key 
consideration in the evolution of Feed the Future including in the 
design of approaches and interventions. With this in mind, we have 
focused on the importance of gender equality in addition to the need 
for expanded opportunities for women and girls; increased our strategic 
focus and programming on climate resilient agricultural development; 
increased program integration between nutrition and agriculture; 
expanded financial inclusion programming (e.g., microcredit), 
especially for women and the very poor; and deepened our focus on water 
issues though the expansion of small-scale water management 
technologies, promotion of water-use efficiency and drought tolerance 
of major cereal crops, and support to several of the Consultative Group 
on International Agricultural Research centers located around the 
world.
    In addition, Feed the Future focus country investment plans, which 
are country-led multiyear investment plans for food security, were 
formed in consultation with civil society. This has helped ensure that 
each country investment plan represents a national, comprehensive 
strategy for significantly reducing hunger and poverty and improving 
food security in a particular country.
    We are committed to ongoing engagement with local and international 
NGOs as we strive to achieve Feed the Future's key objectives: to 
reduce poverty and undernutrition. Feed the Future interagency partners 
are developing an action plan to strengthen engagement with NGOs and 
civil society organizations. This plan will encourage broad-based 
dialogue; foster creation of new partnerships among donors, the private 
sector, and partner governments; and promote best practices.

                           POST HARVEST LOSS

    Question. Post-harvest loss and commodity spoilage are significant 
challenges in the harsh climates of the developing world.

  <bullet> What efforts are currently underway to mitigate post-harvest 
        losses by providing materials and technical assistance related 
        to improved storage?
  <bullet> Are concerns about commodity losses a driver of FTF policy, 
        and to what extent do the economic impacts of those losses 
        affect FTF decisions with respect to resource allocation and 
        budget planning?
  <bullet> Is USAID working with any specific project, or with any NGO 
        or private sector company that focuses on safe storage 
        techniques, and if so, what is the nature of the engagement and 
        are the results proving to be positive in terms of loss 
        mitigation and improved ability to bring products to market?

    Answer. Addressing the challenges posed by post-harvest loss and 
spoilage is critical to fighting food insecurity. According to a recent 
World Bank/FAO report, ``[t]he value of postharvest grain losses in 
sub-Saharan Africa [are estimated] at around $4 billion a year. . . . 
This lost food could meet the minimum annual food requirements of at 
least 48 million people.'' \1\ Feed the Future programming targets 
post-harvest loss in its focus countries in a number of ways, across 
agricultural value chains prioritized by the beneficiary governments 
and as part of the Feed the Future multiyear strategies.
---------------------------------------------------------------------------
    \1\ http://siteresources.worldbank.org/INTARD/Resources/
MissingFoods10_web.pdf.
---------------------------------------------------------------------------
    At the household level, Feed the Future programs work on improved 
drying and household storage methods to help families avoid losses 
post-harvest. This work is coordinated with Food for Peace programs. At 
the community level, Feed the Future works on mobilizing private 
finance by providing credit guarantees, which support the development 
of small and medium agroenterprises that focus on storage, transport, 
and food processing. Feed the Future programming also works with the 
private sector and farmer groups to develop regional initiatives like 
warehouse receipts programs capable of serving thousands of communities 
with storage access and confident proof of ownership when they store 
their crops.
    Under Feed the Future, USAID also works with interagency partners 
to address post-harvest loss issues. In Ghana, USAID supports three 
MCC-funded post-harvest Agribusiness Centers, benefiting about 3,000 
farmers. In Senegal, USAID supports MCC's investment in irrigated 
agriculture and roads in the Senegal River Valley and the Southern 
Forest Zone by promoting value chains, soil management, access to 
credit, post-harvest facilities, capacity training, quality standards, 
and marketing in those same areas.
    Addressing post-harvest losses was a frequently identified 
strategic focus in all of our Feed the Future focus countries' 
multiyear strategies and implementation plans. These strategies form 
the basis of initial program planning and budget allocation of Feed the 
Future funding. Post-harvest loss is also prominently featured in our 
focus countries' Country Investment Plan (CIPs), which are country-led 
multiyear investment plans for food security efforts formed with input 
from the NGO community, other donors, and the private sector.
    The Feed the Future research agenda also focuses on mitigating 
post-harvest loses. Our efforts to increase legume productivity, for 
example, include the development of disease- and stress-tolerant, high-
yielding varieties of protein-rich legumes. They also emphasize 
improved market linkages, post-harvest processing, and integration of 
legumes into major farming systems to improve household nutrition and 
incomes, especially for women.
    For example, with our assistance, in Maguiguane, Mozambique, the 
Ministry of Agriculture is helping farmers improve post-harvest 
packing, storage, and processing of their produce through a new 
vegetable processing and distribution center, which benefits 480 
farmers. Techniques, models, and knowledge learned from this processing 
and distribution center are provided to Mozambique's national 
agricultural research institute (IIAM). Meanwhile, the Support Program 
for Economic and Enterprise Development (SPEED) program works on policy 
changes that promote transportation, port modernization, and electrical 
infrastructure.
    In another example, Feed the Future is investing in projects 
specifically targeted at post-harvest handling and storage issues in 
Rwanda. In Rwanda post-harvest losses for beans and maize are currently 
estimated to be as high as 30 percent. In FY 2011, Rwanda's Post-
harvest Handling and Storage (PHHS) project, implemented by NGOs Carana 
and ACDI/VOCA, leveraged $387,000 in private sector funds to support 
the establishment of post-harvest handling and storage centers. Through 
the project, a 3,000 ton storage facility will impact more than 10,000 
smallholder farmers. During the same period, 59 producer unions, trade/
business associations, and community-based organizations received 
direct assistance from the PHHS project. As a result, a majority of 
participant farmers reported receiving better prices for their products 
due to increases in quality and not one of the more than 22,000 farmers 
trained in post-harvest handling practices reported produce rejected by 
buyers.
    Safe storage and infrastructure issues in many of our focus 
countries will remain serious issues for some time to come, but we are 
committed to continue working on them as a means to create sustainable 
food security, increased health outcomes, and poverty reduction.

                          PROGRESS REPORT DATA

    Question. Although respecting Feed the Future's whole of government 
approach, it would be valuable to see the progress of the USAID 
Development Assistance funds for Feed the Future separated from other 
accounts, such as MCC and title II nonemergency. It would also be 
helpful to publish country specific results. This would help make a 
better case to Congress and the American taxpayer for funding 
allocations, and clarify how each account is being used allowing for 
data to be shared so different programs can learn cost saving measures 
from each other.

  <bullet> Is disaggregated Feed the Future data publicly available for 
        the different accounts that contribute to Feed the Future? If 
        yes, where can it be found?
  <bullet> If there is no disaggregated Feed the Future data publicly 
        available, would USAID consider publishing a supplemental 
        report to the progress report showing disaggregated results for 
        each account?
  <bullet> Once disaggregated by account, would USAID consider 
        publishing country specific results to see progress in each 
        Feed the Future country?
  <bullet> While we would appreciate USAID publishing these 
        supplementals as soon as possible, in the long term, and 
        consistent with USAID's aid transparency initiative, this data 
        would ideally be publically available for third parties to 
        analyze. Will USAID be providing more specific project level 
        funding and results data to AIData2.0 or the Foreign Assistance 
        Dashboard?

    Answer. The Feed the Future Monitoring System (FTFMS) was created 
to compile results from several agencies and includes comprehensive 
indicators for Feed the Future that are being used by the five U.S. 
Government agencies that are supporting Feed the Future activities. The 
U.S. Agency for International Development, U.S. Department of 
Agriculture, Millennium Challenge Corporation, the Global Agriculture & 
Food Security Program, and the International Fund for Agricultural 
Development reported in FY 2011. As a whole of government initiative, 
each agency contributes its expertise to support the initiative's 
mission; some agencies work on implementation and others collaborate on 
policy and technical issues. All aspects of the initiative are vital to 
its success; however, much of the data in the FTFMS focuses solely on 
the implementation side of the initiative, and does not reflect the 
policy or technical contributions. As a result, the information in its 
disaggregated form would not reflect the full contribution of all 
partner agencies. Feed the Future-wide results do appear in the Feed 
the Future Progress Reports.
    However, USAID is using this rigorous and specific system to hold 
itself and its partners accountable for real impact and results and has 
reallocated budgetary resources in line with this evidence. We are 
adding U.S. African Development Foundation and more comprehensive Peace 
Corps results in FY 2012. FTFMS tracks the 57 FTF indicators, including 
the eight Whole-of-Government indicators reported on by at least two 
agencies (see chart, Annex 1). The whole-of-government indicators have 
been developed or adapted based on consultations with all agency 
partners.
    While the Feed the Future Progress Report strives to give a picture 
of the aggregate of our work, it does not provide country-by-country 
results. We are currently in the process of receiving and reviewing the 
data for FY 2012 for each country. Once that process is complete and 
the information is cleared internally, we will update our Feed the 
Future Country Snapshots, which have previously been made available to 
interested Members of Congress and their staff. We will forward these 
updated snapshots to you as well when they are completed. (Please see 
Annex 2 for last year's submission.)
    Finally, AIData2.0 and the Foreign Assistance Dashboard are 
currently not able to present project-level data for Feed the Future. 
We do maintain and update a variety of outlets that help offer more 
frequent updates, such as www.feedthefuture.gov, social media 
platforms, and a monthly newsletter. In addition, we are currently 
funding 20 independent impact evaluations of our work around the world. 
Individual missions plan to fund another 15-20 independent impact 
evaluations which will be conducted by third parties.

[Editor's note.--Annex 1 could not be duplicated in the printed 
hearing but will be maintained in the permanent record of the 
committee. It can also be viewed at http://
www.feedthefuture.gov/resource/summary-chart-feed-future-
indicators.
    Annex 2 was too voluminous to include in the printed 
hearing. It will be maintained in the permanent record of the 
committee.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
